 I            tr. ·S•.• Dep~rtment•• of •Just.ice
              Office of the Inspect()r (foneral

 I
 I
 I       A llevi.e w of the Fed.era! Bttreau of
 I       Investigatio11's Use of National
 I        Security Letters (U)
,I
;·   .




 I
 I
 I
 I
 I
 I
 I
 I                                                                                                                                                                                               Office.of the Inspector General
                                                                                                                                                                                                                                                                                                March.2007
 I
 I       :·   .. ....•
                '    ,.; -~ ,,;,,; ,,;.;   .............. ..._.:..:.:-:........·..-.-:-:-:-_._.·......·. .. ·-·-·:···:·:· ..-.-........-.-.-.-.-... ' . ....... ._._._........... ----·-·-·-·
                                                         _                                                                                         • •'--'       _                                         ~--·   · · ···•••.;.; ••.; ...,,, , .,.,,,•••·._._.-.-._._... • ·· •_•:•:-:-:-·--·- · •,•• • •••_•:·····:·:· · •"••••••• · ·_•:•:•:·:· ·'•••'"• V•• _•,••-••- •-.• •: ·~ ·



                                                                                                                                                                                                DRVFROM:
 I
                                                                                                                                                                                                b BCLON:
 I
                             TABLE OF CONTENTS (U)
TABLE OF CONTENTS (U) .......................................................................... i

INDEX OF CHARTS, DIAGRAMS, AND TABLES (U) .................................... vi

LIST OF ACRONYMS (U) ........................................................................... vii

EXECUTIVE SUMMARY (U) ..................................................................... viii

CHAPTER ONE: INTRODUCTION (U) ........................................................ 1

I.      Provisions of the USA Patriot Act and Reauthorization Act (U) .......... 1

II.     Methodology of the OIG Review (U) ................................................... 3

III.    Organization of the Report (U) .......................................................... 5

CHAPTER TWO: BACKGROUND (U) .......................................................... 7

I.     Background on National Security Letters (U) .................................... 7
       A.      The Patriot Act (U) .................................................................. 8
       B.      Types of Information Obtained by National Security
               Letters (U)............................................................................. 10
        C.     The Patriot Reauthorization Act (U) ....................................... 10

II.    The Four National Security Letter Statutes (U) ............................... 11
       A.      The Right to Financial Privacy Act (U) ................................... 11
       B.      The Electronic Communications Privacy Act (U) .................... 12
        C.     The Fair Credit Reporting Act (U) .......................................... 14
        D.     The National Security Act (U) ................................................ 15

III.   The Attorney General's Guidelines for FBI National Security
       Investigations and Foreign Intelligence Collection (U) ..................... 16
       A.       Levels of Investigative Activity under the FCI Guidelines
                (January 1, 2003 - October 31, 2003) (U) .............................. 16
       B.       Levels of Investigative Activity under the NSI Guidelines
                (October 31, 2003) (U) ........................................................... 17

IV.    The Role of FBI Headquarters and Field Offices in Issuing and
       Using National Security Letters (U) ................................................. 19
       A.       FBI Headquarters (U) ............................................................ 19


                                                   i
                1.       Coun terterrorism Division (U) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
                2.       Counterintelligence Division (U)................................... 19
                3.       Cyber Division (U) ....................................................... 19
                4.       Directorate of Intelligence (U)....................................... 19
                5.       Office of the General Counsel (FBI-OGC) (U) ................ 20
        B.      FBI Field Divisions (U) .......................................................... 20
                1.       Chief Division Counsel (U) ........................................... 20
                2.       Field Intelligence Grau ps (U) ........................................ 2 1

CHAPTER THREE: THE FBI'S COLLECTION AND RETENTION OF
    INFORMATION OBTAINED FROM NATIONAL SECURITY
    LETTERS (U) .................................................................................. 22

I.     The FBI 's Process for Collecting Information Through National
       Security Letters (U) ........................................................................ 22

II.    The FBI's Retention of Information Obtained from National
       Security Letters (U) ........................................................................ 27

CHAPTER FOUR: NATIONAL SECURITY LETTER REQUESTS ISSUED
    BY THE FBI FROM 2003 THROUGH 2005 (U) ................................ 31

I.      Inaccuracies in the FBI's National Security Letter Tracking
        Database (U) .................................................................................. 3 1

II.     National Security Letter Requests From 2003 Through 2005 (U) ..... 36

CHAPTER FIVE: THE EFFECTIVENESS OF NATIONAL SECURITY
    LETTERS AS AN INVESTIGATIVE TOOL (U) ................................... 42

I.      Introduction (U) ............................................................................. 42

II.    The Effectiveness of National Security Letters Prior to the Patriot
       Act (U) ........................................................................................... 43

III.   The Effectiveness of National Security Letters as an Investigative
       Tool in 2003 through 2005 (U) ....................................................... 45
       A.       The Importance of the Information Acquired From
                National Security Letters to the Department's Intelligence
                Activities (U) ......................................................................... 45
                1.       Principal Uses of National Security Letters (U) ............. 46
                2.       The Value of Each Type of National Security
                         Letter (U) ..................................................................... 48

                                                             ii
       B.      Analysis of Information Obtained From National Security
               Letters (U) ............................................................................. 52
                1.      Types of Analysis (U) ................................................... 52
               2.       Formal Analytical Intelligence Products (U) .................. 54
       C.      The FBI's Dissemination of Information Obtained From
               National Security Letters to Other Entities (U) ....................... 56
       D.      Information From National Security Letters Provided to
               Law Enforcement Authorities for Use in Criminal
               Proceedings (U) ..................................................................... 60
                1.      Routine Information Sharing With United States
                        Attorneys' Offices (U) ................................................... 60
               2.       Providing Information to Law Enforcement Authorities
                        for Use in Criminal Proceedings (U) ............................. 62

IV.    Conclusion (U) ............................................................................... 65

CHAPTER SIX: IMPROPER OR ILLEGAL USE OF NATIONAL SECURITY
    LETTER AUTHORITIES (U) ............................................................. 67

I.     Possible IOB Violations Arising from National Security Letters
       Identified by the FBI (U) ................................................................. 68
       A.      The IOB Process for Reporting Possible Violations of
               Intelligence Activities in the United States (U) ....................... 69
       B.      Field Division Reports to FBI-OGC of 26 Possible IOB
               Violations Involving the Use of National Security Letters (U) .. 70
                1.      Possible IOB Violations Identified by the FBI (U) .......... 70
               2.       OIG Analysis Regarding Possible IOB Violations
                        Identified by the FBI (U) .............................................. 78

II.    Additional Possible IOB Violations Identified by the OIG During
       Our Field Visits (U) ........................................................................ 79
       A.      Possible IOB Violations Identified by the OIG (U) ................... 79
       B.      National Security Letter Issued in a Charlotte, N.C.
               Terrorism Investigation (U) .................................................... 83
       C.      OIG Analysis Regarding Possible IOB Violations Identified or
               Reviewed by the OIG (U) ....................................................... 85

III.   Improper Use of National Security Letter Authorities by Units in
       FBI Headquarters' Counterterrorism Division Identified by the
       OIG (U) .......................................................................................... 87


                                                   iii
       A.              Using "Exigent Letters" Rather Than ECPA National
                       Security Letters (U) ............................................................... 87
                       1.              FBI Contracts With Three Telephone Companies (U) .... 88
                       2.             The Exigent Letters to Three Telephone
                                      Companies (U) ............................................................. 90
                       3.             Absence oflnvestigative Authority for the Exigent
                                      Letters (U) ................................................................... 93
                       4.              Efforts by the FBI's National Security Law Branch to
                                       Conform CAU's Practices to the Electronic
                                       Communications Privacy Act (U) .................................. 94
                       5.              OIG Analysis of Exigent Letters (U) .............................. 96
       B.              National Security Letters Issued From Headquarters Control
                       Files Rather Than From Investigative Files (U) ....................... 99
                       1.              National Security Letters Issued From a Headquarters
                                       Special Project Control File (U) .................................. 100
                       2.              National Security Letters Issued by the Electronic
                                       Surveillance Operations and Sharing Unit (U) ............ 101
                       3.              OIG Analysis (U) ........................................................ 103

IV.    Failure to Adhere to FBI Internal Control Policies on the Use of
       National Security Letter Authorities (U) ........................................ 104
                       1.              Lapses in Internal Controls (U) .................................. 105
                       2.              OIG Analysis of Failures to Adhere to FBI Internal
                                       Control Policies (U) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 107

CHAPTER SEVEN: OTHER NOTEWORTHY FACTS AND
    CIRCUMSTANCES RELATED TO THE FBI'S USE OF NATIONAL
    SECURITY LETTERS (U) ............................................................... 109

I.     Using the "least intrusive collection techniques feasible" (U) ......... 109

II.    Telephone "toll billing records information" (U) ............................. 112

III.   The Role of FBI Division Counsel in Reviewing National Security
       Letters (U) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 113

IV.    Issuing NSLs From "Control Files" Rather Than From
       "Investigative Files" (U) ................................................................. 116

V.     Obtaining Records From Federal Reserve Banks in Response to
       "Certificate Letters" Rather Than by Issuing RFPA NSLs (U) .......... 116


                                                                                        iv
VI.   The OGC Database Does Not Identify the Targets of National
      Security Letters When They are Different From the Subjects of
      the Underlying Investigations (U) .................................................. 119

CHAPTER EIGHT: CONCLUSIONS AND RECOMMENDATIONS (U) ....... 121




                                             v
       INDEX OF CHARTS, DIAGRAMS, AND TABLES (U)

                                                                      Page
Chart 1.1     Relationship Between Investigations, NSLs, and            4
              NSL Requests (U)
Chart 4.1     NSL Requests (2003 through 2005) (U)                     37
Chart 4.2     NSL Requests Reported to Congress Relating to            38
              U.S. Persons and non-U.S. Persons (2003 through
              2005) (U)
Chart 4.3     NSL Requests in Counterterrorism,                        39
              Counterintelligence, and Foreign Cyber
              Investigations (2003 through 2005) (U)
Chart 4.4     Counterterrorism Investigations With One or More         40
              National Security Letters (2003 through 2005) (U)

Chart 4.5     NSL Requests During Preliminary and Full                 41
              Investigations Identified in Files Reviewed by OIG
              (2003 through 2005) (U)
Diagram 5.1   How the FBI Uses National Security Letters (U)           47
Table 6.1     Summary of 26 Possible IOB Violations Triggered          71
              by Use of National Security Letters Reported to
              FBI-OGC (2003 through 2005) (U)
Table 6.2     Summary of 22 Possible IOB Violations Triggered          80
              by Use of National Security Letters Identified by the
              OIG in Four Field Offices (U)




                                     vi
                 LIST OF ACRONYMS (U)

ACS    Automated Case Support (U)
ASAC   Assistant Special Agent in Charge (U)
ATAC   Anti-Terrorism Advisory Council (U)
CAU    Communications Analysis Unit (U)
CDC    Chief Division Counsel (U)
cxs    Communications Exploitations Section (U)
CY     Calendar Year (U)
DIDO   Designated Intelligence Disclosure Official (U)
EAD    Executive Assistant Director (U)
EC     Electronic Communication (U)
ECPA   Electronic Communications Privacy Act (U)
EOPS   Electronic Surveillance Operations and Sharing Unit (U)
FBI    Federal Bureau of Investigation (U)
FCRA   Fair Credit Reporting Act (U)
FIG    Field Intelligence Grau p (U)
FISA   Foreign Intelligence Surveillance Act of 1978 (U)
IDW    Investigative Data Warehouse (U)
IIR    Intelligence Information Report (U)
IOB    Intelligence Oversight Board (U)
ITOS   International Terrorism Operations Section (U)
JTTF   Joint Terrorism Task Force (U)
NFIP   National Foreign Intelligence Program (U)
NSI    National Security Investigation (U)
NSL    National Security Letter (U)
NSLB   National Security Law Branch (U)
OGC    Office of the General Counsel (U)
OIG    Office of the Inspector General (U)
OIPR   Office of Intelligence Policy and Review (U)
OLC    Office of Legal Counsel (U)
RFPA   Right to Financial Privacy Act (U)
SAC    Special Agent in Charge (U)
SSA    Supervisory Special Agent (U)
TFOS   Terrorist Financing Operations Section (U)
USAO   United States Attorneys' Offices (U)




                               vii
                          EXECUTIVE SUMMARY (U)
       In the USA PATRIOT Improvement and Reauthorization Act of 2005
(Patriot Reauthorization Act), Congress directed the Department of Justice
(Department) Office of the Inspector General (OIG) to review "the
effectiveness and use, including any improper or illegal use, of national
security letters issued by the Department of Justice." See Pub. L. No.
109-1 77, § 119. Four federal statutes contain five specific provisions
authorizing the Federal Bureau of Investigation (FBI) to issue national
security letters (NSLs) to obtain information from third parties, such as
telephone companies, financial institutions, Internet service providers, and
consumer credit agencies. In these letters, the FBI can direct third parties
to provide customer account information and transactional records, such as
telephone toll billing records. (U)
      Congress directed the OIG to review the use of NSLs for two time
periods - calendar years (CY) 2003 through 2004 and CY 2005 through
2006. The first report is due to Congress on March 9, 2007; the second is
due on December 31, 2007. 1 Although we were only required to review
calendar years 2003 and 2004 in the first review, we elected to include data
from calendar year 2005 as well. (U)
       In the Patriot Reauthorization Act, Congress directed the OIG's review
to include: (U)
       (1)    an examination of the use of national security letters
              by the Department of Justice during calendar years
              2003 through 2006; (U)
       (2)    a description of any noteworthy facts or circumstances
              relating to such use, including any improper or illegal
              use of such authority; and (U)
       (3)    an examination of the effectiveness of national security
              letters as an investigative tool, including - (U)


        * This report includes information that the Department of Justice considered to be
classified and therefore could not be publicly released. To create this public version of the
report, the OIG redacted (deleted) the portions of the report that the Department considered
to be classified, and we indicate where those redactions were made. However, the
Executive Summary of the report is completely unclassified. In addition, the OIG has
provided copies of the full classified report to the Department, the Director of National
Intelligence, and Congress. (U)
       1  The Patriot Reauthorization Act also directed the OIG to conduct reviews for the
same two time periods on the use and effectiveness of Section 215 of the Patriot Act, a new
authority under the Patriot Act that authorizes the FBI to obtain business record orders
from the Foreign Intelligence Surveillance Court. The OIG's first report on the use and
effectiveness of Section 215 orders is contained in a separate report issued in conjunction
with this review of NSLs. (U)

                                            viii
               (A)    the importance of the information acquired by
                      the Department of Justice to the intelligence
                      activities of the Department of Justice or to any
                      other department or agency of the Federal
                      Government; (U)
               (B)    the manner in which such information is
                      collected, retained, analyzed, and disseminated
                      by the Department of Justice, including any
                      direct access to such information (such as
                      access to "raw data") provided to any other
                      department, agency, or instrumentality of
                      Federal, State, local, or tribal governments or
                      any private sector entity; (U)
               (C)    whether, and how often, the Department of
                      Justice utilized such information to produce an
                      analytical intelligence product for distribution
                      within the Department of Justice, to the
                      intelligence community ... , or to other Federal,
                      State, local, or tribal government departments,
                      agencies or instrumentalities; (U)
               (D)    whether, and how often, the Department of Justice
                      provided such information to law enforcement
                      authorities for use in criminal proceedings .... 2 (U)
       In this report, we address each of these issues. To examine these
issues, the OIG conducted interviews of over 100 FBI employees, including
personnel at FBI Headquarters and at the Department. OIG teams also
traveled to FBI field offices in New York, Chicago, Philadelphia, and San
Francisco where we interviewed over 50 FBI employees. In the field offices,
the OIG teams examined a judgmental sample of 77 counterterrorism and
counterintelligence investigative cases files and 293 NSLs issued by those
field offices to determine if the NSLs complied with relevant statutes,
Attorney General Guidelines, and internal FBI policy. (U)
       The OIG also analyzed the FBI's NSL tracking database maintained by
the FBI's Office of the General Counsel (FBI-OGC), which is the only
database that compiles information on NSL usage for the entire FBI. The
OGC database is used by the FBI to collect information that the Department
is required to report to Congress in semiannual classified reports and, since
passage of the Patriot Reauthorization Act, in an annual public report. We
performed various tests on the OGC database to assess the accuracy and
reliability of the FBI's reports. (U)


      2   Patriot Reauthorization Act§ 119(b). (U)

                                            ix
      This Executive Summary summarizes our full 127-page report of
investigation on NSLs, including its main findings, conclusions, and
recommendations. (U)
       The Appendix to the report contains comments on the report by the
Attorney General, the Director of National Intelligence, and the FBI. The
Appendix also contains copies of the national security letter statutes in
effect prior to the Patriot Reauthorization Act. The classified report also
contains a classified appendix. (U)

I.     Background on National Security Letters (U)
       The Patriot Act significantly expanded the FBI's preexisting authority
to obtain information through national security letters. 3 Section 505 of the
Patriot Act broadened the FBI's authority by eliminating the requirement
that the information sought in an NSL must pertain to a foreign power or an
agent of a foreign power. This section of the Patriot Act statute substituted
the lower threshold that the information sought must be relevant to an
investigation to protect against international terrorism or espionage,
provided that the investigation of a United States person is not conducted
"solely on the basis of activities protected by the first amendment of the
Constitution of the United States." As a consequence of this lower
threshold, NSLs may request information about persons other than the
subjects of FBI national security investigations so long as the requested
information is relevant to an authorized investigation. (U)
      Section 505 of the Patriot Act also permits Special Agents in Charge of
the FBI's 56 field offices to sign NSLs, a change that significantly expanded
approval authority beyond the pre-Patriot Act group of senior FBI
Headquarters officials authorized to sign NSLs. (U)
      In addition, the Patriot Act added a new authority permitting the FBI
to use NSLs to obtain consumer full credit reports in international terrorism
investigations pursuant to an amendment to the Fair Credit Reporting Act
(FCRA). 4 (U)
      NSLs may be issued by the FBI in the course of national security
investigations, which are governed by Attorney General Guidelines. 5 The


       3  The term "USA PATRIOT Act" is an acronym for the Uniting and Strengthening
America by Providing Appropriate Tools Required to Intercept and Obstruct Terrorism Act of
2001, Pub. L. No. 107-56, 115 Stat. 272 (2001). It is commonly referred to as "the Patriot
Act." (U)
       4   15 U.S.C. § 168lv (Supp. IV 2005). (U)
       5  During the time period covered by this review, calendar years 2003 through 2005,
the Attorney General Guidelines for national security investigations were revised. From
January 1, 2003, through October 31, 2003, investigations of international terrorism or
espionage were governed by the Attorney General Guidelines for FBI Foreign Intelligence

                                             x
Attorney General's Guidelines for FBI National Security Investigations and
Foreign Intelligence Collection (NSI Guidelines) authorize the FBI to conduct
investigations concerning threats or potential threats to the national
security, including threats arising from international terrorism, espionage,
other intelligence activities, and foreign computer intrusions. The NSI
Guidelines authorize three levels of investigative activity - threat
assessments, preliminary investigations, and full investigations. NSLs are
among the investigative techniques that are permitted to be used during
national security investigations. (U)

       A.       The Four National Security Letter Statutes (U)
     There are four statutes authorizing the FBI to issue five types of NSLs.
We discuss each of these statutes below: (U)

                 1.     The Right to Financial Privacy Act (U)
       The Right to Financial Privacy Act (RFPA) was enacted in 1978 "to
protect the customers of financial institutions from unwarranted intrusion
into their records while at the same time permitting legitimate law
enforcement activity." 6 The RFPA requires federal government agencies to
provide individuals with advance notice of requested disclosures of personal
financial information and affords individuals an opportunity to challenge the
request before disclosure is made to law enforcement authorities. 7 (U)
       The RFPA NSL statute, enacted in 1986, created an exception to the
advance notice requirement that permitted the FBI to obtain financial
institution records in foreign counterintelligence cases. Since the Patriot
Act, the FBI may obtain financial records upon certification that the
information is sought. (U)
       for foreign counterintelligence purposes to protect against
       international terrorism or clandestine intelligence activities,
       provided that such an investigation of a United States person is
       not conducted solely on the basis of activities protected by the
       first amendment to the Constitution of the United States. 8 (U)
      The types of financial information the FBI can obtain through RFPA
national security letters include information concerning open and closed


Collection and Foreign Counterintelligence Investigations (FCI Guidelines)(March 1999).
Effective October 31, 2003, these investigations were conducted pursuant to the Attorney
General's Guidelines for FBI National Security Investigations and Foreign Intelligence
Collection (NSI Guidelines). (U)
       6    H.R. Rep. No. 95-1383, at 33 (1978). (U)
       7    12 U.S.C. §§ 3401-3422 (2000). (U)
       s 12 U.S.C. § 3414(a)(5)(A) (2000 & Supp. IV 2005). (U)


                                              xi
checking and savings accounts and safe deposit box records from banks,
credit unions, thrift institutions, investment banks or investment
companies, as well as transactions with issuers of travelers checks,
operators of credit card systems, pawnbrokers, loan or finance companies,
travel agencies, real estate companies, casinos, and other entities. (U)

                2.     The Electronic Communications Privacy Act (U)
      The Electronic Communications Privacy Act (ECPA), enacted in 1986,
extends statutory protection to electronic and wire communications stored
by third parties, such as telephone companies and Internet service
providers. 9 (U)
      The ECPA NSL statute allows the FBI to obtain "subscriber
information and toll billing records information, or electronic
communication transactional records" from a "wire or electronic
communications service provider" in conjunction with a foreign
counterintelligence investigation upon certification that the information
sought is
       relevant to an authorized investigation to protect against
       international terrorism or clandestine intelligence activities
       provided that such an investigation of a United States person is
       not conducted solely on the basis on activities protected by the
       first amendment to the Constitution of the United States. 10 (U)
     The types of telephone and e-mail transactional information the FBI
can obtain through ECPA national security letters include: (U)
       •     Historical information on telephone calls made and received from a
             specified number, including land lines, cellular phones, prepaid
             phone card calls, toll free calls, alternate billed number calls (calls
             billed to third parties), and local and long distance billing records
             associated with the phone numbers (known as toll records); (U)
       •     Electronic communication transactional records (e-mails),
             including e-mail addresses associated with the account; screen
             names; and billing records and method of payment; and (U)
       •     Subscriber information associated with particular telephone
             numbers or e-mail addresses, such as the name, address, length of
             service, and method of payment. 11 (U)


       9    18 U.S.C. § 2709 (1988). (U)
       10    18 U.S.C. § 2709(b)(2) (2000 & Supp. IV 2005). (U)
        11 The ECPA permits access only to "subscriber and toll billing records information''

or "electronic communication transactional records,'' as distinguished from the content of
telephone conversations or e-mail communications. (U)

                                              xii
                3.     The Fair Credit Reporting Act (U)
       The Fair Credit Reporting Act (FCRA) was enacted in 1970 to protect
personal information collected by credit reporting agencies. 12 As amended
by the Patriot Act, the FCRA authorizes two types of national security
letters, FCRAu and FCRAv NSLs. The initial FCRA NSL statute, enacted in
1996, authorizes the FBI and certain other government agencies to issue
NSLs to obtain a limited amount of information about an individual's credit
history: the names and addresses of all financial institutions at which a
consumer maintains or has maintained an account; and consumer
identifying information limited to name, current address, former addresses,
places of employment, or former places of employment pursuant to FCRAu
NSLs. 13 Since the Patriot Act, the certifying official must certify that the
information requested is (U)
       sought for the conduct of an authorized investigation to protect
       against international terrorism or clandestine intelligence
       activities, provided that such an investigation of a United States
       person is not conducted solely upon the basis of activities
       protected by the first amendment to the Constitution of the
       United States. 14 (U)
       In 2001, the Patriot Act amended the FCRA to add a new national
security letter authority, referred to as FCRAv NSLs, which authorizes the
FBI to obtain a consumer reporting agency's credit reports and "all other"
consumer information in its files. 15 Thus, since the Patriot Act, the FBI can
now obtain full credit reports on individuals during national security
investigations. The certifying official must certify that the information is
"necessary for" the FBI's "investigations of, or intelligence or counter-
intelligence activities or analysis related to, international terrorism .... " 16
(U)

                4.     The National Security Act (U)
       In the wake of the espionage investigation of former Central
Intelligence Agency employee Aldrich Ames, Congress enacted an additional
NSL authority in 1994 by amending the National Security Act of 1947. The
National Security Act NSL statute authorizes the FBI to issue NSLs in
connection with investigations of improper disclosure of classified

       12   15 U.S.C. § 1681 et seq. (U)
        13 Intelligence Authorization Act for Fiscal Year 1996, Pub. L. No. 104-93,
§ 601(a), 109 Stat. 961, codified at 15 U.S.C. § 1681u (Supp. V. 1999). (U)
       14   15 U.S.C. § 1681u(a)-(b) (2000 & Supp. IV 2005). (U)

       15   Patriot Act,§ 358(g) (2001). (U)
       16   Patriot Act,§ 358(g) (2001). (U)

                                               xiii
information by government employees. 17 The statute permits the FBI to
make requests to financial agencies and other financial institutions and
consumer reporting agencies "in order to conduct any authorized law
enforcement investigation, counterintelligence inquiry, or security
determination."18 (U)
       National Security Act NSLs are rarely used by the FBI. (U)

       B.      The FBI's Collection and Retention of Information Obtained
               From National Security Letters (U)
       To obtain approval for national security letters, FBI case agents must
prepare: (1) an electronic communication (EC) seeking approval to issue the
letter (approval EC), and (2) the national security letter itself. The approval
EC explains the justification for opening or maintaining the investigation
and why the information requested by the NSL is relevant to that
investigation. (U)
       For field division-initiated NSLs, the Supervisory Special Agent of the
case agent's squad, the Chief Division Counsel (CDC), and the Assistant
Special Agent in Charge are responsible for reviewing the approval EC and
the NSL prior to approval by the Special Agent in Charge. Division Counsel
are required to review the NSLs to ensure their legal sufficiency -
specifically, the relevance of the information requested to an authorized
national security investigation. (U)
       The final step in the approval process occurs when the Special Agent
in Charge or authorized FBI Headquarters official (the certifying official)
certifies that the requested records are relevant to an authorized
investigation to protect against international terrorism or clandestine
intelligence activities and, with respect to investigations of "U.S. persons,"
that the investigation is not conducted solely on the basis of activities
protected by the First Amendment. After making the required certifications,
the official initials the approval EC and signs the national security letter.
(U)
       During the time period covered by this review, the FBI had no policy
or directive requiring the retention of signed copies of national security
letters or any requirement to upload national security letters into the FBI's
case management system, the Automated Case Support (ACS) system. We
also found that the FBI has no uniform system for tracking responses to
national security letters, either manually or electronically. Instead,
individual case agents are responsible for following up with NSL recipients


        17 See H.R. Rep. No. 103-541 (1994) and H.R. Conf. Rep. No. 103-753 (1994),
reprinted in 1994 U.S.C.C.A.N. 2703. (U)
       18   50 U.S.C. § 436(a)(l) (2000). (U)

                                                xiv
to ensure timely and complete responses, ensuring that the documents or
electronic media provided to the FBI match the requests, analyzing the
responses, and providing the documents or other materials to FBI
intelligence or financial analysts who also analyze the information. (U)
       In some field offices, case agents are required to formally document
their receipt of information from NSLs, including the date the information
was received; the NSL subject's name, address, and Social Security number;
and a summary of the information obtained. This document then is
electronically uploaded into ACS. Once the data is available electronically,
other case agents throughout the FBI can query ACS to identify information
that may pertain to their investigations. (U)
       The FBI also evaluates the relationship between NSL-derived
information and data derived from other investigative tools that are available
in various databases. For example, when communication providers furnish
telephone toll billing records and subscriber information on an investigative
subject in response to an NSL, the data is uploaded into Telephone
Applications, a specialized FBI database that can be used to analyze the
calling patterns of a subject's telephone number. The FBI also places
NSL-derived information into its Investigative Data Warehouse (IDW), a
database that enables users to access, among other data, biographical
information, photographs, financial data, and physical location information
for thousands of known and suspected terrorists. IDW can be accessed by
nearly 12,000 users, including FBI agents and analysts and members of
Joint Terrorism Task Forces. Information derived from responses to
national security letters that is uploaded into ACS and into Telephone
Applications is periodically uploaded to IDW. (U)

II.   National Security Letters Issued by the FBI From 2003 Through
      2005 (U)
       In this section of the Executive Summary, we first discuss several
problems with the FBI's Office of General Counsel National Security Letter
database (OGC database) that affect the accuracy of the information in this
database. We then present data on the FBI's use of national security letters
from 2003 through 2005 based on data derived from the OGC database, the
Department's semiannual classified reports to Congress on NSL usage, and
our field work. (U)

      A.    Inaccuracies in the FBI's National Security Letter Tracking
            Database (U)
       During the period covered by our review, the Department was
required to file semiannual classified reports to Congress describing the
total number of NSL requests issued pursuant to three of the five NSL



                                     xv
authorities. 19 In these reports, the Department provided the number of
requests for records and the number of investigations of different persons or
organizations that generated NSL requests. These numbers were each
broken down into separate categories for investigations of "U.S. persons or
organizations" and "non-U.S. persons or organizations." (U)
       Total Number of NSL Requests. According to FBI data, the FBI
issued approximately 8,500 NSL requests in CY 2000, the year prior to
passage of the Patriot Act. After the Patriot Act, according to FBI data, the
number of NSL requests increased to approximately 39,000 in 2003,
approximately 56,000 in 2004, and approximately 47,000 in 2005. (U)
       However, we determined that these numbers were inaccurate because
of three flaws in the manner in which the FBI records, forwards, and
accounts for information about its use of NSLs. (U)
      First, we found incomplete or inaccurate information in the OGC
database on the number of NSLs issued. 20 We compared the number of
NSLs contained in the 77 case files we reviewed during our field work to
those recorded in the OGC database and found approximately 17 percent
more NSLs in the case files we examined than were recorded in the OGC
database. (U)
      We also identified the total number of "requests" contained in the
NSLs (such as requests in a single NSL for multiple telephone numbers or
bank accounts) and compared that to the number of NSL requests recorded
in the OGC database for those same national security letters. Overall, we
found 22 percent more NSL requests in the case files we examined than
were recorded in the OGC database. (U)
       Second, we found that the FBI did not consistently enter the NSL
approval ECs into ACS in a timely manner. As a result, this information
was not in the OGC database when data was extracted for the semiannual
classified reports to Congress, and the reports were therefore inaccurate.
Although this data subsequently was entered in the OGC database, it was

       19  The Department was required to include in its semiannual classified reports only
the number of NSL requests issued pursuant to the RFPA (financial records), the ECPA
(telephone toll billing records, electronic communication transactional records and
subscriber information (telephone or e-mail)), and the original FCRA NSL statute (consumer
and financial institution identifying information), FCRAu. The Department was not
required to report the number of NSL requests issued pursuant to the Patriot Act
amendment to the FCRA (consumer full credit reports) or the National Security Act NSL
statute (financial records, other financial information, and consumer reports). The
requirement for public reports on certain NSL usage did not take effect until March 2006,
which is after the period covered by this review. (U)
       20 FBI-OGC utilizes a manual workflow process to enter required information into
ACS. The information is transcribed into a Microsoft Access database which, during the
period covered by our review, had limited analytical capabilities. (U)

                                           xvi
not included in later congressional reports because each report only
includes data on NSL requests made in a specific 6-month period. (U)
       We determined that from 2003 through 2005 almost 4,600 NSL
requests were not reported to Congress as a result of these delays in
entering this information into the OGC database. In March 2006, the FBI
acknowledged to the Attorney General and Congress that NSL data in the
semiannual classified reports may not have been accurate and stated that
the data entry delays affected an unspecified number of NSL requests. 21
After the FBI became aware of these delays, it took steps to reduce the
impact of the delays to negligible levels for the second half of CY 2005. (U)
      Third, when we examined the OGC database, we found incorrect data
entries. We discovered a total of 212 incorrect data entries, including blank
data fields, typographical errors, and a programming feature that provides a
default value of "O" for the number of "NSL requests." Taken together, these
factors caused 4 77 NSL requests to be erroneously excluded from the
Department's semiannual classified reports to Congress. (U)
      As a result of the delays in uploading NSL data and the flaws in the
OGC database, the total numbers of NSL requests that were reported to
Congress semiannually in CYs 2003, 2004, and 2005 were significantly
understated. We were unable to fully determine the extent of the
inaccuracies because an unknown amount of data relevant to the period
covered by our review was lost from the OGC database when it
malfunctioned. However, by comparing the data reflected in these reports to
data in the OGC database for 2003 through 2005, we estimated that
approximately 8,850 NSL requests, or 6 percent of NSL requests issued by
the FBI during this period, were missing from the database. (U)
         Total Number of Investigations of Different U.S. Persons and Non-
u .S.   Persons. We found other inaccuracies in the OGC database that affect
the accuracy of the total number of "investigations of different U.S. persons"
or "investigations of different non-U.S. persons" that the Department
reported to Congress. These included inaccuracies in the NSL approval ECs
from which personnel in FBI-OGC's National Security Law Branch (NSLB)
extract U.S. person/non-U.S. person data, as well as incorrect data entries
in the OGC database. (U)
      Incomplete or inaccurate entries resulted from several factors,
including the inability of the OGC database to filter NSL requests for the
same person in the same investigation (for example, "John T. Doe" and "J.T.
Doe"); failure to account for NSL requests from different FBI divisions


       2l See Memorandum for the Attorney General, Semiannual Reportfor Requests for
Financial Records Made Pursuant to Title 12, United States Code (U.S.C.) Section 3414,
Paragraph (a)(S), National Security Investigations/Foreign Collection (March 23, 2006), at 2.
(U)

                                             xvii
seeking information on the same person; and a default setting of "non-U.S.
person" for the investigative subject for NSL requests seeking financial
records and telephone toll billing/ electronic communication transactional
records. These errors resulted in the misidentification and understatement
of the number of investigations of different U.S. persons that used NSLs.
(U)
      The problems with the OGC database, including the loss of data
because of a computer malfunction, also prevented us from determining
with complete accuracy the number of investigations of different U.S.
persons and different non-U.S. persons during which the FBI issued NSLs
seeking financial records and for telephone toll billing/ electronic
communication transactional records. (U)
      Although we found that the data in the OGC database is not fully
accurate or complete and, overall, significantly understates the number of
FBI NSL requests, it is the only database that compiles information on the
FBI's use of NSLs. Moreover, the data indicates the general levels and
trends in the FBI's use of this investigative tool. We therefore relied in part
on information compiled in the OGC database to respond to questions
Congress directed us to answer regarding the FBI's use of NSLs. (U)

       B.     National Security Letter Requests From 2003 Through 2005
              (U)
              1.     The Total Number of NSL Requests (U)
       From 2003 through 2005, the FBI issued a total of 143,074 NSL
requests. These included all requests issued for telephone toll billing
records information, subscriber information (telephone or e-mail), or
electronic communication transactional records under the ECPA NSL
statute; records from financial institutions such as banks, credit card
companies, and finance companies under the RFPA authority; requests
seeking either financial institution or consumer identifying information
(FCRAu) or consumer full credit reports (FCRAv); and requests pursuant to
the National Security Act NSL authority. 22 The overwhelming majority of the
NSL requests sought telephone toll billing records information, subscriber
information (telephone or e-mail), or electronic communication transactional
records under the ECPA NSL statute. (U)



       22 As shown in Chart 4.1, the number of ECPA NSL requests increased in CY 2004,
and then decreased in CY 2005. We determined that the spike in ECPA NSL requests in CY
2004 occurred because of the issuance of 9 ECPA NSLs in one investigation that contained
requests for subscriber information on a total of 11, 100 separate telephone numbers. If
those nine NSLs are excluded from CY 2004, the number of NSL requests would show a
moderate, but steady increase over the three years. (U)

                                         xviii
      Chart 4.1 illustrates the total number of NSL requests issued in
calendar years 2003 through 2005. (U)

                                 CHART 4.1 (U)

                    NSL Requests (2003 through 2005) (U)



           60,000

           50,000

           40,000

           30,000

           20,000

           10,000



            Sources:   DOJ semiannual classified NSL reports to Congress and FBI-
                       OGC NSL database as of May 2006 (U)
       The number of NSL requests we identified significantly exceeds the
number reported in the Department's first public annual report on NSL
usage, issued in April 2006, because the Department was not required to
include all NSL requests in that report. The Department's public report
stated that in CY 2005 the FBI issued 9,254 NSL requests for information
relating to U.S. persons, of which there were 3,501 NSLs relating to different
U.S. persons. However, this does not include NSL requests under the ECPA
NSL authority for telephone and e-mail subscriber information and NSL
requests related to "non-U.S. persons," which were reported to Congress in
the semiannual classified reports to Congress, or NSL requests not required
to be reported to Congress under FCRAv for consumer full credit reports.
(U)
       It is also important to note the total number of national security letter
requests is different from the number of national security letters, because
one "letter" may include more than one request. That is, during an
investigation several national security letters may be issued, and each letter
may contain several requests. For example, one letter to a telephone
company may request information on seven telephone numbers. As a
result, the numbers normally presented in the FBI's classified reports to
Congress and in its public report are the number of requests made, not the
number of letters issued. In this report, we follow that same approach.
However, Chart 1.1 shows the relationship we found between the number of

                                        xix

                                    ~
NSLs and NSL requests from 2003 through 2005 in counterterrorism and
counterintelligence cases.23 (U)

                                                  CHART 1.1 (U)

                 Relationship Between NSLs and NSL Requests
                           (2003 through 2005) (U)
                               [The chart below is unclassified]
                                         "-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-''-"-"-"-"-"-1

                               100,000


                                80,000 +-------1


                                60,000 .......------1


                                40,000 +-------1


                                20,000


                                     0
                                                        Counterterrorism                                                                                                                             Counterintelligence
                    li!INSLs                                                              31,246                                                                                                                                             12,754
                    D NSL Requests                                                     101,885                                                                                                                                              35,948


               Source: FBI-OGC Database (U)

               2.     Types of NSL Requests (U)
      As illustrated on Chart 4.2 below, during the 3 years of our review the
balance of NSL requests related to investigations of U.S. persons versus
non-U.S. persons shifted. The percentage of NSL requests generated from
investigations of U.S. persons increased from about 39 percent of all NSL
requests in CY 2003 to about 53 percent of all NSL requests in CY 2005.2 4
(U)


       23  The total number of requests in Chart 1.1 is not the same as in chart 4.1
because Chart 1. 1 excludes NSL requests in cyber investigations and NSL requests that are
not required to be reported to Congress. (U)
       24 Chart 4.2 does not contain the same totals as Chart 4.1 because not all NSL
requests reported to Congress identified whether they related to an investigation of a U.S.
person or a non- U.S. person. Of the total number of NSL requests reported in the
Department's semiannual classified reports to Congress for CY 2003 through CY 2005
(which included the ECPA, RFPA and FCRAu requests), 52,199 NSL requests identified
whether the request for information related to a U.S. person or a non-U.S. person. The
remaining NSL requests were for the ECPA NSLs seeking subscriber information for
telephone numbers and Internet e-mail accounts and did not identify the subject's status
as a U.S. person or non-U.S. person. (U)

                                                                                                               xx
                                       CHART 4.2 (U)

                    NSL Requests Reported to Congress
               Relating to U.S. Persons and non-U .S. Persons
                          (2003 through 2005) (U)
                           [The chart below is unclassified]
                             12,000

                             10,000

                              8,000

                              6,000

                              4,000

                              2,000

                                  0
                                         2003      2004        2005
               11111 Non-U.S. Person    10,232     8,494       8,536
               lllllU.S. Person          6,519     8,943       9,475

              Source:     DOJ semiannual classified NSL reports to Congress (U)
       Our analysis of the FBI's use of NSL authorities during the 3 years
also revealed that: (U)
       •   Approximately 73 percent of the total number of NSL requests
           issued from 2003 through 2005 were issued in counterterrorism
           investigations, approximately 26 percent were issued in
           counterintelligence investigations, and less than 1 percent were
           issued in foreign computer intrusion cyber investigations; (U)
       •   Of the 293 NSLs we examined in four field offices, 43.7 percent of
           the NSLs were issued during preliminary investigations and 56.3
           percent were issued during full investigations. (U)

III.   The Effectiveness of National Security Letters as an Investigative
       Tool (U)
       The Patriot Reauthorization Act also directed the OIG to review the
use and effectiveness of national security letters, including the importance
of the information acquired and the manner in which information from
national security letters is analyzed and disseminated within the
Department, to other members of the intelligence community, and to other
entities. (U)




                                             xxi
      A.      The Importance of the Information Acquired From National
              Security Letters to the Department's Intelligence Activities
              (U)
      FBI Headquarters and field personnel told us that they found national
security letters to be effective in both counterterrorism and
counterintelligence investigations. Many FBI personnel used terms to
describe NSLs such as "indispensable" or "our bread and butter." (U)
       FBI personnel reported that the principal objectives for using NSLs
are to: (U)
      •    establish evidence to support Foreign Intelligence Surveillance Act
           (FISA) applications to the Foreign Intelligence Surveillance Court
           for electronic surveillance, physical searches, or pen register /trap
           and trace orders; (U)
      •    assess communication or financial links between investigative
           subjects and others; (U)
      •    collect information sufficient to fully develop national security
           investigations; (U)
      •    generate leads for other field divisions, members of Joint Terrorism
           Task Forces, other federal agencies, or to pass to foreign
           governments; (U)
      •    develop analytical products for distribution within the FBI, other
           Department components, other federal agencies, and the
           intelligence community; (U)
      •    develop information that is provided to law enforcement authorities
           for use in criminal proceedings; (U)
      •    collect information sufficient to eliminate concerns about
           investigative subjects and thereby close national security
           investigations; and (U)
      •    corroborate information derived from other investigative
           techniques. (U)
      Diagram 5.1 illustrates the key uses of national security letters. (U)




                                       xxii
                          DIAGRAM 5.1 (U)

            How the FBI Uses National Security Letters (U)




Telephone
Companies
                                             Analytical
                                                                                    •          WM~
                                                                                                  ~11
                                                                                                  1I
                                                                                                       DIA'




DI                               ~_ _I_n_t_el~ligence Products




                               ••Intelligence Information
                                         Reports
                               ••Intelligence Assessments
                               ••Intelligence Bulletins




                                                        •
                                •arrests
                                • convictions           •   physical search orders
                                • deportations          •   pen register/trap & trace orders



                             Content of
                                                            ·7~~·~,:~: Coo~o<                  ofemoi<

                             telephone
                             calls ..
                                           ,_...::::;;;:~~




                                     xxiii
            1.     Telephone toll billing records and subscriber
                   information, and electronic communication
                   transactional records (U)
       FBI agents and officials told us that telephone toll billing records and
subscriber information and electronic communication transactional records
obtained pursuant to ECPA NSLs enable FBI case agents to connect
investigative subjects with particular telephone numbers or e-mail
addresses and connect terrorism subjects and terrorism groups with each
other. Analysis of subscriber information for telephone numbers and e-mail
addresses also can assist in the identification of the investigative subject's
family members, associates, living arrangements, and contacts. If the
subject's associates are identified, case agents can generate new leads for
their squad or another FBI field division, the results of which may
complement the information obtained from the original NSL. (U)
      The FBI also informed us that the most important use of ECPA
national security letters is to support FISA applications for electronic
surveillance, physical searches, or pen register /trap and trace orders. FISA
court orders for electronic surveillance may authorize the FBI to collect the
content of telephone calls and Internet e-mail messages, information the FBI
cannot obtain using NSLs. (U)

            2.     Financial records (U)
       In addition, the FBI noted that NSLs are important tools for obtaining
financial records related to suspected terrorists and terrorist organizations.
The FBI's ability to track the movement of funds through financial
institutions is essential to identify and locate individuals who provide
financial support to terrorist operations. For example, transactional data
obtained from banks and other financial institutions in response to RFPA
national security letters can reveal the manner in which suspected terrorists
conduct their operations, whether they are obtaining money from suspicious
sources, and identify their spending patterns. Analysis of this data also can
reveal the identity of the financial institutions used by the subject; the
financial position of the subject; the existence of overseas wire transfers by
or to the subject ("pass through" activity); loan transactions; evidence of
money laundering; the subject's involvement in unconventional monetary
transactions, including accounts that have more money in them than can
be explained by ordinary income or the subject's employment; the subject's
financial network; and payments to and from specific individuals. (U)
      In addition, NSLs issued pursuant to FCRA allow the FBI to obtain
information from financial institutions from which an individual has sought
or obtained credit and consumer identifying information limited to the
subject's name, address and former addresses, places of employment, and
former places of employment. The Patriot Act amendment to the FCRA
authorizes the FBI to obtain consumer full credit reports, including records
                                     xxiv
of individual accounts, credit card transactions, and bank account activity.
Information secured from both types of FCRA NSLs provide information that
often is not available from other types of financial records. For example,
consumer credit records provide confirming information about a subject
(including name, aliases, and Social Security number); the subject's
employment or other sources of income; and the subject's possible
involvement in illegal activity, such as bank fraud or credit card fraud. (U)

      B.    Analysis of Information Obtained From National Security
            Letters (U)
      The FBI performs various analyses and develops different types of
analytical intelligence products using information obtained from national
security letters. In counterterrorism investigations, once the case agent
confirms that the response to the NSL matches the request, the most
important function of the initial analysis is to determine if the records link
the investigative subjects or other individuals whose records are sought to
suspected terrorists or terrorist groups. In counterintelligence
investigations, the case agent's initial analysis focuses on the subject's
network and, in technology export cases, the subject's access to prohibited
technologies. (U)
       Following the case agent's initial analysis, agents and analysts
assigned to the FBI's Field Intelligence Groups (FIGs) and analysts with
special expertise in the Headquarters Counterterrorism, Counterintelligence,
and Cyber Divisions generate detailed analyses of intelligence information,
some of which is derived from NSLs. One of the principal analytical
intelligence products generated by FIG analysts are "link analyses" that
typically illustrate the telephone numbers, Internet e-mail addresses,
businesses, credit card transactions, addresses, places of employment,
banks, and other data derived from the NSLs, other investigative tools, and
open sources. (U)
       Information derived from NSLs also may be used in the development
of a variety of written products that are shared with FBI personnel,
distributed more broadly within the Department, shared with Joint
Terrorism Task Forces, or disseminated to other members of the intelligence
community. Among the intelligence products that use information obtained
from NSLs are Intelligence Information Reports, which contain raw
intelligence obtained from NSLs such as telephone numbers and Internet e-
mail accounts; Intelligence Assessments, which are finished intelligence
products that provide information on emerging developments and trends;
and Intelligence Bulletins, which are finished intelligence products that
contain general information on a topic rather than case-specific intelligence.
(U)




                                      xxv
       C.     The FBI's Dissemination of Information Obtained From
              National Security Letters to Other Entities (U)
      Attorney General Guidelines and various information-sharing
agreements require the FBI to share information with other federal agencies
and the intelligence community. In addition, four of the five national
security letter authorities expressly permit dissemination of information
derived from NSLs to other federal agencies if the information is relevant to
the authorized responsibility of those agencies and is disseminated
pursuant to applicable Attorney General Guidelines. 25 (U)
       Pursuant to these statutes and directives, the FBI disseminated
information derived from national security letters to other members of the
intelligence community and to a variety of federal, state, and local law
enforcement agencies during the period covered by our review. However, we
could not determine the number of analytical intelligence products
containing NSL-derived data that were disseminated from 2003 through
2005 because these products do not reference NSLs as the source of the
information. Although none of the FBI or other Department officials we
interviewed could estimate how often NSL-derived information was
disseminated to other entities, they noted that when analytical intelligence
products provided analyses of telephone or Internet communications or
financial or consumer credit transactions, the products likely were derived
in part from NSLs. (U)
       The principal entities outside the Department to whom information
derived from NSLs are disseminated are members of the intelligence
community and Joint Terrorism Task Forces (JTTFs). JTTFs across the
country, composed of representatives of federal, state, and local law
enforcement agencies, respond to, investigate, and share intelligence related
to terrorist threats. Some designated task force members who obtain the
necessary clearances to obtain access to FBI information, are authorized to
access information stored in FBI databases such as ACS, Telephone
Applications, and IDW which, as noted above, contain information derived
from NSLs. (U)




       25  See 12 U.S.C. § 3414(a)(5)(B)(Right to Financial Privacy Act); 18 U.S.C.
§ 2709(d)(Electronic Communications Privacy Act); 15 U.S.C.A. §1681u(f)(Fair Credit
Reporting Act); and 50 U.S.C.A. § 436 (National Security Act). While the NSL statute
permitting access to consumer full credit reports, 15 U.S.C. §1681v, does not explicitly
authorize dissemination, it does not limit such dissemination. (U)

                                            xxvi
      D.    Information From National Security Letters Provided to Law
            Enforcement Authorities for Use in Criminal Proceedings
            (U)
            1.     Routine Information Sharing With United States
                   Attorneys' Offices (U)
       Following the September 11 terrorist attacks, the Department
established several initiatives that required the FBI to share information
from its counterterrorism files with prosecutors in United States Attorneys'
Offices (USAOs) in order to determine if criminal or other charges may be
brought against individuals who are subjects of FBI counterterrorism
investigations. As a result, information obtained from NSLs and analytical
products derived from this information are routinely shared with terrorism
prosecutors, although the source and details of the information may not be
readily apparent to the prosecutors. (U)
      In addition, Anti-Terrorism Advisory Councils (ATACs), other terrorism
prosecutors, and intelligence research specialists in the USAOs who review
the FBI's investigative files may see the results of NSLs or the analyses of
the information derived from NSLs in the investigative files or through
access to the FBI's databases. (U)

            2.     Providing Information to Law Enforcement
                   Authorities for Use in Criminal Proceedings (U)
      Information from national security letters may also be used in
criminal proceedings. As noted above, however, information derived from
national security letters is not required to be marked or tagged as coming
from NSLs when it is entered in FBI databases or when it is shared with law
enforcement authorities outside the FBI. (U)
       As a result, FBI and DOJ officials told us they could not identify how
often information derived from national security letters was provided to law
enforcement authorities for use in criminal proceedings. To obtain a rough
sense of how often the FBI provided NSL-derived information to federal law
enforcement authorities for use in criminal proceedings, we asked FBI field
personnel to identify (1) instances in which they referred targets of national
security investigations to law enforcement authorities for prosecution and
(2) whether in those instances they shared information derived from
national security letters with law enforcement authorities. (U)
       The field offices that provided data on such referrals were unable to
state in what percentage of these referrals they used NSLs. However, they
provided examples of the use of NSLs in these proceedings, including
instances in which NSLs were used in a counterintelligence case to obtain
information on the subject's role in exporting sensitive U.S. military
technology to a foreign country; and in a counterterrorism case in which
NSLs generated subscriber information that supported FISA applications for

                                     xxvii
electronic surveillance on the subjects, leading to multiple convictions for
conspiracy and providing material support to terrorists. (U)
       We learned from the responses that about half of the FBI's field
divisions referred one or more counterterrorism investigation targets to law
enforcement authorities for possible prosecution from 2003 through 2005.
Of the 46 Headquarters and field divisions that responded to our request for
information about referral of national security investigation targets, 19
divisions told us that they made no such referrals. Of the remaining 27
divisions, 22 divisions provided details about the type of information they
referred and the nature of charges brought against these investigative
subjects. In most cases, multiple charges were brought against the
subjects, with the most common charges involving fraud (19), immigration
(17), and money laundering (17). (U)

IV.    Improper or Illegal Use of National Security Letter Authorities (U)
        In this section of the Executive Summary, as directed by the Patriot
Reauthorization Act, we report our findings on instances of "improper or
illegal use" of national security letter authorities, including instances
identified by the FBI as well as other instances identified by the OIG. 26 (U)

       A.      Field Division Reports to FBI-OGC of 26 Possible IOB
               Violations Involving the Use of National Security Letters
               (U)
      The President's Intelligence Oversight Board (IOB) is directed by
Executive Order 12863 to inform the President of any intelligence activities
that "may be unlawful or contrary to Executive order or Presidential
Directive." This directive has been interpreted by the Department and the
IOB during the period covered by our review to include reports of violations
of Department investigative guidelines or investigative procedures.2 7 (U)



       26  In this report, we use the terms "improper or illegal use,'' as contained in the
Patriot Reauthorization Act. As noted below, the improper or illegal uses of the national
security letter authorities we found in our review did not involve criminal misconduct.
However, as also noted below, the improper or illegal uses we found included serious
misuses of national security letter authority. (U)
        27 The FBI has developed an internal process for the self-reporting of possible IOB
violations to FBI-OGC. During the period covered by our review, FBI-OGC issued 2
guidance memoranda describing the process by which FBI personnel were required to
report such violations to FBI-OGC within 14 days of discovery. The reports were to include
a description of the status of the subjects of the investigative activity, the legal authority for
the investigation, the potential violation, and the date of the incident. FBI-OGC then
reviewed the report, prepared a written opinion as to whether the matter should be sent to
the IOB, and prepared the written communication to the IOB for those matters it decided to
report. (U)

                                             xxviii
       We describe two groups of possible IOB violations related to NSLs that
occurred during our review period (2003 through 2005). The first group
consists of 26 possible IOB violations that were reported by FBI employees
to FBI-OGC. The second group of incidents consists of 22 possible IOB
violations which were not reported to FBI-OGC or the IOB that the OIG
identified during our review of a sample of 77 investigative files in the 4 field
divisions we visited. (U)

             1.    Possible IOB Violations Identified by the FBI (U)
      We determined that from 2003 through 2005, FBI field divisions
reported 26 possible IOB violations to FBI-OGC arising from the use of
national security letter authorities. The 26 possible IOB violations included:
(U)
      •   Three matters in which the NSLs were signed by the appropriate
          officials but the underlying investigations were not approved or
          extended by the appropriate Headquarters or field supervisors. (U)
      •   Four matters in which the NSLs did not satisfy the requirements of
          the pertinent NSL statute or the applicable Attorney General
          Guidelines. In three of these matters, the FBI obtained the
          information without issuing NSLs. One of these three matters
          involved acquisition of telephone toll billing records in the absence
          of investigative authority under the Attorney General's NSI
          Guidelines. In the fourth matter, the FBI sought and obtained
          consumer full credit reports in a counterintelligence investigation,
          which is not permitted by the Patriot Act amendment to the FCRA,
          15 U.S.C. § 1681v. (U)
      •   Nineteen matters in which the NSL recipient provided more
          information than was requested in the NSL or provided information
          on the wrong person, due either to FBI typographical errors or
          errors by recipients of the NSLs. Thirteen of these matters involved
          requests for telephone toll billing records, 4 involved requests for
          electronic communication transactional records, and 2 involved
          requests for telephone subscriber information. (U)
       In 15 of the 26 matters identified by the FBI as possible IOB
violations, the subject was a "U.S. person," and in 8 of the matters the
subject was a "non-U.S. person." In one of the matters, the subject was a
presumed "non-U.S. person," in one there was no subject because there was
no underlying investigation, and in another the status of the subject could
not be determined. (U)
      In total, 22 of the 26 possible IOB violations were due to FBI errors,
while 4 were due to third-party errors. The FBI errors included
typographical errors on the telephone numbers or e-mail addresses listed in
the NSLs; telephone numbers that did not belong to the targets of NSLs;

                                      xxix
receipt of responses to three telephone toll billing record requests when the
investigative authority was not properly authorized or had lapsed; receipt of
telephone toll billing records and subscriber information from a telephone
company employee on nine separate occasions without issuing ECPA
national security letters; and a FCRA NSL request for a consumer full credit
report in a counterintelligence case. The errors also included instances in
which the FBI obtained information without issuing the required NSL,
including receipt of telephone toll billing records in the absence of an open
national security investigation through informal contact with FBI
Headquarters Counterterrorism Division's Communications Analysis Unit
without issuing an ECPA NSL and accessing financial records through the
use of FISA authorities rather than by issuing an RFPA NSL. (U)
      The four third-party errors included the NSL recipient providing
prohibited content information (including voice messages) in response to an
ECPA NSL for telephone toll billing records; and a third party providing
prohibited content information (including e-mail content and images) in
response to three ECPA NSLs requesting electronic communication
transactional records. (U)
       Twenty of the 26 possible IOB violations were timely reported within
14 days of discovery to FBI-OGC in accordance with FBI policy. However, 6
were not reported in a timely fashion, taking between 15 days and 7 months
to report. FBI records show that FBI-OGC reported 19 of the 26 possible
violations to the IOB and decided not to report the 7 remaining matters. (U)

            2.    OIG Analysis Regarding Possible IOB Violations
                  Identified by the FBI (U)
       Our examination of the 26 possible IOB violations reported to
FBI-OGC did not reveal deliberate or intentional violations of NSL statutes,
the Attorney General Guidelines, or internal FBI policy. Although the
majority of the possible violations - 22 of 26 - arose from FBI errors, most of
them occurred because of typographical errors or the case agent's good faith
but erroneous belief that the information requested related to an
investigative subject. (U)
      However, three of the possible IOB violations arising from FBI errors
demonstrated FBI agents' unfamiliarity with the constraints on NSL
authorities. In one instance, an FBI analyst was unaware of the statutory,
Attorney General Guidelines, and internal FBI policy requirements that
NSLs can only be issued during a national security investigation and must
be signed by the Special Agent in Charge of the field division. In the two
other matters, probationary agents erroneously believed that they were
authorized to obtain records about investigative subjects - without issuing
NSLs - from information derived from FISA electronic surveillance orders.
In these instances, it is clear that the agents, and in one instance the squad


                                     xxx
supervisor, did not understand the interrelationship between FISA
authorities and national security letter authorities. (U)
       With regard to the FBI's decisions whether to report the possible
violations to the IOB, we concurred in FBI-OGC's analysis with one
exception. We disagreed with the FBI-OGC decision not to report the
possible violation to the IOB related to the FBI's acquisition of telephone toll
billing records and subscriber information relating to a "non-U.S. person"
from a telephone company employee on nine occasions without issuing an
NSL. FBI-OGC reasoned that because the investigative subject was a
"non-U.S. person" agent of a foreign power, the only determination it had to
reach was whether the FBI's failure to conform to its internal administrative
requirements was reportable "as a matter of policy" to the IOB. In light of
FBI-OGC's decisions to report at least four other IOB violations that were
triggered by NSLs in which the investigative subject or the target of the NSL
was a "non-U.S. person," we disagreed with FBI-OGC's determination that
this matter should not be reported to the IOB. (U)

      B.      Additional Possible IOB Violations Arising From National
              Security Letters Identified by the OIG During Our Field
              Visits (U)

              1.    Possible IOB Violations Identified by the OIG (U)
       In addition to the 26 possible IOB violations identified by the FBI in
this 3-year review period, we found 22 additional possible IOB violations
during our review of 77 investigative files in the 4 field offices we visited. (U)
      In those 77 files, we reviewed 293 NSLs. We identified 22 NSL-related
possible IOB violations that arose in the course of 17 separate
investigations. None of these possible violations was reported to FBI-OGC
or the IOB. Thus, we found that 22 percent of the investigative files we
reviewed (17 of 77) contained one or more possible IOB violations that were
not reported to FBI-OGC or the IOB. (U)
      The possible IOB violations we identified fell into three categories:
improper authorization for the NSL (1), improper requests under the
pertinent national security letter statutes (11), and unauthorized collections
(10). The possible violations included: (U)
      •    One NSL for telephone toll billing records was issued 22 days after
           the authorized period for the investigation had lapsed. (U)
      •    Nine NSLs involved improper requests under the FCRA. Two of the
           9 NSLs issued during one investigation requested consumer full
           credit reports during a counterintelligence investigation, while the
           statute authorizes this type of NSL only in international terrorism
           investigations. The approval ECs for 3 of these 9 NSLs listed
           FCRAv as the authority for the request but the NSLs included the

                                       xxxi
           certification of relevance language either for the RFPA or FCRAu
           NSL authorities. In addition, 4 of these 9 NSLs were FCRAv
           requests where the types of records approved by field supervisors
           differed from the records requested in the NSL. (U)
       •   Two NSLs referenced the ECPA as authority for the request but
           sought content information not permitted by the statute. In one
           instance, the NSL requested information that arguably was content
           information and associated subscriber information.2 8 The second
           NSL requested financial records associated with two e-mail
           addresses but requested the information under the ECPA rather
           than the RFPA, which only authorizes access to financial records.
           (U)
       •   Ten NSLs involved the FBI's receipt of unauthorized information.
           In 4 instances, the FBI received telephone toll billing records or
           subscriber information for telephone numbers that were not listed
           in the national security letters. In these instances the provider
           either erroneously furnished additional records for another
           telephone number associated with the requested number or made
           transcription errors when querying its systems for the records.
           In 4 instances, the FBI received telephone toll billing records
           information and electronic communication transactional records
           for longer periods than that specified in the NSL - periods ranging
           from 30 days to 81 days. One NSL sought subscriber records
           pursuant to the ECPA, but the recipient provided the FBI with toll
           billing records. One NSL sought financial institution and
           consumer identifying information about an individual pursuant to
           FCRAu. However, the recipient erroneously gave the FBI the
           individual's consumer full credit report, which is available
           pursuant to another statute, FCRAv. (U)
      Twelve of the 22 possible IOB violations identified by the OIG were
due to FBI errors, and 10 were due to errors on the part of third party
recipients of the NSLs.29 (U)


      2 8 When we examined the records provided to the FBI in response to this NSL,
however, we determined that the requested information was not furnished to the FBI. (U)
        29 Our report also discusses another noteworthy possible IOB violation involving
the issuance of an NSL seeking educational records from a North Carolina university. In
that matter, which we learned of through press accounts, the FBI's Charlotte Division was
in the process of seeking a grand jury subpoena for educational records about an
investigative subject to determine whether the subject was involved in the July 2005
London subway and bus bombings. The NSL sought several categories of records,
including applications for admission, housing information, emergency contacts, and
campus health records. According to press accounts, university officials said that the FBI
had tried to use an NSL to demand more information than the law permitted and declined
to honor the national security letter. A grand jury subpoena was thereafter served on the

                                           xxxii

                                       ~
              2.      OIG Analysis Regarding Possible IOB Violations
                      Identified by the OIG (U)
       In the limited file review we conducted of 77 investigative files in 4 FBI
field offices, we identified nearly as many NSL-related possible IOB
violations (22) as the number of NSL-related possible violations that the FBI
identified (26) in reports from all FBI Headquarters and field divisions for
the same 3-year period. We found that 22 percent of the investigative files
that we reviewed contained at least one possible IOB violation that was not
reported to FBI-OGC or the IOB. Because we have no reason to believe that
the number of NSL-related possible IOB violations we identified in the four
field offices was skewed or disproportionate to the number of possible IOB
violations that exist in other offices, our findings suggest that a significant
number of NSL-related possible IOB violations throughout the FBI have not
been identified or reported by FBI personnel. (U)
       Our review did not reveal intentional violations of national security
letter authorities, the Attorney General Guidelines, or internal FBI policy.
Rather, we found confusion about the authorities available under the
various NSL statutes. Our interviews of FBI field personnel and review of
e-mail exchanges between NSLB attorneys and Division Counsel indicated
that field personnel sometimes confused the two different authorities under
the FCRA: the original FCRA provision that authorized access to financial
institution and consumer identifying information in both counterterrorism
and counterintelligence cases (15 U.S.C. §§ 1681u(a) and (b)), and the
Patriot Act provision that amended the FCRA to authorize access to
consumer full credit reports in international terrorism investigations where
"such information is necessary for the agency's conduct of such
investigation, activity or analysis" (15 U.S.C. § 1681v). Although NSLB sent
periodic guidance and "all CDC" e-mails to clarify the distinctions between
the two NSLs, we found that the problems and confusion persisted. (U)
      In addition, we believe that many of the violations occurred because
case agents and analysts do not consistently cross check the approval ECs
with the text of proposed NSLs or verify upon receipt that the information
supplied by the NSLs recipient matches the requests. We also question
whether case agents or analysts reviewed the records provided by the NSL
recipients to determine if records were received beyond the time period
requested or, if they did so, determined that the amount of excess
information received was negligible and did not need to be reported. (U)
      Our review also found that the FBI did not issue comprehensive
guidance describing the types of NSL-related infractions that needed to be
reported to FBI-OGC as possible IOB violations. We noted frequent


university, and the university produced the records. In this instance, the FBI sought
records it was not authorized to obtain pursuant to an ECPA national security letter. (U)

                                          xxxiii
exchanges between Division Counsel and NSLB attorneys about what
should and should not be reported as possible IOB violations which we
believe showed significant confusion about the reporting requirements.
However, the FBI did not issue comprehensive guidance about NSL-related
infractions until November 2006, more than 5 years after the Patriot Act
was enacted. We believe the lack of guidance contributed to the high rate of
unreported possible IOB violations involving national security letters that we
found. (U)
       As was the case with the NSL-related possible IOBs identified by the
FBI, the possible violations identified or reviewed by the OIG varied in
seriousness. Among the most serious matters resulting from FBI errors
were the two NSLs requesting consumer full credit reports in a
counterintelligence case and the NSL requesting educational records from a
university, ostensibly pursuant to the ECPA. In these three instances, the
FBI misused NSL authorities. Less serious infractions resulting from FBI
errors were the seven matters in which three levels of supervisory review
failed to detect and correct NSLs that contained incorrect certifications or
sought records not referenced in the approval ECs. While the FBI was
entitled to obtain the records sought or obtained in these seven NSLs, the
lapses in oversight indicate that the FBI should reinforce the need for
careful preparation and review of all documentation supporting the use of
NSL authorities. (U)

      C.    Improper Use of National Security Letter Authorities by FBI
            Headquarters Counterterrorism Division Units Identified by
            the OIG (U)
       We identified two ways in which FBI Headquarters Counterterrorism
Division units circumvented the requirements of national security letter
authorities or issued NSLs contrary to the Attorney General's NSI Guidelines
and internal FBI policy. First, we learned that on over 700 occasions the
FBI obtained telephone toll billing records or subscriber information from 3
telephone companies without first issuing NSLs or grand jury subpoenas.
Instead, the FBI issued so-called "exigent letters" signed by FBI
Headquarters Counterterrorism Division personnel who were not authorized
to sign NSLs. The letters stated the records were requested due to "exigent
circumstances" and that subpoenas requesting the information had been
submitted to the U.S. Attorney's Office for processing and service "as
expeditiously as possible." However, in most instances there was no
documentation associating the requests with pending national security
investigations. In addition, while some witnesses told us that many of the
exigent letters were issued in connection with fast-paced investigations,
many were not issued in exigent circumstances, and the FBI was unable to
determine which letters were sent in emergency circumstances due to
inadequate recordkeeping. Further, in many instances after obtaining such
records from the telephone companies, the FBI issued NSLs after the fact to

                                    xxxiv
"cover" the information obtained, but these after-the-fact NSLs sometimes
were issued many months later. (U)
      Second, we determined that FBI Headquarters personnel regularly
issued national security letters seeking electronic communication
transactional records exclusively from "control files" rather than from
"investigative files," a practice not permitted under FBI policy. If NSLs are
issued exclusively from control files, the NSL approval documentation does
not indicate whether the NSLs are issued in the course of authorized
investigations or whether the information sought in the NSLs is relevant to
those investigations. Documentation of this information is necessary to
establish compliance with NSL statutes, the Attorney General's NSI
Guidelines, and internal FBI policy. (U)
     We describe below these practices, how they were discovered, and
what actions the FBI took to address the issues. (U)

            1.    Using "Exigent Letters" Rather Than ECPA National
                  Security Letters (U)
      The FBI entered into contracts with three telephone companies
between May 2003 and March 2004 to obtain telephone toll billing records
or subscriber information more quickly than by issuing ECPA NSLs. The
requests for approval to obligate funds for each of these contracts referred to
the Counterterrorism Division's need to obtain telephone toll billing data
from telephone companies as quickly as possible. The three memoranda
stated that: (U)
      Previous methods of issuing subpoenas or National Security
      Letters (NSL) and having to wait weeks for their service, often
      via hard copy reports that had to be retyped into FBI databases,
      is insufficient to meet the FBI's terrorism prevention mission.
      (U)
The three memoranda also stated that the telephone companies would
provide "near real-time servicing" of legal process, and that once legal
process was served telephone records would be provided. (U)
      The Communications Analysis Unit (CAU) in the Counterterrorism
Division's Communications Exploitation Section (CXS) worked directly with
telephone company representatives in connection with these contracts.
CAU personnel told FBI employees that it expected to receive national
security letters or other legal process before it obtained records from the
telephone companies. (U)
      Using as its model a letter used by the FBI's New York Division to
request telephone records in connection with the FBI's criminal
investigations of the hijackers involved in the September 11 attacks, CAU
issued over 700 exigent letters to the three telephone companies between


                                     xxxv
March 2003 and December 2005 that requested telephone toll billing
records or subscriber information. 30 The letters stated: (U)
       Due to exigent circumstances, it is requested that records for
       the attached list of telephone numbers be provided. Subpoenas
       requesting this information have been submitted to the U.S.
       Attorney's Office who will process and serve them formally to
       [information redacted] as expeditiously as possible. (U)
      We determined that, contrary to the provisions of the contracts and
the assertions in CAU's briefings that the FBI would obtain telephone
records only after it served NSLs or grand jury subpoenas, the FBI obtained
telephone toll billing records and subscriber information in response to the
exigent letters prior to serving NSLs or grand jury subpoenas. Moreover,
CAU officials told us that contrary to the assertion in the exigent letters,
subpoenas requesting the information had not been provided to the U.S.
Attorney's Office before the letters were sent to the telephone companies.
(U)
       In total, between March 2003 and December 2005 the FBI issued at
least 739 exigent letters to the three telephone companies requesting
information on approximately 3,000 different telephone numbers. The
exigent letters were signed by CXS Section Chiefs, CAU Unit Chiefs, and
subordinate CAU personnel - including intelligence analysts - none of whom
was delegated authority to sign NSLs. (U)
       CAU personnel told us that many of the exigent letters were generated
in connection with significant Headquarters-based counterterrorism
investigations as well as investigations in which the FBI provided assistance
to foreign counterparts, such as investigations of the July 2005 London
bombings, and that some CAU personnel believed some requests were
urgent. However, when CAU personnel gave the exigent letters to the three
telephone companies, they did not provide to their supervisors any
documentation demonstrating that the requests related to pending FBI
investigations. This documentation is necessary to establish compliance
with the ECPA NSL statute, the NSI Guidelines, and internal FBI policy. (U)
      Moreover, when CAU requested telephone records from the three
telephone companies pursuant to exigent letters, there sometimes were no
open investigations tied to the request. In the absence of pending
investigations, CAU sent leads either to the Headquarters Counterterrorism

       3   °
           Following the September 11 attacks, the FBI's New York Division established a
relationship with one of the major telephone companies to obtain quick responses to
requests for telephone toll billing records or subscriber information in connection with its
criminal investigations of the 19 hijackers. Although the New York Division generally
obtained grand jury subpoenas to obtain this information, it frequently provided a
"placeholder letter,'' sometimes referred to as an "exigent letter,'' to the telephone company
if the grand jury subpoena was not yet available. (U)


                                            xxxvi
Division or to field offices that were geographically associated with the
requests asking them to initiate new investigations from which the after-the-
fact NSLs could be issued. However, Counterterrorism Division units and
field personnel often resisted generating the documentation for these new
investigations or declined to act on the leads, primarily for three reasons.
First, CAU often did not provide the operating units with sufficient
information to justify the initiation of an investigation. Second, on some
occasions the documentation CAU supplied to the field divisions did not
disclose that the FBI had already obtained the information from the
telephone companies. 31 When the field offices learned that the records had
already been received, they complained to attorneys in FBI-OGC's National
Security Law Branch (NSLB) that this did not seem appropriate. Third,
since Headquarters and field divisions were unfamiliar with the reasons
underlying the requests, they believed that the CAU leads should receive
lower priority than their ongoing investigations. (U)
       NSLB attorneys responsible for providing guidance on the FBI's use of
national security letter authorities told us that they were not aware of CAU's
practice of using exigent letters until late 2004. When an NSLB Assistant
General Counsel learned of the practice at that time, she believed that the
practice did not comply with the ECPA NSL statute. For nearly 2 years after
learning of the practice, beginning in late 2004, NSLB attorneys counseled
CAU officials to take a variety of actions, including: to discontinue use of
exigent letters except in true emergencies; obtain more details to be able to
justify associating the information with an existing national security
investigation or to request the initiation of a new investigation; issue duly
authorized NSLs promptly after the records were provided in response to the
exigent letters; modify the letters to reference national security letters rather
than grand jury subpoenas; and consider opening "umbrella" investigations
out of which NSLs could be issued in the absence of another pending
investigation. In addition, NSLB offered to dedicate personnel to expedite
issuance of CAU NSL requests (as it had done for other high priority matters
requiring expedited NSLs). However, CAU never pursued this latter option.
(U)
      In addition, we found that the FBI did not maintain a log to track
whether it issued NSLs or grand jury subpoenas after the fact to cover the
records provided in response to the exigent letters, relying instead upon the
three telephone companies to track whether NSLs or grand jury subpoenas
were later issued. As a result, when we asked the FBI to match NSLs and

       31   Similarly, when CAU on occasion asked the NSLB Deputy General Counsel to
issue national security letters to cover information already obtained from the telephone
companies in response to the exigent letters, CAU sometimes did not disclose in the
approval documentation that the records already had been provided in response to the
exigent letters. An NSLB Assistant General Counsel complained to CAU personnel about
these omissions in December 2004. (U)

                                          xxxvii
grand jury subpoenas issued to the three telephone companies with a
random sample of the exigent letters, the FBI was unable to provide reliable
evidence to substantiate that NSLs or other legal process was issued to
cover the FBI's receipt of records requested in the sample exigent letters.
(U)
       We also were troubled that the FBI issued exigent letters that
contained factual misstatements indicating that "[s]ubpoenas requesting
this information have been submitted to the U.S. Attorney's Office who will
process and serve them formally ... as expeditiously as possible." 32 In fact,
in examining the documents CAU provided in support of the first 25 of the
88 randomly selected exigent letters, we could not confirm one instance in
which a subpoena had been submitted to any United States Attorney's
Office before the exigent letter was sent to the telephone companies. (U)
       We concluded that, as a consequence of the CAU's use of the exigent
letters to acquire telephone toll billing records and subscriber information
from three telephone companies without first issuing NSLs or grand jury
subpoenas, the FBI circumvented the requirements of the ECPA NSL statute
and violated the NSI Guidelines and internal FBI policies. These actions
were compounded by the fact that CAU used exigent letters in
non-emergency circumstances, failed to ensure that there were duly
authorized investigations to which the requests could be tied, and failed to
ensure that NSLs were issued promptly after the fact pursuant to existing or
new counterterrorism investigations. (U)
        In evaluating these matters, it is also important to recognize the
significant challenges the FBI was facing during the period covered by our
review. After the September 11 terrorist attacks, the FBI implemented
major organizational changes to seek to prevent additional terrorist attacks
in the United States, such as overhauling its counterterrorism operations,
expanding its intelligence capabilities, beginning to upgrade its information
technology systems, and seeking to improve coordination with state and
local law enforcement agencies. These changes occurred while the FBI and
its Counterterrorism Division has had to respond to continuing terrorist
threats and conduct many counterterrorism investigations, both
internationally and domestically. In addition, the FBI developed specialized
operational support units that were under significant pressure to respond
quickly to potential terrorist threats. It was in this context that the FBI
used exigent letters to acquire telephone toll billing records and subscriber
information on approximately 3,000 different telephone numbers without
first issuing ECPA national security letters. We also recognize that the FBI's

       3 2 The FBI's reference to grand jury subpoenas in the exigent letters rather than to
national security letters appears to be the result of CAU's use of the New York Division's
model letter for exigent letters sent to a telephone company in connection with the New
York Division's criminal investigations of the September 11 hijackers. (U)

                                          xxxviii
use of so-called "exigent letters" to obtain the records without first issuing
NSLs was undertaken without the benefit of advance legal consultation with
FBI-OGC. (U)
       However, we believe none of these circumstances excuses the FBI's
circumvention of the requirements of the ECPA NSL statute and its
violations of the Attorney General's NSI Guidelines and internal FBI policy
governing the use of national security letters. (U)

             2.    National Security Letters Issued From Headquarters
                   Control Files Rather Than From Investigative Files
                   (U)
      The national security letter statutes and the Attorney General's NSI
Guidelines authorize the issuance of national security letters only if the
information sought is relevant to an "authorized investigation." Within the
FBI, the only types of investigations in which NSLs may be used are
national security investigations. (U)
       For purposes of conducting its investigations and compiling
information obtained from the use of various investigative authorities,
agents may seek supervisory approval to establish an "investigative file."
The FBI also provides for the establishment of non-investigative files,
referred to as "control files" or "repository files," which are used to store
information (such as the results of indices searches of the names of
individuals who are relevant to FBI investigations) that may never rise to the
level of predication necessary to initiate a national security investigation.
The FBI's National Foreign Intelligence Program (NFIP) Manual states that
control files are not investigative files and are not considered preliminary
investigations or full investigations. (U)
      Unless national security letters are issued from investigative files,
case agents and their supervisors - and internal and external reviewers -
cannot determine whether the requests are tied to substantive
investigations that have established the required evidentiary predicate for
issuing NSLs. As the FBI General Counsel told us, the only way to
determine if the information requested in a national security letter is
relevant to an authorized investigation is to have an investigative file to
which the NSL request can be tied or to have the connection described in
the NSL approval EC. (U)
       Notwithstanding these policies, we found that in two circumstances
the FBI relied exclusively on "control files" rather than "investigative files" to
initiate approval for the issuance of many national security letters, in
violation of FBI policy. In the first circumstance, from 2003 through 2005,
CAU initiated NSL approval memoranda for approximately 300 national
security letters in connection with a classified special project from a
Headquarters control file. All of the resulting NSLs sought telephone toll
billing records, subscriber information, or electronic communication
                                      xxxix
transactional records pursuant to the ECPA NSL statute, but none of the
approval ECs referred to the case number of any specific pending FBI
investigation. (U)
       Since CAU officials are not authorized to sign NSLs, CAU sent leads to
field offices to initiate the process to issue NSLs, but CAU met resistance
from some field personnel who questioned the adequacy of predication to
initiate a national security investigation. 33 To address the problem, the
Counterterrorism Division opened a special project control file from which
the CAU sought approval from NSLB to issue NSLs for subscriber
information. (U)
      In December 2006, after considering a number of options that would
comply with the ECPA NSL statute, the Attorney General's NSI Guidelines,
and internal FBI policy, the FBI initiated an "umbrella" investigative file
from which national security letters related to this classified project could be
issued. (U)
       In the second circumstance, the FBI issued at least six national
security letters from 2003 through 2005 solely on the authority of a control
files established by the Counterterrorism Division's Electronic Surveillance
Operations and Sharing Unit (EOPS) in the Communications Exploitation
Section and another control file. 34 The six NSLs sought information from
Internet service providers. None of the approval ECs accompanying the
requests for these NSLs referred to the case number of any specific pending
FBI investigation. Following questions raised by the OIG in this review, the
NSLB Deputy General Counsel told us that she has advised the EOPS Unit
Chief to discontinue requesting approval of national security letters issued
exclusively out of control files. (U)

       D.     Failure to Adhere to FBI Internal Control Policies on the
              Use of National Security Letter Authorities (U)
       During our field visits, we also examined FBI investigative files to
determine whether the field office's use of national security letters violated
FBI internal control policies. In our review of the 77 investigative files and
293 national security letters in 4 FBI field offices, we identified repeated
failures to adhere to FBI-OGC guidance regarding the documentation
necessary for approval of national security letters. Forty-six of the 77 files
we examined (60 percent) contained one or more of the following infractions:
(1) NSL approval memoranda that were not reviewed and initialed by one or
more of the required field supervisors or Division Counsel; (2) NSL approval


       33 The classified nature of the project was such that few FBI Headquarters officials
or FBI-OGC attorneys were authorized to know the predication for the requests. (U)
        34 Problems with the FBI's NSL database make it impossible to determine the
precise number of national security letters the FBI issued in this second category. (U)

                                             xl
                                        ~
memoranda that did not contain the required information; and (3) NSLs that
did not contain the certifications or other information required by the
authorizing statutes. (U)
       Approximately 7 percent of the approval memoranda we examined (22
of 293) did not reflect review or approval by one or more of the field
supervisors who are required to approve NSL requests. They included
failures to document approval by the Special Agents in Charge (4); Assistant
Special Agents in Charge (18); Supervisory Special Agents (8); or the Chief
Division Counsel or Assistant Division Counsel (3). (U)
       Thirty-four percent of the approval memoranda we examined (99 of
293) did not contain one or more of the four elements required by FBI
internal policy. Approval memoranda failed to reference the statute
authorizing the FBI to obtain the information or cited the wrong statute (16);
failed to reference the "U.S. person" or "non-U.S. person" status of the
investigative subject (66); failed to specify the type and number of records
requested (34); and failed to recite the required predication for the
request (7). (U)
       Approximately 2 percent of the national security letters we examined
(5 of 293) did not include at least one of the required elements, including
failures to reference an NSL statute or referencing the wrong statute. In
addition, we were unable to comprehensively audit the field divisions'
compliance with the requirement that Special Agents in Charge sign
national security letters because three of the four divisions we visited did
not maintain signed copies of their national security letters. The Special
Agent in Charge of the fourth division maintained a control file with copies
of all NSLs he signs, but this practice was instituted only during the last
year of our review period. (U)

V.    Other Noteworthy Fact and Circumstances Related to the FBI's
      Use of National Security Letters (U)
      As directed by the Patriot Reauthorization Act, our report includes
"other noteworthy facts and circumstances" related to the FBI's use of
national security letters that we found during our review. (U)

      A.    Using the "Least Intrusive Collection Techniques Feasible"
            (U)
      The NSI Guidelines that were in effect during most of the period
covered by our review state: (U)
      Choice of Methods. The conduct of investigations and other
      activities authorized by these Guidelines may present choices
      between the use of information collection methods that are
      more or less intrusive, considering such factors as the effect on
      the privacy of individuals and potential damage to reputation.

                                     xli
      As Executive Order 12333 § 2.4 provides, "the least intrusive
      collection techniques feasible" are to be used in such situations.
      The FBI shall not hesitate to use any lawful techniques
      consistent with these Guidelines, even if intrusive, where the
      degree of intrusiveness is warranted in light of the seriousness
      of a threat to the national security or the strength of the
      information indicating its existence. This point is to be
      particularly observed in investigations relating to terrorism. 35
      (U)
      However, during our review we found that no clear guidance was
given to FBI agents on how to reconcile the limitations expressed in the
Attorney General Guidelines, which reflect concerns about the impact on
privacy of FBI collection techniques, with the expansive authorities in the
NSL statutes. (U)
      These issues raise difficult questions that regularly arise regarding the
FBI's use of national security letters, such as (1) whether case agents
should access NSL information about parties two or three steps removed
from their subjects without determining if these contacts reveal suspicious
connections; (2) whether there is an evidentiary threshold beyond "relevance
to an authorized investigation" that should be considered before financial
records or full credit histories are obtained on persons who are not
investigative subjects; and (3) whether NSLs are more or less intrusive than
other investigative techniques authorized for use during national security
investigations, such as physical surveillance. On the other hand, if agents
are hindered from using all types of NSLs at early stages of national security
investigations, this may compromise the FBI's ability to pursue critical
investigations of terrorism or espionage threats or to reach resolution
expeditiously that certain subjects do not pose threats. (U)
       The impact of the FBI's investigative choices when using national
security letters is magnified by three factors. First, the FBI generates tens
of thousands of NSLs per year on the authority of Special Agents in Charge,
and the predication standard - relevance to an authorized investigation -
can easily be satisfied. Second, we found that FBI Division Counsel in field
offices have asked NSLB attorneys in FBI Headquarters for ad hoc guidance
on application of the "least intrusive collection techniques feasible" proviso,
suggesting a need for greater clarity. Third, neither the Attorney General's
NSI Guidelines nor internal FBI policies require the purging of information
derived from NSLs in FBI databases, regardless of the outcome of the
investigation. Thus, once information is obtained in response to a national
security letter, it is indefinitely retained and retrievable by the many
authorized personnel who have access to various FBI databases. (U)


      35   NSI Guidelines,§ I(B)(2). (U)

                                           xlii
                                           ~
       We recognize that there cannot be one model regarding the use of
NSLs in all types of national security investigations, and that the FBI cannot
issue definitive guidance addressing when and what types of NSLs should
issue at each stage of investigations. The judgment of FBI agents and their
supervisors, coupled with review by Chief Division Counsel and Special
Agents in Charge or senior Headquarters officials, are critical to ensuring
the appropriate use of NSLs and preventing overreaching. However, we
believe that the meaning and application of the Attorney General Guidelines'
proviso calling for use of the "least intrusive collection techniques feasible"
to the FBI's use of national security letter authorities should be addressed
in general guidance as well as in the training of special agents, Chief
Division Counsel, and all FBI officials authorized to sign NSLs. With the
FBI's increasing reliance on national security letters as an investigative
technique, such guidance and training would be helpful in assisting FBI
personnel in reconciling the important privacy considerations that underlie
the Attorney General Guidelines' proviso with the FBI's mission to detect
and deter terrorist attacks and espionage threats. (U)

      B.    Telephone "Toll Billing Records Information" (U)
       We found that FBI agents and attorneys frequently have questions
regarding the types of records they can obtain when requesting "toll billing
records information," a term that is not defined in the ECPA NSL statute. In
the absence of a statutory definition or case law interpreting this phrase,
different electronic communication service providers produce different types
of information in response to the FBI's ECPA national security letter
requests for these records. We found that ongoing uncertainty about the
meaning of the phrase "toll billing records information" has generated
multiple inquiries by Division Counsel to NSLB attorneys and confusion on
the part of various communication providers. In light of this recurring
issue, we recommend that the Department consider seeking a legislative
amendment to the ECPA to define the phrase "toll billing records
information." (U)

      C.    The Role of FBI Division Counsel in Reviewing National
            Security Letters (U)
       FBI Division Counsel are responsible for identifying and correcting
erroneous information in NSLs and NSL approval memoranda, resolving
questions about the scope of the NSL statutes, ensuring adequate
predication for NSL requests, and providing advice on issues concerning the
collection of unauthorized information through national security letters.
However, Division Counsel are not in the chain of review or approval for the
initiation of national security investigations. Thus, by the time Division
Counsel see the first NSL request in an investigation, the investigation has
already been approved by a field supervisor and an Assistant Special Agent
in Charge, both of whom report to the Special Agent in Charge. Division

                                     xliii

                                 ~
Counsel also report to the Special Agents in Charge of the field offices in
which they work, not to the Office of the General Counsel at FBI
Headquarters. (U)
      We found that these factors have led some Division Counsel to be
reluctant to question the predication for NSL requests or the relevance of
the information sought in the NSL to the investigation. The impact of these
factors on the independence and aggressiveness of Division Counsels' review
of NSLs was manifest in an informal survey of 22 Chief Division Counsel
who were asked by a Chief Division Counsel whether they would approve a
particular NSL request. Some said that they would have approved the
request for reasons other than the merits of the approval documentation.
The results of this inquiry led senior attorneys in FBI-OGC's National
Security Law Branch to be very concerned that some Chief Division Counsel
believe they cannot exercise their independent professional judgment on the
use of NSL authorities because they are reluctant to second guess the
operational judgments of senior field office officials in their chain of
command. (U)

      D.    The OGC Database Does Not Identify the Targets of National
            Security Letters When They are Different From the Subjects
            of the Underlying Investigations (U)
       In our evaluation of the use and effectiveness of national security
letters, we attempted to analyze information in the OGC database, including
the numbers and types of NSL requests issued during the period of our
review. One of the most significant Patriot Act expansions of NSL
authorities was the lower predication standard of "relevance" to an
authorized investigation. In lieu of requiring individualized suspicion about
an investigative subject, the FBI is now permitted to obtain records on other
individuals, so long as the information is relevant to an authorized
investigation. However, we found that the OGC database does not capture
information on whether the target of the NSL is the subject of the underlying
investigating or another individual. As a result, because the target of an
NSL is frequently not the same person as the subject of the underlying
investigation, the FBI does not know and cannot estimate the number of
NSL requests relating to persons who are not investigative subjects. (U)
      In 2006, the FBI modified its guidance to require, with the exception
of NSLs seeking subscriber information pursuant to the ECPA NSL statute,
that agents indicate in the NSL approval EC whether the request is for a
person other than the subject of the investigation or in addition to that
subject, and to state the U.S. person or non-U.S. person status of those
individuals. (U)
      In light of the Patriot Act's expansion of the FBI's authority to collect
information about individuals who are not subjects of its investigations, we


                                      xliv
believe the OGC database should contain this information so that the issue
is subject to internal and external oversight. (U)

VI.   OIG Conclusions and Recommendations (U)
       Our review found that the FBI's use of national security letters has
grown dramatically since enactment of the Patriot Act in October 2001. The
FBI issued approximately 8,500 NSL requests in CY 2000, the last full year
prior to passage of the Patriot Act. After the Patriot Act, the number of NSL
requests increased to approximately 39,000 in 2003, approximately 56,000
in 2004, and approximately 47,000 in 2005. During the period covered by
our review, the FBI issued a total of 143,074 NSL requests pursuant to
national security letter authorities. The overwhelming majority of the NSL
requests sought telephone toll billing records information, subscriber
information (telephone or e-mail), or electronic communication transactional
records under the ECPA NSL statute. (U)
      Most NSL requests (about 73 percent) occurred during
counterterrorism investigations. About 26 percent of all NSL requests were
issued during counterintelligence investigations, and less than 1 percent of
the requests were generated during foreign computer intrusion cyber
investigations. In addition, the use of national security letters in FBI
counterterrorism investigations increased from approximately 15 percent of
investigations opened during 2003 to approximately 29 percent of the
counterterrorism investigations opened during 2005. (U)
      We found that the use of NSL requests related to "U.S. persons" and
"non-U.S. persons" shifted during our 3-year review period. The percentage
of requests generated from investigations of U.S. persons increased from
about 39 percent of all NSL requests issued in 2003 to about 53 percent of
all NSL requests during 2005. (U)
       It is important to note that these statistics, which were obtained from
the FBI electronic database that tracks NSL usage, understate the total
number of national security letter requests. We found that the OGC
database is inaccurate and does not include all national security letter
requests issued by the FBI. Because of inaccuracies in the OGC database,
we compared data in this database to a sample of investigative files in four
FBI field offices that we visited. Overall, we found approximately 17 percent
more national security letters and 22 percent more national security letter
requests in the case files we examined in four field offices than were
recorded in the OGC database. As a result, we believe that the total number
of NSL requests issued by the FBI is significantly higher than the FBI
reported. (U)
       We also found the OGC database did not accurately reflect the status
of investigative targets and that the Department's semiannual classified
reports to Congress on NSL usage were also inaccurate. Specifically, the
data provided in the Department's semiannual classified reports regarding
                                     xlv
the number of requests for records, the number of different persons or
organizations that were the subjects of investigations in which records were
requested, and the status of those individuals as "U.S. persons or
organizations" and "non-U.S. persons or organizations" were all inaccurate.
We found that 12 percent of the case files we examined did not accurately
report the status of the target of the NSL as being a U.S. person or a non-
U.S. person. In each of these instances, the FBI database indicated that the
subject was a non-U.S. person while the approval memoranda in the
investigative file indicated the subject was a U.S. person or a presumed U.S.
person. (U)
       With respect to the effectiveness of national security letters, FBI
Headquarters and field personnel told us that they believe NSLs are
indispensable investigative tools that serve as building blocks in many
counterterrorism and counterintelligence investigations. National security
letters have various uses, including obtaining evidence to support FISA
applications for electronic surveillance, pen register /trap and trace devices,
or physical searches; developing communication or financial links between
subjects of FBI investigations and between those subjects and others;
providing evidence to initiate new investigations, expand national security
investigations, or enabling agents to close investigations; providing
investigative leads; and corroborating information obtained by use of other
investigative techniques. (U)
       FBI agents and analysts also use information obtained from national
security letters, in combination with other information, to prepare analytical
intelligence products for distribution within the FBI and to other
Department components, and for dissemination to other federal agencies,
Joint Terrorism Task Forces, and other members of the intelligence
community. We found that information derived from national security
letters is routinely shared with United States Attorneys' Offices pursuant to
various Departmental directives requiring terrorism prosecutors and
intelligence research specialists to be familiar with FBI counterterrorism
investigations. However, because information derived from national security
letters is not marked or tagged as such, it is impossible to determine when
and how often the FBI provided information derived from national security
letters to law enforcement authorities for use in criminal proceedings. (U)
       We determined that information obtained from national security
letters is routinely stored in the FBI's Automated Case Support (ACS)
system, Telephone Applications, IDW, and other databases. FBI personnel
and Joint Terrorism Task Force members who have the appropriate
clearances to use these databases would therefore have access to
information obtained from national security letters. (U)
      Our review also examined instances of "improper or illegal use" of
national security letters. First, our review examined possible national
security letter violations that the FBI was required to report to the

                                      xlvi

                                  ~
President's Intelligence Oversight Board (IOB). The FBI identified 26
possible violations involving the use of national security letter authorities
from calendar years 2003 through 2005, of which 19 were reported to the
IOB. These 19 involved the issuance of NSLs without proper authorization,
improper requests under the statutes cited in the national security letters,
and unauthorized collection of telephone or Internet e-mail transactional
records. Of these 26 possible violations, 22 were the result of FBI errors,
while 4 were caused by mistakes made by recipients of the national security
letters. (U)
       Second, in addition to the violations reported by the FBI, we reviewed
documents relating to national security letters in a sample of FBI
investigative files in four FBI field offices. In our review of 77 FBI
investigative files, we found that 17 of these files - 22 percent - contained
one or more violations relating to national security letters that were not
identified by the FBI. These violations included infractions that were similar
to those identified by the FBI and considered as possible IOB violations, but
also included instances in which the FBI issued national security letters for
different information than what had been approved by the field supervisor.
Based on our review and the significant percentage of files that contained
unreported violations (22 percent), we believe that a significant number of
NSL violations are not being identified or reported by the FBI. (U)
       Third, we identified many instances in which the FBI obtained
telephone toll billing records and subscriber information from 3 telephone
companies pursuant to more than 700 "exigent letters" signed by personnel
in the Counterterrorism Division without first issuing national security
letters. We concluded that the FBI's acquisition of this information
circumvented the requirements of the ECPA NSL statute and violated the
Attorney General's Guidelines for FBI National Security Investigations and
Foreign Intelligence Collection (NSI Guidelines) and internal FBI policy.
These actions were compounded by the fact that the FBI used the exigent
letters in non-emergency circumstances, failed to ensure that there were
duly authorized investigations to which the requests could be tied, and
failed to ensure that NSLs were issued promptly after the fact pursuant to
existing or new counterterrorism investigations. In addition, the exigent
letters inaccurately represented that the FBI had already requested
subpoenas for the information when, in fact, it had not. (U)
        Fourth, we determined that in two circumstances during 2003 though
2005 FBI Headquarters Counterterrorism Division generated over 300
national security letters from "control files" rather than from "investigative
files" in violation of FBI policy. In these instances, FBI agents did not
generate and supervisors did not approve documentation demonstrating
that the factual predicate required by the Electronic Communications
Privacy Act, the Attorney General's NSI Guidelines, and internal FBI policy
had been established. When NSLs are issued from control files rather than

                                     xlvii

                                 ~
from investigative files, internal and external reviewers cannot determine
whether the requests are tied to investigations that established the required
evidentiary predicate for issuing the national security letters. (U)
       Fifth, we examined FBI investigative files in four field offices to
determine whether FBI case agents and supervisors adhered to FBI policies
designed to ensure appropriate supervisory review of the use of national
security letter authorities. We found that 60 percent of the investigative
files we examined contained one or more violations of FBI internal control
policies relating to national security letters. These included failures to
document supervisory review of national security letter approval
memoranda and failures to include required information such as the
authorizing statute, the status of the investigative subject, or the number or
types of records requested in NSL approval memoranda. Moreover, because
the FBI has no policy requiring the retention of signed copies of national
security letters, we were unable to conduct a comprehensive audit of the
FBI's compliance with its internal control policies and the statutory
certifications required for national security letters. (U)
       Our review also describes several other "noteworthy facts or
circumstances" identified in the review. For example, we found that the FBI
has not provided clear guidance describing how case agents and supervisors
should apply the Attorney General Guidelines' requirement to use the "least
intrusive collection techniques feasible" in their use and sequencing of
national security letters. In addition, we found confusion among FBI
attorneys and communication providers over the meaning of the phrase
"telephone toll billing records information" in the ECPA NSL statute. We
also saw indications that some Chief Division Counsel and Assistant
Division Counsel are reluctant to provide an independent review of national
security letter requests because these attorneys report to the Special Agents
in Charge whose field supervisors have already approved the underlying
investigation. (U)
       Finally, in evaluating the FBI's use of national security letters it is
important to note the significant challenges the FBI was facing during the
period covered by our review and the major organizational changes it was
undergoing. Moreover, it is also important to recognize that in most cases
the FBI was seeking to obtain information that it could have obtained
properly if it had it followed applicable statutes, guidelines, and internal
policies. We also did not find any indication that the FBI's misuse of NSL
authorities constituted criminal misconduct. (U)
       However, as described above, we found that the FBI used NSLs in
violation of applicable NSL statutes, Attorney General Guidelines, and
internal FBI policies. In addition, we found that the FBI circumvented the
ECPA NSL statute when it issued over 700 "exigent letters" to obtain
telephone toll billing records and subscriber information from three
telephone companies without first issuing NSLs. Moreover, in a few other

                                     xlviii
instances, the FBI sought or obtained information to which it was not
entitled under the NSL authorities when it sought educational records
through issuance of an ECPA NSL, when it sought and obtained telephone
toll billing records in the absence of a national security investigation, when
it sought and obtained consumer full credit reports in counterintelligence
investigations, and when it sought and obtained financial records and
telephone toll billing records without first issuing NSLs. (U)
      Based on our review, we believe the FBI needs to ensure that all
national security letters are issued in accord with applicable statutes,
guidelines, and policies. Therefore, to address the issues identified in our
report we recommend that the FBI: (U)
      1. Require all Headquarters and field personnel who are authorized to
issue national security letter to create a control file for the purpose of
retaining signed copies of all national security letters they issue. (U)
      2. Improve the FBI-OGC NSL tracking database to ensure that it
captures timely, complete, and accurate data on NSLs and NSL requests.
(U)
       3. Improve the FBI-OGC NSL tracking database to include data
reflecting NSL requests for information about individuals who are not the
investigative subjects but are the targets of NSL requests. (U)
       4. Issue additional guidance to field offices that will assist in
identifying possible IOB violations arising from use of national security
letter authorities, such as (a) measures to reduce or eliminate typographical
and other errors in national security letters so that the FBI does not collect
unauthorized information; (b) best practices for identifying the receipt of
unauthorized information in the response to national security letters due to
third-party errors; (c) clarifying the distinctions between the two NSL
authorities in the Fair Credit Reporting Act (15 U.S.C. §§ 1681u and 1681v);
and (d) reinforcing internal FBI policy requiring that NSLs must be issued
from investigative files, not from control files. (U)
      5. Consider seeking legislative amendment to the Electronic
Communications Privacy Act to define the phrase "telephone toll billing
records information." (U)
       6. Consider measures that would enable FBI agents and analysts to
(a) label or tag their use of information derived from national security letters
in analytical intelligence products and (b) identify when and how often
information derived from NSLs is provided to law enforcement authorities
for use in criminal proceedings. (U)
      7. Take steps to ensure that the FBI does not improperly issue
exigent letters. (U)



                                      xlix
      8. Take steps to ensure that, where appropriate, the FBI makes
requests for information in accordance with the requirements of national
security letter authorities. (U)
       9. Implement measures to ensure that FBI-OGC is consulted about
activities undertaken by FBI Headquarters National Security Branch,
including its operational support activities, that could generate requests for
records from third parties that the FBI is authorized to obtain exclusively
though the use of its national security letter authorities. (U)
      10. Ensure that Chief Division Counsel and Assistant Division
Counsel provide close and independent review of requests to issue national
security letters. (U)
       We believe that these recommendations, if fully implemented, can
improve the accuracy of the reporting of the FBI's use of national security
letters and ensure the FBI's compliance with the requirements governing
their use. (U)




                                       1

                                 ~
                                 CHAPTER ONE
                               INTRODUCTION (U)
       In the Patriot Reauthorization Act, enacted in 2006, Congress directed
the Department of Justice (Department) Office of the Inspector General
(OIG) to review "the effectiveness and use, including any improper or illegal
use, of national security letters issued by the Department of Justice." 1 The
Act required the OIG to conduct reviews of the use of national security
letters for two separate time periods. 2 This report describes the results of
the first OIG review of the FBI's use of national security letters (NSLs),
covering calendar years (CY) 2003 through 2005. 3 (U)

I.     Provisions of the USA Patriot Act and Reauthorization Act (U)
       In October 2001, in the wake of the September 11 terrorist attacks,
Congress passed the USA PATRIOT Act. 4 Section 505 of the Patriot Act
expanded four existing statutes (the "national security letter statutes") that
authorized the Federal Bureau oflnvestigation (FBI) to use national security
letters to obtain certain specified types of information from third parties for
use in authorized counterintelligence, counterterrorism, and foreign
computer intrusion cyber investigations. As part of the Patriot Act
legislation, Congress enacted a fifth NSL authority permitting the FBI to use
national security letters to obtain consumer full credit reports in
international terrorism investigations. (U)
      National security letters, which are written directives to provide
information, are issued by the FBI directly to third parties, such as
telephone companies, financial institutions, Internet service providers, and
consumer credit agencies, without judicial review. In these letters, the FBI




       1 USA PATRIOT Improvement and Reauthorization Act of 2005, Pub. L. No. 109-
177, § 119(a), 120 Stat. 192 (2006) (Patriot Reauthorization Act). (U)
        2 Although the Act only required the OIG to include calendar years 2003 through
2004 in the first report, we elected to also include 2005 in this first report. The second
report, which is due to Congress on December 31, 2007, will cover calendar year 2006. (U)
        3 The Patriot Reauthorization Act also directed the OIG to conduct reviews on the
use and effectiveness of Section 215 orders for business records, another investigative
authority that was expanded by the Patriot Act. The OIG's first report on the use and
effectiveness of Section 215 orders is contained in a separate report issued in conjunction
with this review of NSLs. (U)
        4 The term "USA PATRIOT Act" is an acronym for the law entitled the Uniting and
Strengthening America by Providing Appropriate Tools Required to Intercept and Obstruct
Terrorism Act of 2001, Pub. L. No. 107-56, 115 Stat. 272 (2001). This law is commonly
referred to as "the Patriot Act." (U)

                                              1
                                        ~
can direct third parties to provide customer account information and
transactional records, such as telephone toll billing records. 5 (U)
      The national security letter authorities expanded by the Patriot Act
were originally scheduled to sunset on December 31, 2005, but were
temporarily extended by Congress until it finalized a reauthorization bill.
Congress passed the reauthorization bill in early 2006, and on March 9,
2006, the President signed into law the Patriot Reauthorization Act, which,
among other things, reauthorized the five national security letter
authorities. (U)
       In the Patriot Reauthorization Act, Congress directed the OIG's review
to include: (U)
       (1)     an examination of the use of national security letters by
               the Department of Justice during calendar years 2003
               through 2006; (U)
       (2)     a description of any noteworthy facts or circumstances
               relating to such use, including any improper or illegal use
               of such authority; and (U)
       (3)     an examination of the effectiveness of national security
               letters as an investigative tool, including - (U)
               (A)    the importance of the information acquired by the
                      Department of Justice to the intelligence activities
                      of the Department of Justice or to any other
                      department or agency of the Federal Government;
                      (U)
               (B)    the manner in which such information is collected,
                      retained, analyzed, and disseminated by the
                      Department of Justice, including any direct access
                      to such information (such as access to "raw data")
                      provided to any other department, agency, or
                      instrumentality of Federal, State, local, or tribal
                      governments or any private sector entity; (U)
               (C)    whether, and how often, the Department of Justice
                      utilized such information to produce an analytical
                      intelligence product for distribution within the
                      Department of Justice, to the intelligence
                      community ... , or to other Federal, State, local,
                      or tribal government departments, agencies or
                      instrumentalities; (U)

        5 The statutes do not authorize the FBI to collect the content of telephone calls and
e-mail. For that information, the FBI must obtain court approval or voluntary production
of the records pursuant to 18 U.S.C. § 2702(b)(8) (2000). (U)
               (D)    whether, and how often, the Department of Justice
                      provided such information to law enforcement
                      authorities for use in criminal proceedings; .... 6
                      (U)
      According to the Patriot Reauthorization Act, the OIG's first report on
the FBI's use of national security letters is due to Congress on March 9,
2007. (U)

I.    Methodology of the OIG Review (U)
       In this review, the OIG conducted interviews of over 100 FBI
employees, including personnel at FBI Headquarters in the Office of the
General Counsel (FBI-OGC), Counterterrorism Division, and
Counterintelligence Division, and personnel in four field divisions. We also
interviewed officials in the Department's Criminal Division and National
Anti-Terrorism Advisory Council Coordinators. We also attended
background briefings regarding national security letters and the databases
in which information derived from national security letters is stored and
analyzed. We examined over 31,000 FBI documents from FBI Headquarters
operational and support divisions and four field divisions pertaining to
national security letters. Among the documents we analyzed were
Headquarters guidance memoranda; correspondence; and reports by the
FBI's Inspection Division, FBI-OGC, and Office of Professional
Responsibility. In addition, we analyzed documents from the Department's
Office of Legislative Affairs that included testimony, memoranda, and
hearing transcripts regarding the oversight and reauthorization of the
Patriot Act, including provisions affecting national security letter authorities
and semiannual classified reports to Congress on the FBI's use of national
security letter authorities. (U)
       OIG teams also examined FBI case files that contained national
security letters and conducted interviews at four FBI field divisions in May
and June 2006: Chicago, New York, Philadelphia, and San Francisco.
These field divisions were selected from among the eight field divisions that
issued the most national security letter requests during the period of our
review, from 2003 through 2005. At the four field divisions, we conducted
interviews of 52 FBI personnel, including an Assistant Director in Charge,
Special Agents in Charge, Acting Special Agents in Charge, Assistant Special
Agents in Charge, supervisory special agents overseeing counterterrorism
and counterintelligence squads, Chief Division Counsel and Assistant
Division Counsel, special agents, intelligence analysts, and intelligence
research specialists. (U)



      6   Patriot Reauthorization Act,§ 119(b). (U)

                                             3
       Also at the four field divisions, we examined ajudgmental sample of
77 counterterrorism and counterintelligence investigative case files. Those
files contained approximately 800 requests for information under four of the
five national security letter authorities. Of that total, we reviewed up to 5
national security letters in each investigative file, for a total of 293 national
security letters issued from January 1, 2003, through December 31, 2005.
We reviewed those documents to determine whether the national security
letters were issued in accordance with the relevant statutes, Attorney
General Guidelines, and FBI policies. With regard to these national security
letters, we reviewed documentation pertaining to case initiations,
authorizations, delivery to the designated recipients, the recipients'
production of documents and electronic media in response to the letters,
retention of that information, and the analysis and dissemination of the
information within the Department, to the intelligence community, and to
others. (U)
                                                                                                        CHART 1.1
        The OIG also                         Relationship Between Investigations, NSLs,
                                                        and NSL Requests (U)
analyzed the FBI-OGC's                           [Chart below is classified as ~
National Security Letter
                              In this report, we often refer to the number of national :security letter
Database (OGC                 requests rather than the number of national security letters because
database), which the FBI      one "letter" may include more than one request. That is, during an
uses for collecting           investigation several national security letters may be issued, and each
                              letter may contain several requests. For example, one letter to a
information necessary to      telephone company may request information on seven telephone
compile the Department's      numbers. As a result, the numbers normally presented in the FBI's
semiannual classified         classified reports to Congress and in its public report are the
                              numbers of requests made, not the number of letters issued. In this
reports to Congress on        report, we follow that same approach. This chart shows the
NSL usage and, since          relationship we found between the number of investigations, NS Ls,
passage of the Patriot        and NSL requests from 2003 through 2005 by counterterrorism and
                              counterintelligence cases. Fewer than one percent of all NSL requests
Reauthorization Act, to       during this period were issued in foreign computer intrusion cyber
compile the Department's      investigations. (U)
annual public report on                    100,000     '''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''''l:


NSL usage. During the
period of our review, the                  80,000 - - - - - -
Department was directed                    60,000 - - - - - -
to file semiannual                         40,000 - - - - - -
classified reports to
                                           20,000 - - -
Congress reflecting the
                                                 0 .L.Jmi~
number of "NSL requests"                                                  Counterterrorism                                                                                             Counterintelligence
the FBI made pursuant
                                 lilJ Investigations                                              6,372                                                                                                            3,772
to three of the five
                                 ml NSLs                                                        31,246                                                                                                            12,754
national security letter
authorities (see                 D NSL Requests                                               101,885                                                                                                            35,948
Chart 1.1). We also
analyzed this OGC               Source: FBI-OGC Database                                                                                                                              {S) ........._....____,
                               *The NSL request totals on this chart are less than thj         ~SL                                                                                                                                                                                           bl
database to assess the         requests noted above because they do not include NSL requests issued                                                                                                                                                                                          b3
                               in connection with cyber investigations or the total number of NSL V
accuracy and reliability of    requests that were lost due to a malfunction of the OGC database. ~)


                                             4
the FBI's reports. We compared the OGC database entries to the
documentation of the use of these authorities in the field divisions'
investigative case files and performed other tests. These tests revealed
significant errors in the OGC database, which we describe in Chapter Four.
However, although we recognize the limitations of the OGC database, we
used data from the OGC database for some of our analysis because it is the
only source of centralized data on the FBI's use of NSLs. (U)
       During this review, we also distributed an e-mail questionnaire to the
counterintelligence and counterterrorism squads in the FBI's 56 domestic
field offices to attempt to determine the types of analytical products the FBI
developed based on national security letters; the manner in which national
security letter-derived information was disseminated within the Department,
to other members of the intelligence community, and to others; and the
occasions when such information was provided to law enforcement
authorities for use in criminal proceedings. (U)

II.   Organization of the Report (U)
      This report is divided into eight chapters. Following this introduction,
Chapter Two provides background on the use of national security letters,
the Attorney General Guidelines which govern the FBI's conduct of national
security investigations, and the roles of several FBI Headquarters divisions
and components involved in the approval and operational use of national
security letters. (U)
      Chapter Three describes the manner in which the FBI collects
information by issuing national security letters and how it retains the
information in investigative case files, shared computer drives, and
databases. (U)
       Chapter Four presents data on the FBI's use of national security
letters from 2003 through 2005. This information is based on data derived
from the OGC database, the Department's semiannual classified reports to
Congress on NSL usage, and our field work. (U)
       Chapter Five addresses other issues the Patriot Reauthorization Act
directed the OIG to review regarding the use and effectiveness of national
security letters, including the importance of the information acquired and
the manner in which information from national security letters is analyzed
and disseminated within the Department, to other members of the
intelligence community, and to other entities. (U)
      Chapter Six reports our findings on instances of improper or illegal
use of national security letter authorities, including instances identified by
the FBI, as well as other instances identified by the OIG. (U)
       Chapter Seven reports other noteworthy facts or circumstances
identified in the review, including the interpretation of the Attorney General
Guidelines' requirement to use the "least intrusive collection techniques

                                       5
feasible" with regard to the use of national security letters; uncertainty
about the types of telephone toll billing records the FBI may obtain
pursuant to an Electronic Communications Privacy Act (ECPA) national
security letter; the review by Division Counsel of NSL requests; the issuance
of NSLs from control files rather than investigative files, in violation of FBI
policy; the FBI's use of "certificate letters" rather than Right to Financial
Privacy Act (RFPA) national security letters to obtain records from Federal
Reserve Banks; and the FBI's failure to include in the OGC database
information reflecting the use of NSLs to obtain information on individuals
who are not subjects of FBI investigations. (U)
     Chapter Eight contains a summary of our conclusions and our
recommendations. (U)
       The Appendix to the report contains comments on the report by the
Attorney General, the Director of National Intelligence, and the FBI. The
Appendix also contains copies of the national security letter statutes in
effect prior to the Patriot Reauthorization Act. The classified report also
contains a classified appendix. (U)




                                       6
                                   ~
                                   CHAPTER TWO
                                  BACKGROUND (U)
      In this chapter we describe the five national security letter authorities
and the Attorney General Guidelines that govern their use. We also
describe the roles of FBI Headquarters divisions and field components in
issuing and using these letters in national security investigations. (U)

I.     Background on National Security Letters (U)
       Over the last 20 years, Congress has enacted a series of laws
authorizing the FBI to obtain certain types of information from third parties
in terrorism, espionage, and classified information leak investigations
without obtaining warrants from the Foreign Intelligence Surveillance Court
or approval from another court. 7 These include five statutory provisions
that authorize the FBI to obtain customer and consumer transactional
information from communications providers, financial institutions, and
consumer credit agencies by issuing national security letters (NSLs). 8 All
but one of these provisions - the statute allowing access to consumer full
credit reports in international terrorism investigations - predated the
October 2001 passage of the Patriot Act. The authorizing statutes in effect
prior to the Patriot Act required certification by a senior FBI Headquarters
official that the FBI had "specific and articulable facts giving reason to
believe that the customer or entity whose records are sought is a foreign


        7 FBI investigations of terrorism and espionage are called "national security
investigations,'' which are conducted pursuant to the Attorney General's Guidelines for FBI
National Security Investigations and Foreign Intelligence Collection (Oct. 31, 2003)(NSI
Guidelines). NS Ls are not authorized in connection with FBI conduct of ordinary criminal
investigations or domestic terrorism investigations. (U)
       8   The five statutes are: (U)
       1) 18 U.S.C. § 2709 (covering subscriber information and telephone toll billing
       records information and electronic communication transactional records); (U)
       2) 12 U.S.C. § 3414 (covering financial records); (U)
       3) 15 U.S.C. § 168lu (covering the names and addresses of all financial institutions
at which a consumer maintains or has maintained an account; and the consumer's name,
address, former addresses, places of employment or former places of employment); (U)
      4) 15 U.S.C. § 168lv (covering consumer reports and all other information in a
consumer's file in international terrorism investigations); and (U)
        5) 50 U.S.C. § 436 (covering financial records, other financial information, and
consumer reports in law enforcement investigations, counterintelligence inquiries, or
security determinations). See Appendix A of this report for the text of the five statutes prior
to the effective date of the Patriot Reauthorization Act. (U)
        The phrase "national security letter" was not used in any of the authorizing
statutes, but was commonly used to refer to these authorities. The term was first used in
legislation in the Patriot Reauthorization Act. (U)

                                              7

                                        ~
power or agent of a foreign power" as defined in the Foreign Intelligence
Surveillance Act of 1978. 9 (U)

       A.       The Patriot Act (U)
      The September 11 attacks prompted a reevaluation of the law
enforcement and intelligence tools that were available to detect and prevent
terrorist attacks. Among the topics Congress and the Department of Justice
considered was the use of national security letters. 10 The Department
reported in Congressional testimony that "in many cases,
counterintelligence and counterterrorism investigations suffer substantial
delays while waiting for NSLs to be prepared, returned from Headquarters,
and served."11 (U)
      The Patriot Act significantly expanded the FBI's preexisting authority
to obtain information through national security letters. Section 505 of the
Patriot Act broadened the FBI's authority by: (U)
       •     Eliminating the requirement that the information sought in an NSL
             must pertain to a foreign power or an agent of a foreign power and
             substituting the lower threshold that the information requested be
             relevant to or sought for an investigation to protect against
             international terrorism or espionage, provided that the
             investigation of a United States person is not conducted "solely on
             the basis of activities protected by the first amendment of the
             Constitution of the United States"; (U)
       •     Permitting, as a consequence of this lower threshold, national
             security letters to request information from communication
             providers, financial institutions, and consumer credit agencies

       9    See, e.g., 18 U.S.C. § 2709 (2000); 50 U.S.C. §§ 1801-1811 (2000). (U)

        10 S. 1448, The Intelligence to Prevent Terrorism Act of 2001 and Other Legislative
Proposals in the Wake of the September 11, 2001 Attacks: Hearing Before the Senate
Select Comm. On Intelligence, 107th Cong. (2002); Dismantling the Financial Infrastructure
of Global Terrorism: Hearing Before the House Comm. on Fin. Servs., 107th Cong. (2002);
The Role of Technology in Preventing the Entry of Terrorists into the United States:
Hearing Before the Senate Subcomm. on Tech., Terrorism, Gov't Info. of the Comm. on the
Judiciary, 107th Cong. (2002). (U)
        11 Hearing Before the House Comm. on the Judiciary, 107th Cong. 57-58 (2001)
(Administration's Draft Anti-Terrorism Act of 2001). This view also was reflected in
post-Patriot Act testimony at hearings considering whether to reauthorize the NSL
authorities in the Patriot Act. See Tools Against Terror: How the Administration is
Implementing New Laws in the Fight to Protect Our Homeland: Hearing Before the
Subcomm. on Technology, Terrorism, and Gov't Info. of the Senate Comm. on the Judiciary,
107th Cong. 139 (2002) (statement of Dennis Lormel, Chief, Terrorist Financing Operations
Section, Counterterrorism Division, FBI)("Delays in obtaining NSLs has long been identified
as a significant problem relative to the conduct of counterintelligence and counterterrorism
investigations.") (U)

                                               8
                                         ~
            about persons other than the subjects of FBI national security
            investigations so long as the requested information is relevant to
            an authorized investigation; and (U)
       •    Permitting Special Agents in Charge of the FBI's 56 field offices to
            sign national security letters, thus significantly expanding approval
            authority beyond senior FBI Headquarters officials. 12 (U)
       In addition to expanding preexisting NSL authorities, the Patriot Act
added a new NSL authority permitting the FBI and certain other federal
government agencies to use NSLs to obtain access to consumer full credit
reports in international terrorism investigations pursuant to an amendment
to the Fair Credit Reporting Act (FCRA). 13 Prior to this amendment, the FBI
could use FCRA NSLs only to obtain basic financial institution and
consumer-identifying information about the person's bank accounts, places
of employment, and addresses.14 (U)
       The Patriot Act did not alter existing provisions in the statutes barring
recipients of national security letters from disclosing their receipt of the
letters and from disclosing the records provided. These so-called "gag order"
provisions prohibited NSL recipients from challenging NSLs in court.
Similarly, NSL authorities prior to the Patriot Act did not provide an express
mechanism by which the FBI could enforce an NSL in court if a recipient
refused to comply. The Patriot Act also did not include any express
enforcement mechanism. (U)
       The pre-Patriot Act statutes required the FBI to provide classified
semiannual reports to Congress disclosing summary information about
national security letter usage. 15 The Patriot Act continued to require
classified reports to Congress on the FBI's use of its NSL authorities. (U)


        l2 Prior to the Patriot Act, approximately 10 FBI Headquarters officials were
authorized to sign national security letters, including the Director, Deputy Director, and the
Assistant Directors and Deputy Assistant Directors of the Counterterrorism and
Counterintelligence Divisions. Under the Patriot Act, the heads of the FBI's 56 field offices
(Assistant Directors in Charge or Special Agents in Charge) may also issue NSLs. Since
enactment of the Patriot Act, approval to sign NSLs has also been delegated to the Deputy
Director, Executive Assistant Director (EAD), and Assistant EAD for the National Security
Branch; Assistant Directors and all Deputy Assistant Directors for the Counterterrorism,
Counterintelligence, and Cyber Divisions; all Special Agents in Charge of the New York,
Washington, D.C., and Los Angeles field offices, which are headed by Assistant Directors in
Charge; the General Counsel; and the Deputy General Counsel for the National Security
Law Branch in the Office of the General Counsel. (U)
       13   15 U.S.C. § 1681v (Supp. IV 2005). (U)
       14   15 U.S.C. § 1681u (2000). (U)
       15  The national security letter authority in the National Security Act, which allows
collection of financial records and information, consumer reports, and travel records, did
not require reports to Congress. See 50 U.S.C. § 436 (2000). (U)
       B.      Types of Information Obtained by National Security Letters
               (U)
       The type of information the FBI can obtain through national security
letters includes: (U)
       Telephone and e-mail Information (U)
       •    Historical information on telephone calls made and received from a
            specified number, including land lines, cellular phones, prepaid
            phone card calls, toll free calls, alternate billed number calls (calls
            billed to third parties), and local and long distance billing records
            associated with the phone numbers (known as toll records); (U)
       •    Electronic communication transactional records (e-mails),
            including e-mail addresses associated with the account; screen
            names; and billing records and method of payment; and (U)
       •    Subscriber information associated with particular telephone
            numbers or e-mail addresses, such as the name, address, length of
            service, and method of payment. (U)
       Financial Information (U)
       •    Financial information such as information concerning open and
            closed checking and savings accounts and safe deposit box records
            from banks, credit unions, thrift institutions, investment banks or
            investment companies, as well as transactions with issuers of
            travelers checks, operators of credit card systems, pawnbrokers,
            loan or finance companies, travel agencies, real estate companies,
            casinos, and other entities. (U)
       Consumer Credit Information (U)
       •    Names and addresses of all financial institutions at which a
            consumer maintains or has maintained an account; (U)
       •    Identifying information respecting a consumer ... limited to name,
            address, former addresses, places of employment, or former places
            of employment; and (U)
       •    Consumer reports of a consumer and all other information in a
            consumer's file (full credit reports). (U)

       C.      The Patriot Reauthorization Act (U)
      The Patriot Reauthorization Act reauthorized all of the provisions that
were subject to lapse or "sunset" in the original Patriot Act (with some
modification), including the five NSL authorities. 16 One of the modifications

       16 Pub. L. No. 109-177, § 102(a) (2006). The Patriot Reauthorization Act modified
the non-disclosure requirements regarding national security letters. An NSL recipient may

                                           10
                                      ~
required the Department to issue, in addition to its semiannual classified
reports, annual public reports that disclose certain data on the FBI's
national security letter requests. The public report must include the
aggregate number of NSL requests issued pursuant to the five NSL statutes
including, for the first time, data on the use of the full credit report
authority established pursuant to the Fair Credit Reporting Act, the only
new NSL authority enacted by the Patriot Act. (U)
      The Department's first public annual report pursuant to the Patriot
Reauthorization Act on the use of NSL authorities was issued on April 28,
2006. 17 The report stated that during calendar year 2005, federal
government agencies issued 9,254 "NSL requests" involving 3,501 different
"United States persons."18 (U)

II.    The Four National Security Letter Statutes (U)
      The following is a brief overview of the four statutes authorizing the
FBI to issue five types of national security letters. (U)

       A.      The Right to Financial Privacy Act (U)
       The Right to Financial Privacy Act (RFPA) was enacted in 1978 "to
protect the customers of financial institutions from unwarranted intrusion
into their records while at the same time permitting legitimate law
enforcement activity." 19 The RFPA requires federal government agencies to
provide individuals with advance notice of requested disclosures of personal
financial information and gives individuals an opportunity to challenge the
request before disclosure is made to law enforcement authorities.2° (U)



(cont'd.)
now disclose the NSL in connection with seeking legal advice or complying with the NSL. In
addition, the Patriot Reauthorization Act permits the NSL recipient to challenge compliance
with the NSL and the non-disclosure requirement in federal court. In addition, the
government may seek judicial enforcement of NS Ls in the event of non-compliance. (U)
       17See Letter from William E. Moschella, Assistant Attorney General, to L. Ralph
Mecham, Director, Administrative Office of the United States Courts (April 28, 2006), at 3.
(U)
       18 Id. In Chapter Four we describe the categories of NSL requests that are included
and excluded from the public report. (U)
       19  H.R. Rep. No. 95-1383, at 33 (1978), reprinted in 1978 U.S.C.C.A.N. 9273, 9305.
The RFPA was enacted in response to the Supreme Court's decision in United States v.
Miller, 425 U.S. 435 (1976), which held that customers of banking services had no
expectation of privacy under the Fourth Amendment and therefore could not contest
government access to their records. (U)
       20   12 U.S.C. §§ 3401-3422 (2000). (U)

                                             11
      The first NSL statute was passed in 1986 as an amendment to the
RFPA. It created an exception to the advance notice requirement by
permitting the FBI to obtain financial institution records in foreign
counterintelligence cases. Before the Patriot Act, the FBI could issue RFPA
NSLs upon certification of (U)
       specific and articulable facts giving reason to believe that the
       customer or entity whose records are sought is a foreign power
       or an agent of a foreign power. . . .21 (U)
       Since the Patriot Act, the FBI may obtain financial records upon
certification that the information is sought (U)
       for foreign counterintelligence purposes to protect against
       international terrorism or clandestine intelligence activities,
       provided that such an investigation of a United States person is
       not conducted solely on the basis of activities protected by the
       first amendment to the Constitution of the United States. 22 (U)
       In December 2003, Congress amended the RFPA to expand the
definition of "financial institutions" to which NSLs could be issued,
including entities such as rental car companies, automobile dealerships,
credit unions, issuers of travelers' checks, pawnbrokers, and real estate
companies.23 (U)
      The FBI can disseminate information derived from the RFPA national
security letters only in accordance with the Attorney General Guidelines
governing national security investigations and can disseminate such
information to other federal agencies only if the information is clearly
relevant to the authorized responsibilities of those federal agencies. 24 (U)

       B.      The Electronic Communications Privacy Act (U)
      In 1986, Congress enacted the Electronic Communications Privacy
Act (ECPA), which extended statutory protection to electronic and wire
communications stored by third parties such as telephone companies and



       21   12 U.S.C. § 3414(a)(5)(A) (2000). (U)

        22 12 U.S.C. § 3414(a)(5)(A) (2000 & Supp. IV 2005). Financial records accessible
to the FBI under the RFPA were also subject to compulsory process through subpoenas,
search warrants, and formal requests, all of which, with limited exceptions, required notice
to the customer. (U)
       23   See 12 U.S.C. § 3414(d) (2000 & Supp. IV 2005), as amended by the Intelligence
Authorization Act for Fiscal Year 2004, Pub. L. No. 108-77, § 374(a) (2004), which
incorporated the definition of "financial institution" set forth in 31 U.S.C. §§ 5312(a)(2) and
(c)(l). (U)
       24   12 U.S.C. § 3414(a)(5)(B) (2000). (U)


                                              12

                                          ~
Internet Service Providers.2 5 The statute restricted the government's access
to live telephone transactional data, such as the telephone numbers that a
particular telephone number calls or received (known as "pen register" and
"trap and trace" data). The ECPA required the government to obtain a court
order for which it must certify the relevance of the information to an ongoing
criminal investigation. 26 The statute requires that subjects of government
requests for these records be given advance notice of the requested
disclosure and an opportunity to challenge the request. (U)
      However, the ECPA allowed the FBI to obtain "subscriber information
and toll billing records information, or electronic communication
transactional records" from a "wire or electronic communications service
provider" in conjunction with a foreign counterintelligence investigation.
Before the Patriot Act, the FBI could obtain ECPA NSLs upon certification of
(U)
         specific and articulable facts giving reason to believe that the
         person or entity to whom the information sought pertains is a
         foreign power or an agent of a foreign power. . . .21 (U)
         Since the Patriot Act, the FBI must certify that the information sought
is (U)
         relevant to an authorized investigation to protect against
         international terrorism or clandestine intelligence activities
         provided that such an investigation of a United States person is
         not conducted solely on the basis on activities protected by the
         first amendment to the Constitution of the United States.2 8 (U)
      In 1993, Congress expanded the ECPA NSL authority by permitting
access to the subscriber and toll billing records of additional persons, such
as those who were in contact with agents of a foreign power.2 9 Congress
amended the ECPA again in 1996 by defining "toll billing records" to
expressly include "local and long distance toll billing records." 30 (U)



         25   18 U.S.C. § 2709 (1988). (U)

        26 A "pen register'' is a device that records the numbers that a target telephone is
dialing. A "trap and trace" device captures the telephone numbers that dial a target
telephone. See 18 U.S.C. § 3127 (2000). (U)
         27   18 U.S.C. § 2709(b)(l)(B) (2000). (U)
         28   18 U.S.C. § 2709(b)(2) (2000 & Supp. IV 2005). (U)

       2 9 Pub. L. No. 103-142, § 2, 107 Stat. 1491 (1993). The 1993 amendment also
provided additional congressional reporting requirements. Id. (U)
        30 Intelligence Authorization Act for Fiscal Year 1997, Pub. L. No. 104-293, §
60l(a), 110 Stat. 3461 (1996). (U)

                                                13
      Recipients of ECPA NSLs were prohibited until the Patriot
Reauthorization Act from disclosing to any person that the FBI had sought
or obtained the requested information. 31 (U)
      The FBI may disseminate information obtained from ECPA NSLs to
other federal agencies "only if such information is clearly relevant to the
authorized responsibilities of such agency." 32 (U)
      The ECPA permits access only to "subscriber and toll billing records
information" or "electronic communication transactional records," as
distinguished from the content of telephone conversations or
e-mail communications.33 (U)

       C.      The Fair Credit Reporting Act (U)
       The Fair Credit Reporting Act (FCRA), as amended by the Patriot Act,
authorizes two types of national security letters, FCRAu and FCRAv NSLs.
The FCRA was enacted in 1970 to protect personal information collected by
credit reporting agencies. 34 The FCRA prohibits the disclosure of
information collected for the purpose of establishing eligibility for credit,
insurance, employment, and other related purposes. (U)
      However, Congress amended the FCRA in 1996 to authorize the FBI
(and certain other government agencies) to issue national security letters to
obtain a limited amount of information about an individual's credit history:
the names and addresses of all financial institutions at which a consumer
maintains or has maintained an account pursuant, referred to as FCRAu
NSLs; and consumer identifying information limited to name, address,
former addresses, places of employment and former places of employment. 35
Before the Patriot Act, the FBI could obtain FCRA NSLs upon certification
that (U)
       (1) such information is necessary for the conduct of an
       authorized foreign counterintelligence investigation; and (U)
       (2) there are specific and articulable facts giving reason to
       believe that the consumer - (U)


       31   18 U.S.C. § 2709(c) (2000). (U)

       32   18 U.S.C. § 2709(d) (2000). (U)

        33 18 U.S.C. § 2709(a) (2000). ECPA requires a warrant for the interception and
surveillance of the content of a telephone call or e-mail communication. See 18 U.S. C.
§§ 2511 (Wiretap Act) and 3121 (Pen Register Act). See also 18 U.S.C. § 2702(b)(8) (2000).
(U)
       34   15 U.S.C. § 1681 et seq (2000). (U)
       35  Intelligence Authorization Act for Fiscal Year 1996, Pub. L. No. 104-93, § 60l(a),
109 Stat. 961, codified at 15 U.S.C. § 168lu (Supp. V. 1999). (U)

                                              14

                                        ~
             (A) is a foreign power or a person who is not a United
       States person and is an official of a foreign power; or (U)
              (B) is an agent of a foreign power and is engaging or has
       engaged in an act of international terrorism or clandestine
       intelligence activities that involve or may involve a violation of
       criminal statutes of the United States. 36 (U)
Since the Patriot Act, the FBI must certify that the information is (U)
       sought for the conduct of an authorized investigation to protect
       against international terrorism or clandestine intelligence
       activities, provided that such an investigation of a United States
       person is not conducted solely upon the basis of activities
       protected by the first amendment to the Constitution of the
       United States.37 (U)
       In 2001, the Patriot Act amended the FCRA to add a new national
security letter authority (FCRAv). The Patriot Act amendment to the FCRA
authorizes the FBI and other government agencies that investigate or
analyze international terrorism to obtain a consumer reporting agency's
credit reports and "all other" consumer information in its files in accordance
with the following provision: (U)
       [A] consumer credit agency shall furnish a consumer credit
       report of a consumer and all other information in a consumer's
       files to a government agency authorized to conduct
       investigations of, or intelligence or counterintelligence activities
       or analysis related to, international terrorism when presented
       with a written certification by such government agency that
       such information is necessary for the agency's conduct or such
       investigation, activity or analysis. 38 (U)
      This NSL authority is available to the FBI only in connection with
international terrorism investigations. Until the Patriot Reauthorization Act,
recipients of FCRA NSLs were prohibited from disclosing to any person that
the FBI had sought or obtained the requested information. (U)

       D.      The National Security Act (U)
       In 1994, in the wake of the espionage investigation of former Central
Intelligence Agency employee Aldrich Ames, Congress enacted an additional


       36 15 U.S.C. § 1681u (2000). (U)
       37 15 U.S.C. § 1681u(a)-(b) (2000 & Supp. IV 2005). (U)
       38 Patriot Act,§ 358(g) (2001). Unlike other NSL statutes, the full credit report NSL
authority is available not only to the FBI but also to other federal government agencies.
This provision does not contain an express prohibition on dissemination. (U)

                                             15

                                        ~
NSL authority by amending the National Security Act of 1947. The
amendment authorized NSLs to be issued in connection with investigations
of improper disclosure of classified information by government employees. 39
The statute permits the FBI to make requests to financial agencies and
other financial institutions and consumer reporting agencies "in order to
conduct any authorized law enforcement investigation, counterintelligence
inquiry, or security determination." 40 Prior to the Patriot Reauthorization
Act, recipients of National Security Act NSLs, like recipients of RFPA and
ECPA NSLs, were prohibited from disclosing to any person that the FBI had
sought or obtained the requested information, with some exceptions. (U)
       National Security Act NSLs are rarely used by the FBI. 41 (U)

III.   The Attorney General's Guidelines for FBI National Security
       Investigations and Foreign Intelligence Collection (U)
      National security letters may be issued by the FBI in connection with
national security investigations, which are governed by Attorney General
Guidelines. (U)
      During the time period covered by this report, calendar years 2003
through 2005, the Attorney General Guidelines for national security
investigations were revised. From January 1, 2003, through October 31,
2003, investigations of international terrorism or espionage were governed
by the Attorney General Guidelines for FBI Foreign Intelligence Collection
and Foreign Counterintelligence Investigations (FCI Guidelines)(March
1999). Effective October 31, 2003, these investigations were conducted
pursuant to the Attorney General's Guidelines for FBI National Security
Investigations and Foreign Intelligence Collection (NSI Guidelines). 42 (U)

       A.       Levels of Investigative Activity under the FCI Guidelines
                (January 1, 2003 - October 31, 2003) (U)
      The FCI Guidelines authorized two levels of investigative activity:
preliminary inquiries and full investigations. The FCI Guidelines identified
the basis or "predicate" for opening each type of investigation as well as the
authorized techniques permitted at each stage. Full foreign


       39 See H.R. Rep. No. 103-541 (1994) and H.R. Conf. Rep. No. 103-753 (1994),
reprinted in 1994 U.S.C.C.A.N. 2703. (U)
       40   50 U.S.C. § 436(a)(l) (2000). (U)

       41 These NSLs were used to obtain bank account, credit card, and loan transaction
information to support the predicate for the FBI's espionage investigation of Aldrich Ames.
See Commission for Review of FBI Security Programs (March 31, 2002)(Webster
Commission), at 66. (U)
       42   Both sets of Guidelines are partially classified. (U)

                                                16
                                           ~
      counterintelligence investigations permitted the FBI to gather information
      and conduct activities (U)
             to protect against espionage and other intelligence activities,
             sabotage, or assassinations conducted by, for or on behalf of
             foreign powers, organizations or persons, or international
             terrorist activities .... 43 (U)
      The FCI Guidelines did not permit the FBI to use national security letters
      during preliminary inquiries, only during full investigations. However,
      following the September 11 attacks, the Attorney General authorized the use
      of NSLs during preliminary inquiries with prior approval by the Attorney
      General and the FBI Director. 44 (U)

             B.       Levels of Investigative Activity under the NSI Guidelines
                      (October 31, 2003) (U)
             The NSI Guidelines issued on October 31, 2003, which remain in
      effect today, authorize the FBI to conduct investigations concerning threats
      or potential threats to the national security, including threats arising from
      international terrorism, espionage, other intelligence activities, and foreign
      computer intrusions. The NSI Guidelines authorize three levels of
      investigative activity - threat assessments, preliminary investigations, and
      full investigations - and prescribe the investigative techniques available
      during each investigative stage. (U)
            Threat Assessments: Under the NSI Guidelines, the FBI is authorized
      to conduct threat assessments (U)
             to investigate or collect information relating to threats to the
             national security, including information on individuals, groups,
             and organizations of possible interest, and information
             concerning possible targets of international terrorism,
             espionage, foreign computer intrusion, or other threats to the
{U/          national security;4s ~
      The NSI Guidelines do not permit the FBI to issue national security letters
      cil1I"il1K9cJhreatassessmenL ~
            Preliminary Investigations: Under the NSI Guidelines, a preliminary
      investigation (previously known as a "preliminary inquiry") can be initiated

             43   FCI Guidelines, § 11(0). (U)

             44  In January 2003, the Attorney General issued a memorandum modifying the FCI
      Guidelines by authorizing designated Headquarters officials and Special Agents in Charge
      designated by the FBI Director to issue ECPA, RFPA, and FCRAu NSLs during preliminary
      inquiries. (U)
            45 NSI Guidelines, § II(A). The authorized techniques permitted during threat

      assessments are classified. (U)

                                                 17

                                                 ~
or "opened" by certain Headquarters officials or by a field office with the
approval of certain field supervisors. A preliminary investigation can be
opened when there is information or an allegation indicating the existence of
one of several identified circumstances. In preliminary investigations, FBI
agents are authorized to employ the activities and techniques permitted to
be used during threat assessments as well as certain other investigative
techniques, including the issuance of national security letters. 46 (U)
       Full Investigations: Under the NSI Guidelines, full investigations may
be opened when there are "specific and articulable facts giving reason to
believe that a threat to the national security may exist." 47 During these
investigations, FBI agents are authorized to employ the activities and
techniques permitted to be used during threat assessments and preliminary
investigations, as well as certain other investigative techniques. 48 National
security letters are permitted to be used during full investigations. (U)
      The NSI Guidelines also provide guidance concerning the selection of
authorized techniques during different investigative stages: (U)
       Choice of Methods. The conduct of investigations authorized by
       these Guidelines may present choices between the use of
       information collection methods that are more or less intrusive,
       considering such factors as the effect on the privacy of
       individuals and potential damage to reputation. As Executive
       Order 12333 § 2.4 provides, "the least intrusive collection
       techniques feasible" are to be used in such situations. It is
       recognized, however, that the choice of techniques is a matter of
       judgment. The FBI shall not hesitate to use any lawful
       techniques consistent with these Guidelines, even if intrusive,
       where the degree of intrusiveness is warranted in light of the
       seriousness of a threat to the national security or the strength
       of the information indicating its existence. This point is to be
       particularly observed in investigations relating to terrorism. 49
       (U)




         46 The additional techniques permitted during preliminary investigations are
classified. (U)
       47   NSI Guidelines, Introduction, A. (U)
       48   The additional techniques permitted during full investigations are classified. (U)
       49   NSI Guidelines,§ I(B)(2). (U)

                                              18

                                            ~
IV.   The Role of FBI Headquarters and Field Offices in Issuing and
      Using National Security Letters (U)
       We describe below the responsibilities of Headquarters and field
divisions assigned to conduct or support the FBI's investigative and
intelligence activities in national security investigations. (U)

      A.    FBI Headquarters (U)
       During most of the period of this review, three FBI Headquarters
divisions were responsible for supervising the FBI's counterterrorism,
counterintelligence, and cyber programs: the Counterterrorism Division,
Counterintelligence Division, and Cyber Division. These programs were
implemented through the counterterrorism, counterintelligence, and cyber
squads in the FBI's 56 domestic field divisions and through the
establishment of operational support sections within the Headquarters
divisions. (U)

            1.    Counterterrorism Division (U)
       The division's mission is to identify and disrupt potential terrorist
plots, freeze terrorist finances, share information with law enforcement and
intelligence partners world-wide, and provide strategic and operational
threat analysis to the intelligence community. Agents assigned to
counterterrorism squads use information derived from national security
letters to analyze non-content telephone and Internet communications,
financial records, financial institution and consumer-identifying
information, and consumer full credit reports. (U)

            2.    Counterintelligence Division (U)
      The division's mission involves counterproliferation,
counterespionage, and protection of critical national assets. Agents
assigned to counterintelligence squads use information obtained from
national security letters to analyze non-content telephone and Internet
communications, financial records, and financial institution and
consumer-identifying information. (U)

            3.    Cyber Division (U)
      The division's mission is to protect the United States against
cyber-based attacks and high technology crimes. Its agents provide support
for computer-related counterterrorism and counterintelligence
investigations with an international nexus, including foreign computer
intrusion cyber investigations. (U)

            4.    Directorate of Intelligence (U)
      The directorate's mission is to meet current and emerging national
security and criminal threats by assuring that the FBI proactively targets

                                     19

                                  ~
threats to the United States; providing useful, appropriate, and timely
information and analysis; and building and sustaining FBI-wide intelligence
policies and capabilities. The directorate has no officials who are authorized
to sign national security letters. However, during the period covered by our
review the field-based Field Intelligence Groups, which report to this
directorate, performed significant analytical work on data derived from
national security letters in support of the FBI's counterterrorism,
counterintelligence, and cyber programs. The directorate also serves as the
FBI's primary liaison for dissemination and receipt of intelligence
information outside the FBI and has the final review authority over
intelligence products to be disseminated outside the FBI, including
information derived from national security letters. (U)

            5.    Office of the General Counsel (FBI-OGC) (U)
      The National Security Law Branch (NSLB) of FBI-OGC provides legal
advice, guidance, and training on the FBI's use of national security letter
authorities; collects data on NSL usage from Headquarters and field
divisions for purposes of preparing the Department's required reports to
Congress; prepares NSLs for the signatures of the General Counsel, the
Deputy General Counsel for NSLB, and certain Headquarters officials;
provides technical support regarding retention and dissemination of
NSL-derived information; identifies, evaluates, and corrects misuse of NSL
authorities; evaluates possible Intelligence Oversight Board (IOB) violations
reported by field and Headquarters personnel and reports some of these
matters to the President's Foreign Intelligence Oversight Board; and
develops legislative proposals and responds to congressional requests for
information about the FBI's use of its NSL authorities. (U)

      B.    FBI Field Divisions (U)
      The FBI's 56 field divisions have counterterrorism,
counterintelligence, and cyber squads that investigate cases related to
national security threats or potential threats. Field supervisors are
authorized to initiate counterterrorism, counterintelligence, and cyber
investigations, and Special Agents in Charge are authorized to sign national
security letters. Additional FBI and non-FBI field personnel who are
responsible for reviewing and analyzing information obtained through
national security letters are: (U)

            1.    Chief Division Counsel (U)
      Chief Division Counsel (CDCs) in all 56 FBI field divisions report to
the Special Agents in Charge of the field division and are responsible for
reviewing all national security letters prepared for the signature of the
Special Agent in Charge. CDCs in large field divisions sometime delegate
this authority to Assistant Division Counsel. The responsible Chief Division
Counsel or Assistant Division Counsel examines approval documents and

                                      20
the draft national security letters for legal sufficiency, corrects errors, seeks
additional information when needed, and forwards the approval package to
the Special Agent in Charge. CDCs also provide training to agents serving
on counterterrorism, counterintelligence, and cyber squads, provide advice
on how to address legal issues arising from the use of NSL authorities, and
assist case agents in reporting possible IOB violations arising from the use
of these authorities to FBI-OGC. (U)

             2.    Field Intelligence Groups (U)
       Field Intelligence Groups (FIG) were established in all 56 field
divisions by October 2003. They include special agents, intelligence
analysts, language analysts, and special surveillance groups. FIG personnel
conduct intelligence analyses, direct the collection of information to fill
intelligence gaps, and are responsible for disseminating intelligence
products to internal and external customers, including state and local law
enforcement. FIG personnel analyze information derived from national
security letters, often relating it to other cases within the field division and
other field divisions. The intelligence directorate's Field Oversight Unit
develops, supports, and provides oversight of the FIGs, which are managed
in each field division by an Assistant Special Agent in Charge. (U)




                                       21
                  CHAPTER THREE
THE FBI'S COLLECTION AND RETENTION OF INFORMATION
  OBTAINED FROM NATIONAL SECURITY LETTERS (U)
       In this chapter we describe the process by which FBI agents obtain
approval to issue national security letters. We also describe the manner in
which the FBI obtains information through national security letters from
third parties and retains such information in FBI Headquarters and field
divisions. (U)

I.     The FBI's Process for Collecting Information Through National
       Security Letters (U)
      According to our interviews of FBI personnel, case agents conducting
counterintelligence, counterterrorism, or foreign computer intrusion cyber
investigations who need telephone or e-mail transactional activity,
subscriber information, financial transactions, or credit information relevant
to their investigations first assess the most effective investigative technique
available at a particular stage of the investigation. For example, if the facts
developed indicate a nexus to possible criminal activity, agents can ask the
United States Attorney's Office to open a grand jury investigation, which
allows prosecutors to issue federal grand jury subpoenas to obtain third
party records. 50 If there is a criminal nexus, prosecutors often prefer to use
grand jury subpoenas because they generally can obtain grand jury
subpoenas quickly and recipients respond more promptly to grand jury
subpoenas than they do to NSLs. However, issuance of a grand jury
subpoena risks public disclosure that the government is conducting a
national security investigation. As a result, agents often consider
alternative investigative techniques, such as national security letters, which
avoid public disclosure of the existence of an investigation. (U)
       To obtain approval within the FBI to issue national security letters,
FBI agents must determine that information available pursuant to one of
the national security letter authorities is relevant to an authorized
investigation to protect against international terrorism or clandestine
intelligence activities and, with respect to an investigation involving a "U.S.
person," is "not solely conducted on the basis of activities protected by the
First Amendment." 51 Case agents assigned to counterterrorism,
counterintelligence, or cyber squads are responsible for preparing the


       so Terrorism investigations often have a potential criminal nexus under statutes
proscribing material support of terrorism and conspiracy, and federal statutes criminalizing
threats against public facilities, aircraft, and other transportation systems, as well as
possession of weapons of mass destruction. (U)
       51 18 U.S.C. §§ 2709(b)(l) and 2709(b)(2); 12 U.S.C. § 3414 (a)(5)(A); 15 U.S.C.
§ 1681u(a); 15 U.S.C. § 1681v(a). (U)

                                             22
documentation necessary to secure approval to issue a national security
letter. Case agents are encouraged to check FBI databases, such as the
Automated Case Support (ACS) system and Telephone Applications, a
specialized application storing telephone record data, to determine whether
the information they need has previously been obtained by the FBI or is
available through public search engines or commercial databases. (U)
       FBI administrative policy, set forth in the partially classified National
Foreign Intelligence Program (NFIP) Manual and on NSLB's Intranet website,
requires that case agents prepare two documents to obtain an NSL: (1) an
electronic communication (EC) seeking supervisory approval for the national
security letter and (2) the national security letter itself. (U)
      1.      Electronic Communication (Approval EC) (U)
      The EC used to obtain approval of national security letters serves four
functions. It: (U)
      •    documents the predication for the national security letter by
           stating why the information was relevant to an authorized
           investigation; (U)
      •    documents the approval of the national security letter by
           appropriate personnel; (U)
      •    includes information needed to fulfill congressional reporting
           requirements; and (U)
      •    transmits copies of the request to the FBI-OGC; FBI Headquarters
           Counterterrorism, Counterintelligence, or Cyber Division; and,
           when the recipient is not located in the field division issuing the
           national security letter, the field division that is asked to serve the
           national security letter. (U)
       During the period covered by our review, NSLB attorneys developed
eight standard formats for the approval ECs that included routine elements
common to all NSL requests, data elements needed for congressional
reporting, and descriptions of the elements that were to be included in the
national security letter package. NSLB modified the standard formats as
national security letter statutes were revised and internal FBI administrative
policy changed. (U)
       As discussed in Chapter Two, the Patriot Act lowered the predication
standard for national security letters from "specific and articulable facts
giving reasons to believe that the person or entity to whom the information
sought pertains is a foreign power or an agent of a foreign power" to
"relevan[ce] to an authorized investigation to protect against international
terrorism or clandestine intelligence activities." The standard form used
during the period covered by this review required that case agents provide



                                        23
                                     ~
justification for opening or maintaining the investigation and "briefly state
the relevance of the requested records to the investigation."S 2 (U)
       To enable the FBI to collect data for its semiannual congressional
reporting requirements, the following information also is required to be
included in the approval EC: (1) for RFPA financial record NSLs, ECPA toll
billing and electronic communication transactional records NSLs, and FCRA
NSLs, the investigative subject's status as a "U.S. person" or "non-U.S.
person"; (2) the type of national security letter issued; and (3) a list of the
individual telephone numbers, e-mail addresses, account numbers, or other
records for which information is sought.s3 (U)
      For field division-initiated national security letters, the Supervisory
Special Agent of the case agent's squad, the Chief Division Counsel, and the
Assistant Special Agent in Charge are responsible for reviewing the approval
EC and the national security letter prior to approval by the Special Agent in
Charge. Division Counsel are required to review the national security letters
to ensure their legal sufficiency - specifically, the relevance of the
information requested to an authorized national security investigation. (U)
       The final step in the approval process occurs when the Special Agent
in Charge or authorized FBI Headquarters official (the certifying official)
initials the approval EC and signs the national security letter.s 4 For
national security letters generated by Headquarters, there is a parallel
requirement for generating the approval paperwork for the signature of
specially designated Headquarters officials.ss Accordingly, the approval EC
includes an "approved by" section that reflects the names of the reviewing

        S2 We discuss in Chapter Seven the circumstances that led to a February 2006
modification of models for NSL approval ECs, which now require a "full explanation of the
justification for opening and maintaining the investigation of the subject'' and to "fully state
the relevance of the requested records to the investigation." (U)
       S3   For purposes of the reporting requirement, a "United States person" is defined as
(U)
       a citizen of the United States, an alien lawfully admitted for permanent
       residence ... , an unincorporated association a substantial number of
       members of which are citizens of the United States or aliens lawfully
       admitted for permanent residence, or a corporation which is incorporated in
       the United States .... " (U)
50 U.S.C. § 180l(i). The congressional reporting requirements are described in Chapter
Four. (U)
       S4   Certifying officials are not authorized to further delegate signature authority.
Accordingly, Acting Special Agents in Charge are not authorized to sign national security
letters. (U)
      SS While NSLB encourages Headquarters operating divisions to utilize the NSLB
Deputy General Counsel as the authorizing official, they are not required to do so.
However, a legal review through NSLB is required. (U)

                                              24
and approving officials, who enter their initials on the hard copy of the
document. (U)
      Field personnel in the four field offices we visited during the review
told us that it takes from two to five days to obtain approval to issue NSLs.
However, if there is no Special Agent in Charge in place in a field office,
NSLs must be sent to another field office for approval by another Special
Agent in Charge. Several Special Agents in Charge and Acting Special
Agents in Charge told us that this has led to delays of as long as two weeks
in securing approval to issue NSLs. (U)
       The approval EC also includes directions, known in FBI parlance as
"leads," to other FBI offices for actions that these offices are directed to take
regarding the national security letter. Leads are "set" electronically through
the FBI's ACS computer system when the approval ECs are uploaded into
the system. FBI personnel are responsible for checking ACS periodically to
determine whether leads have been assigned to them. Leads also may be
sent in hard copy via the FBI's interoffice mail delivery system. The
initiating field office also includes a lead to NSLB that instructs it to record
the appropriate information needed to fulfill congressional reporting
requirements and an informational lead notifying the Counterterrorism,
Counterintelligence, or Cyber Division of the national security letter. (U)
       A case agent from the field office squad initiating the national security
letter (the "office of origin") hand carries the letter to the designated
recipient if it is located in the field division. If the NSL recipient is located in
another field division, the office of origin sets a lead to the field office where
the recipient is located with instructions to personally deliver the national
security letter to the recipient. (U)
      2. The National Security Letter (U)
       A national security letter is the operative document that directs a
third party to provide specific records. Although the internal documentation
supporting the approval of national security letters is classified, neither the
letters themselves nor the information provided to the FBI in response to the
letters is classified. (U)
      As mentioned previously, during the period covered by our review
NSLB developed and posted on its Intranet web site eight standard formats
or models for the different types of national security letters that request the
following categories of information, each of which was derived from one of
the four statutory national security letter authorities in the Electronic
Communications Privacy Act (items 1 - 4), the Right to Financial Privacy Act
(item 5), or the Fair Credit Reporting Act (items 6, 7 and 8): (U)
       1. Telephone subscriber information; (U)
      2. Telephone toll billing records; (U)
      3. Electronic (e-mail) subscriber information; (U)

                                        25
      4. Electronic communication transactional records; (U)
      5. Financial records; (U)
      6. Identity of financial institutions; (U)
      7. Consumer identifying information; and (U)
      8. Credit reports. (U)
       National security letters typically are addressed to an established
point of contact at the entity possessing the records. For major national
communication providers and other routine recipients of national security
letters, NSLB posts a list of known points of contact on its Intranet website.
(U)
      The first paragraph of the national security letter identifies the
statutory authority for the request and the types of records requested. For
example, a national security letter under the Fair Credit Reporting Act
would reference 15 U.S.C. § 1681u(a) as the statutory authority and would
request the names and addresses of all financial institutions at which a
particular consumer maintains or has maintained an account. The letters
also provide the identifying information for the specific individual (such as
name, address, date of birth, or social security number), telephone number,
ore-mail/Internet Protocol address, and specify a precise time period for
which information is requested. (U)
       The national security letter also contains a statutorily required
certification that the requested records are relevant to an authorized
investigation to protect against international terrorism or clandestine
intelligence activities and, with respect to investigations of "U.S. persons,"
that the investigation is not conducted solely on the basis of activities
protected by the First Amendment. (U)
       In conformity with the non-disclosure provisions in the NSL statutes,
the next paragraph of the letter notifies the recipient that no officer,
employee, or agent of the entity may disclose that the FBI sought or
obtained the requested information or records. The last paragraph instructs
the recipient to provide the records personally to an FBI representative at
the field division that served the national security letter. (U)
       National security letters also may include an attachment that explains
the specific types of records that the FBI is requesting or that the recipient
may deem to be responsive. For example, attachments to the Electronic
Communications Privacy Act and Right to Financial Privacy Act national
security letters list the types of information that the recipient might consider
to be "toll billing records information" or a "financial record." (U)
      The FBI's practices regarding the delivery methods and designated
response times noted in the NSLs evolved during the period covered by our
review. In response to delays encountered by the personal delivery

                                       26

                                   ~
requirement, NSLB concluded that FBI personnel could, with minimal risk,
use certain delivery services to deliver national security letters, such as the
U.S. Postal Service or restricted delivery options offered by private delivery
services. 56 (U)
      Some FBI agents complained to NSLB that failure to designate a due
date or "return date" in the body of the NSL led to delayed responses by
some recipients, which sometimes compromised time-sensitive
investigations. NSLB concluded that there was no legal restriction against
including a return date (much as a grand jury subpoena or administrative
subpoena includes a specified "return date"). (U)
       Headquarters and field personnel in the four field divisions we visited
told us that there is no FBI policy or directive requiring the retention of
signed copies of national security letters or any requirement to upload
national security letters into ACS. We found that the FBI has no uniform
system for tracking responses to national security letters, either manually or
electronically. 57 Instead, individual case agents are responsible for following
up with NSL recipients to ensure timely and complete responses. Case
agents are also responsible for ensuring that the documents or electronic
media provided to the FBI match the requests, both as to content and time
period; analyzing the responses; and, depending upon the type of records,
providing the documents or other materials to FBI intelligence or financial
analysts who also analyze the information received. (U)

II.    The FBI's Retention of Information Obtained from National
       Security Letters (U)
       FBI case agents who obtain information from national security letters
retain the information in different ways and in a variety of formats. The FBI
has not issued general guidance regarding the retention of this information.
The manner in which case agents retain the information depends upon the
NSL type, the size and format of the response, and the manner in which the
data is to be analyzed. (U)
      The case agents and squad supervisors we interviewed told us that
they prefer to receive responses in electronic format for ease of storage and
analysis. However, case agents and squad supervisors told us that the
majority of the responses to all types of national security letters during the

        56 See EC from FBI-OGC to All Field Offices, Legal Advice and Opinions; Service of
National Security Letters (June 29, 2005). The recipient could return responsive documents
to the FBI via the same method. However, FBI personnel in the field offices we visited told
us that the national security letters and responsive documents were usually personally
delivered. (U)
        57 In one field office we visited, the Special Agent in Charge maintains a control file
with copies of signed national security letters, but this does not serve as a tracking system
for responses. (U)

                                              27
period covered by our review were delivered in hard copies. 58 Field
personnel told us that some major telephone companies provide telephone
toll billing records and subscriber information in electronic format. (U)
       After inventorying the hard copy response to confirm that the
information received matches the information requested in the NSL, the
case agents generally prepare and upload an EC into ACS that documents
receipt of the information. If the responsive records are relatively small in
volume, the records are placed in the investigative case file or in a sub-file
created to store information derived from NSLs. If the response to the NSL
is voluminous, such as hundreds of pages of toll billing records or bank
records, the documents are placed in centralized storage and the case agent
completes a tracking form noting where the data is located. (U)
      If the response to the NSL is in an electronic format, such as a
computer diskette, either the case agent or analyst initially reviews the
response to confirm that the response matches the request and prepares the
EC documenting receipt of the records. For example, the EC documenting
receipt of ECPA telephone toll billing records or e-mail subscriber
information states that the telephone number or e-mail address did or did
not belong to the investigative subject or other target of the NSL. The case
agent, data clerk, or analyst then provides the computer diskette or other
electronic medium to an intelligence assistant or analyst, who is responsible
for uploading the data into the pertinent database, such as the Telephone
Applications database. 59 (U)
      Once an EC is uploaded into ACS documenting receipt of the response
to an NSL, authorized users of ACS may access the EC's contents. During
the period covered by our review, there were approximately 29,000
authorized accounts issued for FBI personnel permitting them to access
ACS, and approximately 5,000 accounts issued for non-FBI personnel. 60
The vast majority of the non-FBI account holders were officers serving on
task forces, such as the Joint Terrorism Task Forces, the Foreign Terrorist
Tracking Task Force, and the National Joint Terrorism Task Force. The
remaining accounts were provided to staff in organizations such as the

       58  FBI officials told us that some of the smaller communication providers and
Internet service providers furnish NSL data in hard copy form. This placed a significant
burden on FBI support personnel who sometimes were required to manually enter the data
into a word processing program for uploading and analysis. (U)
       59 Telephone Applications contains raw data derived from NSLs, known as
"metadata,'' including the call duration. It does not store the contents of telephone
conversations. During the period covered by our review, approximately 17,000 FBI
personnel and approximately 2,000 non-FBI personnel had accounts permitting them to
access the FBI's specialized application for telephone record data. (U)
        °
        6   Case agents may restrict FBI and non- FBI personnel from accessing certain
electronic files in ACS and other databases in highly sensitive cases. (U)

                                            28

                                      ~
Department of Homeland Security, the Terrorist Screening Center, and the
National Coun terterrorism Center. (U)
       Raw data derived from national security letters or the analysis
developed from the raw data are often used to create spreadsheets that are
stored on the computer hard drives of Headquarters or field office personnel.
As we discuss in Chapter Five, case agents and analysts told us that they
generate these types of spreadsheets to establish communication and
financial networks between investigative subjects and others. In addition,
Headquarters and field offices have shared or "networked" computer drives
that permit all case agents, analysts, and support personnel on a particular
squad or a larger universe of users in the field office or Headquarters
division to access them. In such cases, raw NSL data or the analytical
products derived from this data are retained on these shared drives. (U)
       If a field or Headquarters supervisor determines that a more formal
analytical intelligence product, such as an Intelligence Information Report
or Intelligence Bulletin, should use information from NSLs and be shared
with other members of the intelligence community or others, analysts on the
field-based Field Intelligence Groups or the Headquarters Directorate of
Intelligence prepare these products. 61 Electronic versions of these products
are stored on field and Headquarters hard drives and, if a decision is made
by the Directorate of Intelligence to disseminate them, are uploaded into the
databases that are accessed by FBI and non-FBI personnel with authorized
accounts. (U)
       We learned that the FBI 's retention practices regarding information
received in response to NSLs in excess of what was requested, whether due
to FBI or third-party error, varies. If a field case agent determines that the
NSL recipient provided more information than was requested, the case agent
is responsible for notifying the Chief Division Counsel (CDC) and
sequestering the information. However, we found that FBI-OGC did not
issue guidance to all CDCs as to the mechanics of sequestering this
information until November 2005. Instead, FBI-OGC provided ad hoc
guidance to field agents or Division Counsel who contacted FBI
Headquarters with questions.62 (U)
      In our review, we learned of instances in which the excess records
were destroyed, returned to the NSL recipient, or sequestered and given to

         61 In Chapter Five, we describe how information derived from national security
letters is used in the development of these intelligence products. (U)
       62  Eventually, in November 2006 NSLB sent guidance to the field that outlined the
steps to be taken in these circumstances. The guidance memorandum stated that the
agent should send the information to the CDC for sequestering, pending resolution of the
matter. The memorandum also stated that NSLB would determine whether the sequestered
information must be destroyed, returned to the provider, or may be used by the FBI, and
whether the matter is reportable to the IOB. (U)

                                            29

                                       ~
the Chief Division Counsel. However, in other instances we found that case
agents retained the information and sought approval to issue a new NSL to
cover the excess information. Case agents and supervisors in the four field
offices we visited told us that information provided in excess of what was
requested in the NSL was not uploaded into ACS or other FBI databases. 63
(U)
       As noted above, the principal FBI databases that contain raw data
derived from national security letters are ACS and a specialized application
for telephone data. ACS is the FBI's centralized case management system.
NSL data is periodically downloaded from ACS and Telephone Applications
into the FBI's Investigative Data Warehouse (IDW), a centralized repository
for intelligence and investigative data with advanced search capabilities. 64
Raw data derived from national security letters also is retained in various
classified databases operated by the FBI and other members of the
intelligence community. (U)




       63 We identified one instance in which the FBI uploaded into the Telephone
Applications database data the FBI had improperly acquired in response to an ECPA NSL.
We describe this matter in Chapter Six. (U)
        64 According to the FBI, the Investigative Data Warehouse contains data from
approximately 50 different FBI and other government agency databases and holds over 560
million records. The FBI estimated in December 2006 that approximately 12,000 FBI and
non-FBI personnel have user accounts to access IDW, approximately 30 percent of which
were issued to non-FBI personnel, such as Task Force Officers on the Joint Terrorism Task
Forces (JTTFs). FBI Oversight: Hearing Before the Senate Comm. on the Judiciary, 109th
Cong. 6 (2006) (statement of Robert S. Mueller, III, Director, Federal Bureau of
Investigations. (U)

                                           30

                                      ~
                   CHAPTER FOUR
  NATIONAL SECURITY LETTER REQUESTS ISSUED BY THE
           FBI FROM 2003 THROUGH 2005 (U)
      In this Chapter, we describe the FBI's use of national security letters
during calendar years 2003 through 2005. In Section I, we discuss several
problems with the FBI-OGC National Security Letter database (OGC
database) that affect the accuracy of the information in this database. In
Section II, while noting the limitations of the OGC database, we present data
on the FBI's NSL usage that we developed from the Department's
semiannual classified reports to Congress, the OGC database, and our
examination of investigative files in four FBI field offices. (U)

III.   Inaccuracies in the FBI's National Security Letter Tracking
       Database (U)
       During the period covered by our review, the Department was
required to file semiannual classified reports to Congress describing the
total number of NSL requests issued pursuant to three of the five NSL
authorities. 65 In these reports, the Department provided the number of
requests for records and the number of investigations of different persons or
organizations that generated NSL requests. These numbers were each
broken down into separate categories for investigations of "U.S. persons or
organizations" and "non-U.S. persons or organizations." 66 The data in the
reports were drawn from the OGC database that was developed specifically
to collect information for the Department's semiannual classified reports to
Congress. The OGC database is the only centralized repository of data
reflecting the FBI's use of national security letter authorities. (U)
      However, as we describe below, several flaws with internal reporting
by the FBI, as well as structural problems with the OGC database, affect the

        65 The Department was required to report the number of NSL requests issued
pursuant to the RFPA (financial records), the ECPA (telephone toll billing records, electronic
communication transactional records and subscriber information (telephone or e-mail)),
and the original FCRA NSL statute (consumer and financial institution identifying
information), FCRAu. The Department was not required to report the number of NSL
requests issued pursuant to the Patriot Act amendment to the FCRA (consumer full credit
reports) or the National Security Act (financial records, other financial information, and
consumer reports) NSL statutes. In addition the requirement for public reports on certain
NSL usage did not take effect until March 2006, which is after the period covered by this
review. (U)
       66   50 U.S.C. § 180l(i) defines a "United States Person'' as: (U)
       a citizen of the United States, an alien lawfully admitted for permanent
       residence ... , an unincorporated association a substantial number of
       members of which are citizens of the United States or aliens lawfully
       admitted for permanent residence, or a corporation which is incorporated in
       the United States .... " (U)

                                              31
accuracy of the data and therefore the accuracy of the reports to Congress. 67
(U)
        Total Number of NSL Requests. We identified three flaws in the
manner in which the FBI records, forwards, and accounts for information
about its use of NSLs that affect the accuracy of the FBI's database and
reports to Congress on the number of NSL requests issued. They are
( 1) incomplete or inaccurate information on NSLs issued; (2) field office
delays in entering information into ACS, which impedes NSLB's ability to
extract and compile data on NSL usage in a timely fashion; and (3) incorrect
data in the OGC database. (U)
       1) Incomplete or inaccurate information on NSLs issued: During our
examination of 293 NSLs in 77 investigative case files, we compared the
documents in the case files to the data recorded in the OGC database. We
first examined whether NSLs contained in the case files were recorded in the
OGC database, and whether the NSLs recorded in the OGC database were
contained in the case files. We found that 31 of the 77 case files contained
NSLs that were not recorded in the OGC database, and 8 of the case files
did not contain NSLs that were recorded in the OGC database. Overall,
there were approximately 17 percent more NSLs in the case files we
examined than were recorded in the OGC database. (U)
       We also identified the total number of "requests" (such as several
requests in an NSL for individual telephone numbers or bank accounts) in
212 of the 293 NSLs and compared that to the number of NSL requests
recorded in the OGC database for those same national security letters. 68 We
found 30 of the 212 NSLs in which the number of NSL requests in the
letters differed from the number of NSL requests recorded in the OGC
database: 21 contained more NSL requests (194 actual NSL requests versus
36 recorded in the OGC database) and 9 contained fewer NSL requests (18
actual NSL requests versus 38 recorded in the OGC database). Overall, we
found 22 percent more NSL requests in the case files we examined than
were recorded in the OGC database. (U)
      2) Field delays in entering NSL information: NSLB relies exclusively
on the NSL approval ECs to extract information for entry into the OGC


       67 FBI-OGC utilizes a manual workflow process to enter required information into
ACS. The information is transcribed into a Microsoft Access database which, during the
period covered by our review, had limited analytical capabilities. (U)
       68  We did not include 55 NS Ls that requested information pursuant to FCRAv (full
consumer credit reports) because the Department was not required to report that
information to Congress during the period covered by our review. We also did not include
12 NSLs for which we could not find a corresponding entry in the OGC database either
because the entry (1) was not made; (2) contained typographical errors that prevented us
from finding the corresponding entry; or (3) was among those that were lost following a
OGC database computer malfunction during the time period of our review. (U)

                                           32

                                      ~
database. From 2003 through 2005, some FBI special agents or FBI
support personnel in the field did not enter the approval ECs into ACS, the
FBI's electronic case management system, in a timely manner. As a result,
this information was not in the OGC database when data was extracted for
the semiannual reports to Congress. Although this data was subsequently
entered in the OGC database, it was not included in later congressional
reports because each report only includes data on NSL requests made in a
specific 6-month period. (U)
      We determined that from 2003 through 2005 almost 4,600 NSL
requests were not reported to Congress as a result of these delays in
entering this information into the OGC database. 69 In March 2006, the FBI
acknowledged to the Attorney General and Congress that NSL data in the
semiannual classified reports may not have been accurate and stated that
the data entry delays affected an unspecified number of NSL requests. The
FBI indicated that the final numbers of NSL requests may "change slightly
should additional data be subsequently reported .... "70 After the FBI
became aware of these delays, it took steps to reduce the impact of the
delays to negligible levels for the second half of CY 2005. (U)
      3) Incorrect data entries in the OGC database: During our review of
the OGC database, we discovered a total of 212 incorrect data entries that
caused 4 77 NSL requests to be erroneously excluded from the Department's
semiannual classified reports to Congress. In some cases, the data fields for
relevant dates were blank (153 entries affecting 403 NSL requests). In other
cases, typographical errors in entering the relevant dates (for example,
entering "12 / 31/203" instead of "12 / 31/2003") produced en tries that were
not captured in the reports (59 entries affecting 74 NSL requests). In
addition, we determined that the OGC database is programmed to provide a
default value of "O" for the number of "NSL requests." Entering a record
with a "O" entry for NSL requests - which sometimes occurred - is an error,
as every NSL generates at least one NSL request. We confirmed that the


       69  Most of these (approximately 4,500) were ECPA subscriber information requests.
The differences between the NSL requests included in the semiannual classified reports to
Congress and the NSL requests included in the OGC database for the other types of NSLs
were negligible. (U)
        70 Memorandum for the Attorney General, Semiannual Reportfor Requests for
Financial Records Made Pursuant to Title 12, United States Code (U.S.C.) Section 3414,
Paragraph (a)(S), National Security Investigations/Foreign Collection (March 23, 2006), at 2;
Memorandum for the Attorney General, Semiannual Report of Requests for Telephone
Subscriber or Toll Billing/ Electronic Communications Transactional Records Made Pursuant to
Title 18, United States Code (U.S.C.), Section 2709, Foreign Counterintelligence/International
Terrorism (March 23, 2006), at 2; and Memorandum for the Attorney General, Semiannual
Report of Requests for Financial Institution and Consumer Identifying Information, and
Consumer Credit Reports, Pursuant to Title 15, United States Code (U.S.C.), Section 1681u,
for Foreign Counterintelligence/ International Terrorism (March 23, 2006), at 2. (U)

                                             33

                                         ~
OGC database includes some records that erroneously indicate "O" items
were requested in the NSLs, and thus the database understates the number
of NSL requests for those records. (U)
       As a result of the delays in uploading NSL data and the flaws in the
OGC database, the total numbers of NSL requests that were reported to
Congress semiannually in CYs 2003, 2004, and 2005 were significantly
understated. However, we were unable to fully determine the extent of the
inaccuracies because an unknown amount of data relevant to the period
covered by our review was lost from the OGC database when it
malfunctioned. Based on our analysis of the database and the semiannual
classified reports to Congress, the most significant amount of data was lost
in 2004. Nonetheless, by comparing the data reflected in the these reports
to data in the OGC database for 2003 through 2005, we estimated that
approximately 8,850 NSL requests, or 6 percent of NSL requests issued by
the FBI during this period, were missing from the database. 71 (U)
      Total Number of Investigations of Different U.S. Persons and
Different non-U .S. Persons. In addition to inaccuracies regarding the total
number of NSL requests, we found other inaccuracies in the OGC database
that affect the accuracy of the total number of "investigations of different
U.S. persons" and "investigations of different non-U.S. persons" that the
Department reported to Congress. These included (1) inconsistencies
among the NSL approval ECs in the same investigation from which NSLB
extracts U.S. person/non-U.S. person data; and (2) incorrect tabulations
and data entries in the OGC database. The following are examples of some
of these inaccuracies: (U)
       1. During investigations, individuals' names may be identified and
          included in approval ECs in a number of different ways (for
          example, "John Doe," "Doe, John," "John T. Doe," "J.T. Doe"). The
          OGC database does not have filters that would enable the FBI to
          identify NSL requests for the same person in the same
          investigation. 12 (U)
       2. During an investigation, different FBI divisions may generate NSLs
          seeking information on the same person. Even though these NSLs


        71 The computer malfunction made it impossible for the OIG to reconstruct
electronically the total number of NSL requests issued during the period covered by our
review. As a result, the percentages noted in the Classified Appendix for the NSL requests
are based on the total number of requests entered in the database made available to the OIG
in May 2006. We estimated that as of that time, the OGC database contained approximately
94 percent of the NSL requests made from 2003 through 2005. (U)
        7 2 NSLB personnel told us that they are aware of this issue and attempt to
eliminate these errors by searching the printed reports manually, identifying subject names
that appear the same, although not spelled identically, and eliminating those that they are
able to determine are the same person. (U)

                                            34
          involve the same person, they are counted separately, resulting in
          an overstatement of the total number of investigations of different
          persons. In addition, typographical errors in entries for the
          requesting offices contribute to the overstatement of these totals.
          (U)
       During our review we found that another default setting in the OGC
database results in an understatement of the number of different U.S.
persons who were the targets of investigations in which certain types of
NSLs were issued. Specifically, we found that from 2003 through 2005, the
OGC database contained a default setting of "non-U.S. person" for the
investigative subject related to NSL requests for RFPA and ECPA toll
billing/ electronic communication transactional records. As a result, known
or presumed U.S. persons could be misidentified if the default setting was
not corrected during entry, resulting in an understatement of the number of
investigations of different U.S. persons that used the NSLs. The
misidentification and understatement of that number was confirmed in our
review of case files in four field offices, during which we identified 26 of 212
approval ECs (12 percent) in which there was a discrepancy regarding the
U.S. person status between the OGC database and the case file. All of the
instances involved U.S. persons who were erroneously identified in the OGC
database as non-U.S. persons. We identified no instances in which
non-U.S. persons were erroneously identified as U.S. persons. (U)
       In a May 10, 2006, memorandum to the Attorney General, the FBI
reported that data in the first annual public report on NSL usage concerning
the total number of "different U.S. persons" who were subjects of
investigations in which requests for RFPA and ECPA toll billing/ electronic
communication transactional records were issued in CY 2005 may not be
accurate. 73 The FBI explained that the data "could include instances in
which one targeted individual was counted more than once" due to
limitations of the OGC database. However, in addition to the inaccuracy in
the public report disclosed by the FBI, our review of the OGC database, the
semiannual classified reports to Congress, and the investigative files in four
FBI field offices showed that all of the classified semiannual reports to
Congress for 2003 through 2005 contained similar inaccuracies regarding
the number of "investigations of different U.S. persons" and "investigations
of different non-U.S. persons" that generated NSL requests for RFPA and
ECPA toll billing/ electronic communication transactional records. (U)
     The problems with the OGC database, including the loss of data from
the OGC database because of a computer malfunction, also prevented us

        73 Memorandum for the Attorney General, Annual Report of Total National Security
Letter Requests for Information Concerning Different U.S. Persons (Excluding National
Security Letters for Subscriber Information) Made Pursuant to the USA PATRIOT Improvement
andReauthorizationActof2005, Public Law 109-177, at2. (U)

                                           35
                                      ~
      from determining with complete accuracy the number of investigations of
      different U.S. persons and different non-U.S. persons during which the FBI
      issued NSLs for financial records and NSLs for toll billing/ electronic
      communication transactional records. (U)

      IV.      National Security Letter Requests From 2003 Through 2005 (U)
             In this section, we describe the FBI's use of NSLs from 2003 through
      2005 as documented in the OGC database. As discussed above, the data in
      the OGC database is not fully accurate or complete and, overall,
      significantly understates the number of FBI NSL requests. However, it is
      the only database that compiles information on the FBI's use of NSLs.
      Moreover, the data indicates the general levels and trends in the FBI's use of
      this investigative tool. (U)
             From 2003 through 2005, the FBI issued a total of 143,074 NSL
      reqUestsm(seemChatt4.T,mrtextpage).74m0f that numbed                                               !requests (or                 bl
                                                                                                                                       b3
      99 percent) were made pursuant to the three NSL statutes that are included
      in the Department's semiannual classified reports to Congress (RFPA, ECPA,
      and FCRAu). In addition, although the data was not required to be reported
(S)
      tomCongress,mtheuOGCdatabaseushoweduthatthe FBluissued                                                      NSL
      requestsforconsume ................      ~.....i.ll.l..L.li..L...1. .1..1.1..l.li0.....1..1..1.._.=.i.i~.........
                                            1....1...1..W.1..u.i.....1..1....u.i.1.1..1......   ........   :M.1....1.1.1.1..i.-.....

      FBI records show tha

            As shown in Chart 4.1, the number of ECPA NSL requests increased
      in CY 2004, and then decreased in CY 2005. We determined that the spike
      in CY 2004 occurred because of the issuance of 9 NSLs in one investigation
      that contained requests for subscriber information on a total of 11, 100
      separate telephone numbers. If those nine NSLs are excluded from CY
      2004, the number of NSL requests would show a moderate, but steady
      increase over the three years. 75 The overwhelming majority of the NSL
      requests sought telephone toll billing records information, subscriber
      information (telephone or e-mail), or electronic communication transactional
      recordsundertheECPANSLstatute. Th                                    used NSL                                                    bl
(S)                                                                                                                                    b3
      requests, ::tC:C:Ql111tingJor approximatel  ercent of the total, sought
(S)
               74
                As noted earlier, we refer to the number of NSL requests rather than letters
      because one national security letter may include more than one "NSL request." See Chart
      1.1 on page 4. (U)
             75 The number of NSL requests we identified significantly exceeds the number
      reported in the first public annual report issued by the Department because the
      Department was not required to include all NSL requests in that report. The Department's

 \S) ~~~~~~~~o~~;~~=!~~:t~:t~!d~i~~~~~;~~~:t~~~            ~~~~~~:J':e~i;:~~:~~on
     public report did not include NSL req~~r the ECPA for telephone and e-mail
                                                                                                                                       bl
                                                                                                                                       b3
      subscriber information, NSL requests under FCRAv for consumer full credit reports, or NSL
      requests related to "non-U.S. Persons." ~

                                                                               36
                                                                   ~
records from financial institutions such as banks, credit card coEmnies,
and finance companies under the RFPAauthority; Theremainin · ········ ercen t             bl
                                                                                          b3
of the NSL requests were issued pursuant to the two FCRA NSL au orities
seeking either financial institution or consumer identifying information (as
provided for in the FCRAu) or consumer full credit reports (as provided for
in the FCRAv).76 CSl


                                     CHART 4.1 (U)

                      NSL Requests (2003 through 2005) (U)
                         [The chart below is    classified~


               60,000

               50,000

               40,000

               30,000

               20,000

                10,000




               Sources:    DOJ semiannual classified NSL reports to Congress and FBI-
                           OGC NSL database as of May 2006 (U)


      Chart 4.2 (next page) depicts the number of NSL requests relating to
investigations of non-U.S. persons and U.S. persons from 2003 through
2005. As shown in Chart 4.2, during the 3 years of our review the balance
of NSL requests related to investigations of U.S. persons versus non-U.S.
persons shifted. In CY 2003, NSL requests predominantly involved
investigations of non-U.S. persons, but by CY 2005 the majority of NSL
requests were generated from investigations of U.S. persons. However, the
number of NSL requests for information generated from investigations of

       76 A detailed discussion of the FBI 's use of each of the four types of NS Ls in
counterterrorism and counterintelligence investigations is included in the Classified
Appendix. (U)

                                              37

                                         ~
U.S. persons increased by almost 3,000 from 2003 to 2005, while the
number of requests generated from investigations of non-U.S. persons
decreased by about 1,700. As a result, the percentage of NSL requests
generated from investigations of U.S. persons increased from about
39 percent of all NSL requests in CY 2003 to about 53 percent of all NSL
requests in CY 2005.77 (U)


                                       CHART 4.2 (U)

                     NSL Requests Reported to Congress
                Relating to U.S. Persons and non-U .S. Persons
                           (2003 through 2005) (U)
                            [The chart below is unclassified]
                              12,000

                              10,000

                               8,000

                               6,000

                               4,000

                               2,000

                                   0
                                        2003          2004      2005

                Ill Non-U.S. Persons    10,232        8,494     8,536

                Ell U.S. Persons        6,519         8,943     9,475


              Source:      DOJ semiannual classified NSL reports to Congress (U)


       NSL Requests Issued During Counterterrorism, Counterintelligence, and
Foreign Computer Intrusion Cyber Investigations: The following charts
present the number of NSL requests issued from 2003 through 2005 for
different types of investigations. (U)

       77 Chart 4.2 does not contain the same totals as Chart 4.1 because not all NSL
~:~~:~t~rr:p~~~~t~~;C;e~;:~~~~e~,~e~m::ethN~~~~~:~~~e~e:o::~e:~~~:~:o!:e~t~·                 bl
semiannual classified reports to Congress or CY 2003 through CY 2005 (which included         b3

                                                                                    rsL
the ECPA, RFPA and FCRAu requests), 52,199 NSL requests identified whether the reguest
for)n.for1I1atio11urelct.tec:lt9mctuV.S.mpersonuor aunon:-U.S. person.m Theuremainin~
requests were for the ECPA NSLs seeking subscriber information for telephone numbers
and Internet e-mail accounts and did not identify the subject's status as a U.S. person or
non-U.S. person. ~)

                                                 38
                                         ~
                                                                           CHART 4.3 NSL Requests in
                     As shown in Chart 4.3, the                                Counterterrorism,
                                                                         Counterintelligence, and Foreign
              majority of NSL requests issued                                 Cyber Investigations
              from 2003 through 2005 were                                   (2003 through 2005) (U)
              issued during counterterrorism
              investigations. Overall, about 73
                                                                                                            0.4
              percent of the total number of NSL
              requests issued from 2003 through
              2005 were in counterterrorism
              investigations, and about 26 percent
              were issued in counterintelligence
              investigations. Less than 1 percent
              of the requests were issued in                                      Cl C ounterterrorism
              foreign computer intrusion cyber                                    mCounterintelligence
              investigations. (U)                                                 •cyber



                                                                        Source: FBI-OGC NSL database as of May 2006 (U)


                                                   We also observed that the use of NSLs in counterterrorism
                          investigations increased between CY 2003 and CY 2005. 78 Chart 4.4 shows
                          the total number of counterterrorism investigations and the number of such
                          investigations in which NSL requests were issued. As shown in Chart 4.4,
                          during the three years the total number of counterterrorism investigations
'SI {SL ci~c;r~~~~ci(fr?aj mmumm                                            uuumm lbut the number of such investigations in   bl
                                                                                                                              b3
I                  c : J n e or more NSLs were useduincreasedufrorrfmmmmmmmmlin CY 2003 to
   \S) ············ ································ n CY 2005. 79 As a percentage, the use of NSLs in counterterrorism
                          mves 1gations almost doubled during the three years, from 15 percent of the
                          counterterrorism investigations open during CY 2003 to 23 percent during
                           CY 2004 and then to 29 percent in CY 2005. Overall, one or more NSLs
                          were used in about 19 percent of all the counterterrorism investigations that
                          were open at any point from 2003 through 2005. ~)




                       78 Although FBI data identified whether individual NSLs were related to
              counterterrorism or counterintelligence investigations, the data provided by the FBI
              regarding counterintelligence investigations open during CY 2003 through CY 2005 was not
              sufficiently reliable for us to identify the total number of open counterintelligence
              investigations and the number of those investigations that involved NSLs. Therefore, we
              are unable to identify any trends in NSL usage in counterintelligence investigations during
              the period covered by our review. (U)
                      79 The total number of investigations open during the three years is less than the
              sum of the investigations open in each of the years because many investigations remained
              active during more than one of the years and are counted in each of the years they were
              open. (U)

                                                                   39
                                CHART 4.4 (U)

           Counterterrorism Investigations With One or More
           National Security Letters (2003 through 2005) (U)
                   [The chart below is   classified~···WJ,. _ _ _ _ _ _...,
                                                                                        bl
                                                                                  lsi   b3




            Sources:   FBI-OGC NSL database as of May 2006 and Counterterrorism
                       Division (U)


       The FBI's Use of National Security Letters in Different Investigative
Stages: As discussed in Chapter Three, one of the most significant changes
to the FBI's authority to issue national security letters occurred when the
Attorney General issued the NSI Guidelines on October 31, 2003, permitting
NSLs to be issued during preliminary investigations. Prior to that time, with
limited exceptions, NSLs could be issued only during full investigations.
Although the OGC database does not capture the investigative stage at
which NSL authority was used, we recorded that information in the 293
NSLs we examined during our field visits. Chart 4.5 illustrates the type of
investigation and the investigative stage during which each of the 293 NSLs
we examined was issued. Overall, of the 293 NSLs we examined, 77 percent
were issued in counterterrorism investigations, 23 percent were issued in
counterintelligence investigations, 43.7 percent of the NSLs were issued
during preliminary investigations, and 56.3 percent were issued during full
investigations. (U)




                                       40
                                   ~
                                           CHART 4.5 (U)

       NSL Requests During Preliminary and Full Investigations
    Identified in Files Reviewed by the OIG (2003 through 2005) (U)
                                 [The chart below is unclassified]




                                 Counterterrorism Investigations   Counterintelligence Investigations
Cl Full Investigations                        121                                 44
II Preliminary Investigations                 105                                 23


                 Source:        Chicago, New York, Philadelphia, and San Francisco FBI Field
                                Division investigative files (U)




                                                     41
                                               ~
                        CHAPTER FIVE
           THE EFFECTIVENESS OF NATIONAL SECURITY
             LETTERS AS AN INVESTIGATIVE TOOL (U)
I.     Introduction (U)
      Along with other requirements for OIG review, Congress also directed
the OIG to include in our review an examination of the effectiveness of
national security letters as an investigative tool, including: (U)
       •   the importance of information acquired by national security letters
           to the Department's intelligence activities; (U)
       •   the manner in which the information acquired from national
           security letters is collected, retained, analyzed, and disseminated
           by the Department of Justice, including any direct access to such
           information provided to any other department, agency, or
           instrumentality of federal, state, local, or tribal governments or any
           private sector entity; (U)
       •   whether and how often the FBI used information obtained from
           national security letters to produce an "analytical intelligence
           product" for distribution to, among others, the intelligence
           community; and whether and how often the FBI provided
           information obtained from national security letters to law
           enforcement authorities for use in criminal proceedings. (U)
       In this chapter, we address the effectiveness of national security
letters as an investigative tool, the manner in which information from
national security letters is analyzed and disseminated, and how national
security letter-derived information is used. 8 ° First, we briefly describe how
national security letters were used prior to the Patriot Act and what FBI
personnel told us about their effectiveness during that period. Next, we
describe their use after the Patriot Act, including how national security
letters are used to develop information on terrorist or espionage threats. We
then describe the various types of FBI analytical intelligence products that
use information obtained from national security letters, and how these
products are shared within the Department and among other federal
agencies. We also discuss how NSL-derived information is disseminated to
Joint Terrorism Task Forces and the intelligence community, among others.
Next, we address whether and how often the FBI provides information
derived from national security letters to law enforcement authorities for use
in criminal proceedings. (U)



       80 In Chapter Three, we described the FBI's collection and retention of information
derived from national security letters. (U)

                                            42
                                       ~
II.    The Effectiveness of National Security Letters Prior to the Patriot
       Act (U)
       FBI personnel we interviewed who were involved in the use of national
security letters prior to the Patriot Act told us that before 2001 NSLs were
used infrequently in both counterterrorism and counterintelligence cases.
They attributed their infrequent use to several reasons, chief of which was
the delay in obtaining approval of the letters. Prior to passage of the Patriot
Act, FBI field personnel were not authorized to issue national security
letters, and there were significant delays in obtaining Headquarters
approval. Because of the lengthy process required to obtain national
security letters, FBI personnel said NSLs generally were not viewed as an
effective investigative tool. 8 1 (U)
       FBI personnel cited three additional reasons for the ineffectiveness of
national security letters in the pre-Patriot Act period. First, under the
Attorney General Guidelines in effect at the time, national security letters
could be used only during certain phases of investigations. Second, prior to
the Patriot Act agents could seek national security letters for telephone and
electronic communication transactional records from telephone companies
and Internet service providers, records from financial institutions, and
information from credit bureaus only upon demonstrating "specific and
articulable facts" giving reason to believe that the subject was an "agent of a
foreign power" or, in the case of requests for subscriber information, had
been in contact with such an agent. 8 2 FBI officials told us that this
predication standard limited the utility of NSLs as an investigative tool. 83
(U)



        81 The final report of the National Commission on Terrorist Attacks Upon the
United States (9/11 Commission) contained a monograph on terrorist financing that
discussed the limited utility of national security letters in the pre- Patriot Act period. The
report noted that Minneapolis FBI agents investigating links between a network of money
remitters and a terrorist group chose to use tools available in criminal investigations rather
than national security letters for two reasons. First, "the FBI could obtain subpoenas
almost instantly, whereas NSLs took 6 to 12 months to obtain." Second, national security
letters could only be approved by officials at FBI Headquarters. See Report of the National
Commission on Terrorist Attacks Upon the United States, Terrorist Financing Staff
Monograph, Al-Barakaat Case Study (August 21, 2004). (U)
       82   See, e.g., 18 U.S.C. § 2709(b) (2000). (U)

        83 These factors were also noted by a Department official in congressional
testimony. The official stated that the predication requirement "put the cart before the
horse" because agents could not issue national security letters to establish "specific and
articulable facts indicating that the individuals in question were agents of a foreign power."
Material Witness Provisions of the Criminal Code, and the Implementation of the USA
PATRIOT Act: Section 505 That Addresses National Security Letter and Section 804 That
Addresses Jurisdiction Over Crimes Committed at U.S. Facilities Abroad: Hearing Before the
Subcomm. on Crime, Terrorism, and Homeland Security of the House Comm. on the

                                               43
       Several counterterrorism officials cited a third factor for the limited
value of national security letters prior to the Patriot Act: the FBI's limited
analytical resources to exploit the information received. In the absence of
specialized analytical expertise, the FBI relied almost exclusively on case
agents to analyze information obtained through national security letters. As
we describe below, the FBI's increased analytical capabilities in recent years
has changed the perspective of FBI personnel on the use and effectiveness
of national security letters. (U)
       The former Deputy General Counsel for the FBI-OGC's National
Security Law Branch who was responsible for approving national security
letters in the late 1990s told us that he considered approximately 300 NSL
approval memoranda annually, each of which sought approval of one or
more NSLs. 84 He stated that it was necessary to spend significant effort
going back and forth with field personnel to evaluate whether there was
sufficient evidence to establish the statutory predication that the NSLs
related to agents of a foreign power. 85 He noted that the approval process
could take as long as one year (an estimate confirmed by other field
personnel we interviewed), and because of that FBI case agents would
sometimes "give up" and withdraw their requests. (U)
       Notwithstanding these limitations, some FBI officials stated that
national security letters occasionally were effectively used prior to the
Patriot Act. For example, a counterterrorism official in a large FBI field
division noted that national security letters were used successfully to
identify associates o~                                                                  rc     bl
                                                                                               b3

       However, FBI field and Headquarters personnel who have worked with
national security letters before and after the Patriot Act believed that their
use and effectiveness has significantly increased after the Patriot Act was
enacted. For example, one senior counterterrorism official noted that prior
to the Patriot Act, counterterrorism investigations were conducted, then
closed, when agents could not identify information associating the
investigative subject with a terrorist threat. Since the Patriot Act,
counterterrorism investigations are closed after the FBI has evaluated


(cont'd.)
Judiciary, 109th Cong. 9-10 (statement of Matthew Berty, Office of Legal Policy, U.S.
Department of Justice). (U)
       84Our review of the Department's semiannual classified reports to Congress on
NSL usage showed that the FBI issued approximately 8,500 NSL requests in CY 2000 and
approximately 7 ,800 NSL requests in CY 1999. (U)
       85 The former NSLB Deputy General Counsel stated that establishing the statutory
predication prior to the Patriot Act was much easier in counterintelligence cases, where the
subject was almost always affiliated with a foreign nation. (U)

                                             44
                                        ~
information from national security letters, in conjunction with other
investigative techniques, which enables the FBI to conclude with a higher
level of confidence that the subject poses no terrorism threat. We provide
other illustrations of NSLs' use and effectiveness in the sections that follow.
(U)

III.   The Effectiveness of National Security Letters as an Investigative
       Tool in 2003 through 2005 (U)
      As discussed in Chapter Two, the Patriot Act amendments to national
security letter authorities eliminated the requirement that the information
sought pertain to a foreign power or an agent of a foreign power,
substituting the lower evidentiary threshold that the information sought is
relevant to an authorized national security investigation. The amendments
also authorized Special Agents in Charge of FBI field divisions to sign
national security letters, authority previously extended to only a handful of
FBI Headquarters officials. In addition, in October 2003, the Attorney
General issued revised Guidelines authorizing the FBI to use national
security letters in preliminary investigations, not just in full investigations. 86
Taken together, these three expansions of the FBI's national security letter
authorities resulted in significantly greater use of national security letters in
counterterrorism, counterintelligence, and foreign computer intrusion cyber
investigations. (U)

       A.     The Importance of the Information Acquired From National
              Security Letters to the Department's Intelligence Activities
              (U)
       National security letters are one of several investigative techniques
available to FBI agents in conducting counterterrorism, counterintelligence,
and foreign computer intrusion cyber investigations. Many field agents and
Headquarters officials we interviewed said it is difficult to isolate the
effectiveness of national security letters in the context of a particular case.
They stated that the value of a particular national security letter emerges
only over the life of the case. (U)
      Nonetheless, in our review of 77 counterterrorism and
counterintelligence case files and almost 300 national security letters issued
in those cases, and in over 100 interviews of Headquarters and field
personnel, we developed information about the importance of national
security letters in these investigations during calendar years 2003 through
2005. (U)




       86 Attorney General's Guidelines for FBI National Security Investigations and
Foreign Intelligence Collection (NSI Guidelines)(October 31, 2003). (U)

                                            45
                                       ~
      FBI Headquarters and field personnel told us that they found national
security letters issued pursuant to the Electronic Privacy Communications
Act (ECPA), the Right to Financial Privacy Act (RFPA), and the two
authorities in the Fair Credit Reporting Act (FCRA) to be effective in both
counterterrorism and counterintelligence investigations, many calling them
"indispensable" or "our bread and butter." (U)

             1.    Principal Uses of National Security Letters (U)
      FBI personnel reported that they use national security letter
authorities to accomplish one or more of the following objectives: (U)
      •   Establish evidence to support FISA applications for electronic
          surveillance, physical searches, or pen register /trap and trace
          orders; (U)
      •   Assess communication or financial links between investigative
          subjects or others; (U)
      •   Collect information sufficient to fully develop national security
          investigations; (U)
      •   Generate leads for other field divisions, members of Joint
          Terrorism Task Forces, or other federal agencies, or to pass to
          foreign governments; (U)
      •   Develop analytical products for distribution within the FBI, other
          Department components, other federal agencies, and the
          intelligence community; (U)
      •   Develop information that is provided to law enforcement
          authorities for use in criminal proceedings; (U)
      •   Collect information sufficient to eliminate concerns about
          investigative subjects and thereby close national security
          investigations; and (U)
      •   Corroborate information derived from other investigative
          techniques. (U)
      Diagram 5.1 illustrates these key uses of national security letters. (U)




                                       46
                                  ~
                          DIAGRAM 5.1 (U)

            How the FBI Uses National Security Letters (U)



Telephone
Companies
                                                Analytical
                                          Intelligence Products
                                ~----,




                               • Intelligence Information
                                         Reports
                               •Intelligence Assessments
                               • Intelligence Bulletins




                                •: arrests
                                •: convictions            ••
                                •·· deportations
                                                          •       Content of e-mail
                             Content of
                             telephone
                             calls ...




                                      47
                               ~
            2.     The Value of Each Type of National Security Letter
                   (U)
      While details concerning the FBI's use of national security letters in
particular investigations are classified, our examination of investigative files
and interviews of case agents and supervisors assigned to
counterintelligence and counterterrorism squads revealed that information
obtained from ECPA, RFPA, and FCRA national security letters has
contributed significantly to many counterterrorism and counterintelligence
investigations. We describe specific examples of the importance of
information obtained from the use of each type of national security letter
authority below. (U)

                   a.    Telephone toll billing records, subscriber
                         information, and electronic communication
                         transactional records (U)
       In counterterrorism investigations, telephone toll billing records and
subscriber information and electronic communication transactional records
obtained pursuant to ECPA national security letters enables FBI case agents
to connect investigative subjects with particular telephone numbers or
e-mail addresses. It also allows the FBI to connect terrorism subjects and
terrorism groups with each other. Analysis of subscriber information
obtained from national security letters for particular telephone numbers and
e-mail addresses also can assist in the identification of the investigative
subject's family members, associates, living arrangements, and contacts. If
the subject's associates are identified, case agents can generate new leads
for their squad or another FBI field division, the results of which may
complement the information obtained from the original national security
letter. (U)
      Many Headquarters officials as well as case agents and supervisors in
the four field offices we visited told us that the most important use of ECPA
national security letters is to support FISA applications for electronic
surveillance, physical searches, or pen register /trap and trace orders. For
example, to obtain FISA orders the FBI must establish that the "facility,"
such as a telephone, associated with an investigative subject in fact was
used by that subject. ECPA national security letters for subscriber
information routinely are used to confirm this required element and to
otherwise develop evidence to support orders from the FISA Court. FISA
court orders for electronic surveillance may authorize the FBI to collect the
content of communications, information the FBI cannot obtain using NSLs.
)$)
      The following text box provides examples of the use of ECPA national
security letters in counterterrorism and counterintelligence investigations.
(U)

                                       48
                                   ~
       Use of Telephone Toll Billing Records and Subscriber Information
        Obtained by National Security Letters in Counterterrorism and
                        Counterintelligence Cases (U)
         •     Through national security letters, an FBI field office obtained telephone toll
               billing records and subscriber information about an investigative subject in a
               counterterrorism case. The information obtained identified the various telephone
               numbers with which the subject had frequent contact. Analysis of the telephone
               records enabled the FBI to identify a group of individuals residing in the same
               vicinity as the subject. The FBI initiated investigations on these individuals to
               determine if there was a terrorist cell operating in the city. (U)
         •     FBI agents told us that national security letters were critical in a
               counterintelligence investigation that led to a conviction of a representative of a
               foreign power. The subject owned a company in the United States and traveled
               to a foreign country at the behest of a foreign intelligence service. In addition,
               the subject had been collecting telephone records and passing the records to a
               foreign intelligence officer located in the United States. Through toll billing
               records obtained from national security letters, the FBI was able to demonstrate
               that the foreign country's U.S.-based intelligence officer was in contact with the
               subject. (U)
         •     After learning from the intelligence community that a suspected terrorist was
               using a particular telephone number and e-mail account, an FBI field division
               obtained telephone toll billing and subscriber information on the accounts. The
               NSLs identified that the subject was in touch with an individual who had been
               convicted of federal charges. (U)
         •     In a counterintelligence investigation, telephone toll records obtained through
               national security letters revealed that, contrary to an FBI source's denials, the
               source was continuing to contact a foreign intelligence officer by telephone. (U)


       In counterintelligence investigations, analysis of telephone and
Internet transactional records obtained through national security letters
also is valuable, enabling the FBI to identify a subject's contacts with an
agent of a foreign power and with individ...,,_............................................................................................................_____,
                                                                                                                                                                    bl
 rovide access to rohibited technolo ies.                                                                                                                           b3




                                                                                        x
                                     b.           Financial records (U)
       Financing is critical to terrorist organizations, and the FBI's ability to
track the movement of funds through financial institutions is essential to
identify and locate individuals who provide financial support to terrorist
operations. For example, transactional data obtained from banks and other
financial institutions in response to RFPA national security letters can
reveal the manner in which suspected terrorists conduct their operations,
whether they are obtaining money from suspicious sources, and their
spending patterns. Analysis of this data can also reveal the identity of the
                                         49

                                                                    ~
financial institutions used by the subject; the financial position of the
subject; the existence of overseas wire transfers by or to the subject ("pass
through" activity); loan transactions; evidence of money laundering; the
subject's involvement in unconventional monetary transactions, including
accounts that have more money in them than can be explained by ordinary
income or the subject's employment; the subject's financial network; and
payments to and from specific individuals. However, analysis of financial
records in counterterrorism investigations may be complex and
time-consuming because investigative subjects often engage in legitimate
businesses that disguise their terrorist affiliations. (U)
       FBI case agents and supervisors of counterintelligence cases told us
that RFPA national security letters have provided vital information in their
investigations. For example, NSL-derived information has demonstrated
investigative subjects' access to unexplained sources of income,
transactions with foreign government officials, and acquisition of prohibited
technologies. (U)
      The following text box provides examples of the use of the RFPA
national security letters in two counterterrorism investigations. (U)


   Use of Financial Records Obtained by National Security Letters in
                 Counterterrorism Investigations (U)
    •   The FBI conducted a multi-jurisdictional counterterrorism investigation of
        convenience store owners in the United States who allegedly sent funds to known
        Hawaladars (persons who use the Hawala money transfer system in lieu of or
        parallel to traditional banks) in the Middle East. The funds were transferred to
        suspected Al Qaeda affiliates. The possible violations committed by the subjects
        of these cases included money laundering, sale of untaxed cigarettes, check
        cashing fraud, illegal sale of pseudoephedrine (the precursor ingredient used to
        manufacture methamphetamine), unemployment insurance fraud, welfare fraud,
        immigration fraud, income tax violations, and sale of counterfeit merchandise.
        (U)
        The FBI issued national security letters for the convenience store owners' bank
        account records. The records showed that two persons received millions of
        dollars from the subjects and that another subject had forwarded large sums of
        money to one of these individuals. The bank analysis identified sources and
        recipients of the money transfers and assisted in the collection of information on
        targets of the investigation overseas. (U)

    •   The subject of a counterterrorism investigation was allegedly involved in
        narcotics trafficking. When analysis of telephone records revealed that an
        individual was in telephone contact with the subject, the FBI issued RFPA NSLs
        for that individual's bank account records. Examination of the bank records
        revealed no significant ties to the subject and in the absence of any information
        linking this individual to terrorist activities, further investigation was terminated.
        (U)



                                             50
                                        ~
                    c.      Consumer credit records (U)
       The original FCRA NSL statute authorizes the FBI to obtain
information about financial institutions from which an individual has
sought or obtained credit and consumer identifying information limited to
the subject's name, current address and former addresses, places of
employment, and former places of employment. The Patriot Act amendment
to the FCRA now authorizes the FBI to obtain through national security
letters consumer full credit reports, including records of individual
accounts, credit card transactions, and bank account activity. Information
secured from both types of FCRA national security letters assist case agents
because they provide information that often is not available from other types
of financial records. For example, consumer credit records provide
confirming information about a subject (including name, aliases, and Social
Security number); the subject's employment or other sources of income; and
the subject's possible involvement in illegal activity, such as bank fraud or
credit card fraud. The supervisor of a counterterrorism squad told us that
FCRA NSLs enable the FBI to see "how their investigative subjects conduct
their day-to-day activities, how they get their money, and whether they are
engaged in white collar crime that could be relevant to their investigations."
(U)
      The following text box provides examples of the use of both types of
FCRA national security letters in counterintelligence and counterterrorism
investigations. (U)
     Use of Consumer Credit Bureau Records Obtained by National
     Security Letters in Counterintelligence and Counterterrorism
                           Investigations (U)
       •   During a counterintelligence investigation, the FBI issued an FCRA NSL
           seeking financial institution and consumer identifying information about
           an investigative subject who the FBI was told had been recruited to
           provide sensitive information to a foreign power. The information
           obtained from the NSL assisted the FBI in eliminating concerns that the
           subject was hiding assets or laundering funds or that he had received
           covert payments from the foreign power. (U)
       •   In the aftermath of Hurricane Katrina, many subjects of a major FBI
           counterterrorism investigation moved from areas affected by the disaster.
           To assist in locating these subjects, the FBI served FCRA NSLs for
           updated credit card information on the subjects. The information
           revealed the subjects' credit card activity in a major U.S. city and several
           foreign countries. (U)
       •   The FBI initiated an investigation of an individual who was identified
           during the arrest of a known terrorist in a foreign country. After
           obtaining a credit card number used by the subject, the FBI served an
           NSL to obtain a consumer full credit report. The report showed that the
           subject had relocated to another U.S. city. The FBI's investigation was
           transferred to the FBI division in that city. (U)

                                            51
      B.    Analysis of Information Obtained From National Security
            Letters (U)
       The FBI performs various analyses and develops different types of
analytical intelligence products using information from national security
letters. (U)

            1.     Types of Analysis (U)
       The review of information derived from national security letters is
initially performed by the case agents who sought the national security
letters. In counterterrorism investigations, once the case agents confirm
that the response to the national security letter matches the request, the
most important function of the initial analysis is to determine if the records
link the investigative subjects or other individuals whose records are sought
to suspected terrorists or terrorist groups. In counterintelligence
investigations, the case agent's initial analysis focuses on the subject's
network and, in technology export cases, the subject's access to prohibited
technologies. (U)
       In some field offices, case agents are required to formally document
their receipt of information from national security letters, including the date
the information was received; the subject's name, address, and Social
Security number; and a summary of the information obtained. This
document then is electronically uploaded into the FBI's principal
investigative database, the Automated Case Support (ACS) system. Once
the data is available electronically, other case agents can query ACS to
identify information obtained from national security letters that may pertain
to their investigations. (U)
       After the case agent's initial analysis, analysts assigned to
counterterrorism, counterintelligence, or cyber squads in the FBI's field
divisions can use the NSL-derived information. The Counterterrorism and
Counterintelligence Divisions in FBI Headquarters also conduct
communication and financial analyses of NSL-derived information from
different national security investigations. (U)
       Beginning in mid-2003, FBI field offices established Field Intelligence
Groups (FIGs) as part of the Counterterrorism Division's Office of
Intelligence. These squads later were moved to the FBI's Directorate of
Intelligence. The FIG squads are staffed principally with intelligence
analysts, language analysts, physical surveillance specialists, and field
agents. FIG squads generate detailed analyses of intelligence information,
some of which is derived from national security letters. (U)
      The FBI also evaluates the relationship between NSL-derived
information and data derived from other investigative tools that are available
in various databases. For example, when communication providers furnish
telephone toll billing records and subscriber information on an investigative
                                      52
                                  ~
subject in response to a national security letter, the data is uploaded into
Telephone Applications, a specialized database that can be used to analyze
the calling patterns of a subject's telephone number. (U)
      The FBI also places NSL-derived information into Investigative Data
Warehouse (IDW), a database that enables users to access, among other
data, biographical information, photographs, financial data, and physical
location information for thousands of known and suspected terrorists. This
FBI database contains over 560 million FBI and other agency records;
information obtained from state, local and foreign law enforcement agencies;
and open source data. The database can be accessed by nearly 12,000
users, including FBI agents and analysts and members of Joint Terrorism
Task Forces. 87 Information derived from national security letters that is
uploaded into ACS and into the Telephone Applications database is
periodically uploaded to IDW. (U)
      FBI policy requires that case agents in counterterrorism investigations
conduct a financial analysis of the investigative subject's financial activities.
Some large FBI field divisions have dedicated squads, such as terrorist
financing squads, to assist agents in analyzing the financial aspects of the
subject. These squads may include specialists from outside of the FBI, such
as the Defense Criminal Investigative Service or the Internal Revenue
Service, who provide expertise in specific financial areas. (U)
       Like telephone call analysis, a review of financial records obtained
through national security letters may show in a counterintelligence case
that the subject is in contact with a foreign embassy or other foreign
establishment or with other individuals known to be involved in intelligence
activities. This analysis may reveal the names of people who have access to
bank accounts, funds that have been transferred in and out of the
accounts, and where the funds were transferred. (U)
      "Link analysis" is one of the principal analytical intelligence products
generated by FIG analysts that rely on information derived from all types of
national security letters used by the FBI during the period covered by our
review. Link charts illustrate the telephone numbers, Internet e-mail
addresses, businesses, credit card transactions, addresses, places of
employment, banks, and other data derived from the NSLs, as well as
information derived from other investigative tools and open sources. FBI
agents and analysts develop link analyses in both coun terterrorism and
counterintelligence investigations, often integrating the results of multiple
NSLs on the subjects of multiple FBI investigations. (U)
      Analytical intelligence products based on information obtained from
national security letters integrate communication and financial information

       87 FBI Oversight: Hearing Before the Senate Comm. on the Judiciary, 109th Cong. 6
(2006) (statement of Robert S. Mueller, III, Director, Federal Bureau of Investigations. (U)

                                            53

                                        ~
on particular investigative subjects and their associates. For example,
national security letter-derived data reflecting telephone activity on a cluster
of dates may correspond with wire transfer information obtained from
national security letters served on financial institutions. In one such
example, this type of information was integrated to support investigations of
a threat to a major U.S. city. FIG analysts combined related information
from different investigations throughout the FBI to identify contacts and
financial transactions between subjects of the investigation. (U)

                           2.            Formal Analytical Intelligence Products (U)
       Information derived from national security letters may also be used in
the development of a variety of written products that are shared with FBI
personnel, distributed more broadly within the Department, shared with
Joint Terrorism Task Forces, or disseminated to other members of the
intelligence community. (U)
      However, FBI counterintelligence and counterterrorism personnel told
us that FBI practice and policy discourage reference to the source of the
information discussed in these products in order to protect the FBI's
sources and methods. Nonetheless, field personnel we interviewed,
including intelligence analysts and financial analysts, told us that the
following types of analytical products frequently contain information derived
from national security letters, particularly if they are based on information
derived from FISA authorities (electronic surveillance, physical searches, or
pen register /trap and trace devices). As noted above, one of the most
importantusesol.,...l.l=.i.~·.£.L.UOL.L...;=..i..u..u...i...i.:.....u...u..i....i..=....i=...u..t:..i..u'-JU....u..t~'-l'-1.i..u.....u.i...i.-u..i...~..1.1.1..1.1..1.1.-1-.....
                                                                                                                                                                                   bl
FISA application                                                                                                                                                                   b3




                                                                                  x
      The following are examples of FBI analytical intelligence products that
use information obtained from NSLs. (U)
             •      Intelligence Information Reports (U)
       An Intelligence Information Report (IIR) contains "raw intelligence,"
which may include information from only one source or one area that has
not been fully "vetted" or verified. Headquarters and field personnel told us
that FBI analysts sometimes use raw data obtained from national security
letters - such as telephone numbers or Internet e-mail account information
- in preparing IIRs. For example, if the initial analysis of telephone toll
records and subscriber information reveals important ties between a known
terrorist and others, the analyst may generate an IIR quickly if the
geographic location of the subject is known. In this circumstance, the IIR

                                                                                   54
                                                                          ~
would be based on telephone toll billing records information combined with
information derived from other investigative tools, such as physical
surveillance. Rather than taking time to verify the information, the analyst
may determine that it is important to issue an IIR to alert other FBI
divisions, state and local law enforcement authorities, and other members of
the intelligence community of the raw intelligence. Similarly, if NSLs
accessing bank records show that a subject being investigated for espionage
has used certain techniques, the FBI would consider communicating a
description of these techniques in an IIR. (U)
       FIG analysts prepare the IIRs, which are uploaded into an FBI
database and distributed to all FBI personnel, to allow other offices to
connect information in their files to the information in the IIR. The IIRs also
are sent to the Criminal Investigative, Counterterrorism,
Counterintelligence, and Cyber divisions at FBI Headquarters where a
determination is made whether to distribute them more broadly in the
intelligence community. In addition, IIRs involving criminal matters may be
sent to other law enforcement agencies. One FIG supervisor of a large field
office we visited during the review stated that his office published 700 IIRs
in CY 2005, the majority generated by the division's counterintelligence
squads. Overall, the FBI has generated over 20,000 IIRs from September
2001 to September 2006.88 (U)
      •    Intelligence Assessments (U)
      An Intelligence Assessment is a finished intelligence product
developed by the FI Gs that provides information on developing crime
problems and emerging developments and trends regarding national
security threats. Unlike an IIR that contains raw data, Intelligence
Assessments use empirical data, known intelligence information, and
information from national security letters to draw conclusions and
recommendations. These recommendations can provide direction to specific
FBI squads or programs. (U)
       Intelligence Assessments are prepared for all FBI investigative
programs, including counterterrorism and counterintelligence, and for
special events. Intelligence analysts we interviewed told us that while they
use information obtained through national security letters to help create
Intelligence Assessments, they do not attribute information in the
assessment to NSLs. For example, intelligence analysts told us that in
developing various Intelligence Assessments they used multiple NSLs to
assess threats to a major U.S. city, risks associated with terrorists' use of
certain weapons of mass destruction, the presence of foreign intelligence
officers in major U.S. cities, and efforts by foreign intelligence officers to
target corporate officials in order to influence U.S. policy. The assessments


      88   See www.fbi.gov. (U)

                                      55
                                  ~
relied in part on information developed from ECPA, RFPA, and FCRA
national security letters. (U)
      •    Intelligence Bulletins (U)
       An Intelligence Bulletin is a finished intelligence product that contains
general information on a subject or topic as opposed to case-specific
intelligence that would be included in an IIR. Intelligence Bulletins
generally are prepared by agents or analysts serving on the FIG squads and
may be distributed within the Department, to law enforcement authorities,
or to other members of the intelligence community. (U)
       Intelligence analysts we interviewed told us that while they use
information obtained through national security letters to help create
Intelligence Bulletins, they do not attribute information in the Bulletins to
NSLs. Examples of Intelligence Bulletins that relied on NSL-derived
information include products describing bulk purchases of cell phones,
developments in the leadership of terrorist groups in U.S. cities, the
potential for terrorist recruitment using the Internet, and manufacturers of
component parts for explosives being used in Iraq. (U)

      C.      The FBI's Dissemination of Information Obtained From
              National Security Letters to Other Entities (U)
      Attorney General Guidelines and various information-sharing
agreements require the FBI to share information with the intelligence
community. 89 For example, the Attorney General's Guidelines for FBI
National Security Investigations and Foreign Intelligence Collection (NSI)
Guidelines provide: (U)
      The general principle reflected in current laws and policies is
      that information should be shared as consistently and fully as
      possible among agencies with relevant responsibilities to protect
      the United States and its people from terrorism and other
      threats to the national security, except as limited by specific
      constraints on such sharing. Under this general principle, the
      FBI shall provide information expeditiously to other agencies in
      the Intelligence Community, so that these agencies can take
      action in a timely manner to protect the national security in
      accordance with their lawful functions.9o (U)
      In addition, four of the five national security letter authorities
expressly permit dissemination of information derived from national security


       89 See, e.g., Memorandum of Understanding Between the Intelligence Community,
Federal Law Enforcement Agencies, and the Department of Homeland Security Concerning
Information Sharing (March 4, 2003). (U)
      90   NSI Guidelines, § VII(B). (U)

                                           56
letters to other federal agencies if the information is relevant to the
authorized responsibility of those agencies and is disseminated pursuant to
the applicable Attorney General Guidelines. 91 (U)
       Pursuant to these statutes and directives, the FBI disseminated
information derived from national security letters to other members of the
Intelligence Community and to a variety of federal, state, and local law
enforcement agencies during the period covered by our review. According to
the FBI officials we interviewed, the nature and extent of dissemination
depended upon several factors, including the importance and specificity of
the information and whether the NSL data was integrated into formal
analytical intelligence products. However, we could not determine the
number of analytical intelligence products containing NSL-derived data that
were disseminated from 2003 through 2005 because these products do not
reference NSLs as the source of the information. 9 2 Although none of the FBI
or other Department officials we interviewed could estimate how often
NSL-derived information was disseminated to other entities, they noted that
when analytical intelligence products provided analyses of telephone or
Internet communications or financial or consumer credit transactions, the
products likely were derived in part from NSLs. (U)
       Based on our interviews of Headquarters and field personnel and a
questionnaire distributed to counterterrorism and counterintelligence
squads in Headquarters and field divisions, we learned that the principal
entities outside the Department to whom information derived from national
security letters was disseminated were members of the intelligence
community and Joint Terrorism Task Forces. (U)
      Department Components: The NSI Guidelines authorize the FBI to
share information obtained through intelligence activities conducted under
the Guidelines with other components of the Department of Justice. 93
Information derived from national security letters is shared with United

       91 See 12 U.S.C. § 3414(a)(5)(B)(Right to Financial Privacy Act); 18 U.S.C.
§ 2709(d)(Electronic Communications Privacy Act); 15 U.S.C.A. §168lu(f)(Fair Credit
Reporting Act); and 50 U.S.C.A. § 436 (National Security Act). While the NSL statute
permitting access to consumer full credit reports, 15 U.S.C. §168lv, does not explicitly
authorize dissemination, it does not limit such dissemination. (U)
        92 The supervisor of a FIG squad explained that when FIG analysts receive raw
NSL-derived information, such as telephone or bank records, their analyses based on this
data are uploaded into ACS and provided to operational squads in the form of electronic
communications. These tactical analyses may later become part of finished intelligence
products, such as Intelligence Bulletins or Intelligence Assessments, that FBI Headquarters
may authorize for dissemination to other members of the intelligence community. Since
members of the FIG do not reference what information was derived from NSLs, the source
of the information would not be associated with the data because it is assimilated into a
finished intelligence product. (U)
       93   NSI Guidelines, VII(B)(2). (U)

                                             57

                                         ~
States Attorneys' Offices (described below), the Drug Enforcement
Administration, the Federal Bureau of Prisons, and other Department
components, including components whose personnel serve on Joint
Terrorism Task Forces, such as prosecutors and intelligence research
specialists. (U)
       Joint Terrorism Task Forces: Joint Terrorism Task Forces (JTTFs) are
composed of representatives of federal, state, and local law enforcement
agencies who respond to leads, investigate, make arrests, provide security
for special events, and collect and share intelligence related to terrorist
threats. 94 Some task force members are designated Task Force Officers,
some of whom obtain the necessary clearances to obtain access to FBI
information, including information derived from national security letters and
other investigative techniques. These Task Force Officers also are
authorized to access information stored in FBI databases such as ACS, the
specialized application for telephone data, and IDW which, as noted above,
contain information derived from NSLs. Task Force Officers who obtain the
required security clearances and sign access agreements are issued
accounts to access these databases (with the exception of case information
to which access was restricted due to special sensitivities). Consequently,
Task Force Officers with approved user accounts are able to access
databases that house raw data derived from NSLs. In addition, Task Force
Officers have access to formal analytical products derived, at least in part,
from national security letters and other information. However, Task Force
Officers are not permitted to share this information with their host agencies
unless specifically authorized in memoranda of understanding between the
FBI and the host agency. (U)
       Other Federal Agencies: The Attorney General's NSI Guidelines
authorize the FBI to share information obtained through intelligence
activities conducted under the Guidelines with other federal law
enforcement agencies and the Department of Homeland Security. 95 Since
many federal agencies are represented on JTTFs, the JTTFs are a significant
information-sharing mechanism for information derived from national
security letters as well as other investigative techniques. 96 In addition,
several FBI field divisions told us that they disseminated information


       94 Each of the FBI's 56 domestic field divisions contains at least one JTTF, and as
of March 2005 the FBI operated JTTFs in 100 U.S. cities. (U)
       95   NSI Guidelines, VII(B)(3). (U)
       96  For example, members of the JTTF in a major FBI field division include
representatives from the United States Attorney's Office, United States Marshals Service,
United States Postal Service, United States Secret Service, Department of Homeland
Security, Federal Protective Service, United States Coast Guard, Department of Defense,
Central Intelligence Agency, as well as representatives from state and local law
enforcement, including the state police and the city police department. (U)

                                             58
                                             ~
derived from NSLs to the Department of Energy and the Department of
Commerce in connection with counterintelligence investigations. (U)
      During our site visits to four FBI field offices, we reviewed examples of
documented dissemination of IIRs, Intelligence Bulletins, and Intelligence
Assessments to other federal agencies. For example, case agents on
counterintelligence squads disseminated NSL-derived information to the
Commerce Department's Export Control Agency to identify products on an
export control list. Case agents on counterterrorism squads disseminated
NSL-derived information to the Immigration and Customs Enforcement
branch in the Department of Homeland Security related to the investigation
of potential immigration charges. (U)
       Members of the Intelligence Community: The NSI Guidelines authorize
the FBI to share information covered by various memoranda of
understanding with members of the intelligence community. 97
Consequently, FBI analytical products that contain information from
national security letters are disseminated to other members of the
intelligence community. FBI field offices told us that they disseminated
information derived from national security letters to the Central Intelligence
Agency, National Reconnaissance Office, Defense Intelligence Agency, Naval
Criminal Investigative Service, Air Force Office of Special Investigations, and
the National Security Agency. As noted above, these analytical products
normally do not reference the source of the information used to produce the
product. (U)
       Private Sector Entities: Together with threat information derived from
other investigative tools, information from national security letters is
included in threat advisories that are communicated to private sector
entities. FBI officials in the four divisions we visited during the review told
us that they brief members of the private sector on terrorist threats or other
threats associated with special events, such as the Olympics or the World
Series. These briefings may advise the security officials of private
companies of the nature of the threat, but they do not communicate details
of pending investigations or what investigative tools were used to identify
and assess the severity of the threat. (U)
       Foreign Governments: The NSI Guidelines authorize the FBI to share
information obtained through intelligence activities under the Guidelines,
which include information from national security letters, with foreign
authorities under specified circumstances when the dissemination is in the
interest of the United States. 98 Information derived from national security
letters can also generate leads that are passed on to foreign government
counterparts. (U)


      97   NSI Guidelines, VII(B)(3). (U)
      98   NSI Guidelines, VII(B)(6). (U)
                                            59
                                            ~
       Dissemination of information to foreign governments during most of
the period covered by our review was handled by the Designated Intelligence
Disclosure Officials (DIDO) within the Directorate of Intelligence at FBI
Headquarters. 99 Personnel in several field offices told us that they proposed
the dissemination of information derived from national security letters to
foreign governments from 2003 through 2005. For example, the Directorate
of Intelligence approved the request of an FBI field division to provide
information to a foreign intelligence service about the possible association of
two non-U.S. telephone numbers to terrorist activities and to request
assistance in obtaining subscriber information about the two telephone
numbers. (U)

       D.      Information From National Security Letters Provided to Law
               Enforcement Authorities for Use in Criminal Proceedings
               (U)
       Information from national security letters most often is used for
intelligence purposes rather than for criminal investigations. In some
instances, however, NSL-derived information, when combined with other
information, is useful in criminal investigations and prosecutions. However,
our review could not determine how often that occurs because the FBI does
not maintain such records, and NSL-derived information is not specifically
labeled as such when it is provided to law enforcement authorities. (U)
      In this section, we describe the ways in which the FBI provides
information derived from NSLs to law enforcement authorities both through
routine information sharing with United States Attorneys' Offices (USAOs)
and in connection with specific criminal investigations and prosecutions.
We also give specific examples of instances in which the FBI provided law
enforcement authorities information derived from national security letters
that was used in criminal proceedings. (U)

               1.     Routine Information Sharing With United States
                      Attorneys' Offices (U)
      Information obtained from national security letters and analytical
products derived from this information are routinely shared with
prosecutors in the USAOs, although the source and details of the
information may not be readily apparent to the prosecutors. The
information is shared with USAOs to determine if criminal or other charges




        99 Only Designated Intelligence Disclosure Officials are authorized to decide that

intelligence information may be released to foreign governments. The FBI Director is a
DIDO and has delegated DIDO authority to other senior FBI officials. (U)

                                             60
                                       ~
may be brought against individuals who are subjects of FBI
counterterrorism investigations.100 (U)
       In November 2002, the Attorney General directed the United States
Attorneys and the Criminal Division to review counterterrorism intelligence
investigative files to determine whether they contained information that
would support criminal proceedings. In June 2004, the Deputy Attorney
General directed the United States Attorneys to identify all open full field
FBI counterterrorism investigations that the USAOs or the local FBI field
offices believed may relate to certain current threats. In consultation with
FBI field offices, the USAOs were directed to determine "if there exists a
potential criminal disruption option by identifying any criminal charges that
appear to be available now or could be available imminently with additional
investigation."101 (U)
       Through such routine interactions with the FBI, terrorism prosecutors
are familiar with the progress of counterterrorism investigations being
conducted in their districts. While it would be unlikely that FBI case agents
would need to attribute the fruits of their investigative activities to
particular investigative techniques - such as national security letters - in
routine briefings terrorism prosecutors may learn that national security
letters were used and, in significant briefings, likely learn of the fruits of the
technique. In addition, ATACs, other terrorism prosecutors, and intelligence
research specialists in the USAOs who review the FBI's investigative files
may see the results of NSLs or the analyses of the information derived from
NSLs in the investigative files or through access to the FBI's databases. 10 2
(U)


        100 Following the September 11 terrorist attacks, the Department implemented an
anti-terrorism plan that directed the commitment of all available resources and manpower
to address efforts to detect and prevent terrorism. Two important aspects of the plan were
the establishment of Anti-Terrorism Advisory Councils (ATACs) within each judicial district
and the expansion of Joint Terrorism Task Forces. ATACs were directed to convene federal
law enforcement agencies and state and local law enforcement officials who, together,
would constitute the ATAC for each district. The ATACs were charged with coordinating
"the dissemination of information and the development of prosecutive strategy'' about
suspected terrorists and "implement the most effective strategy for incapacitating them."
See Memorandum from John Ashcroft, Attorney General, U.S. Department of Justice, to All
United States Attorneys, Anti-Terrorism Plan (Sept. 17, 2001). (U)
      101 Memorandum from James B. Corney, Deputy Attorney General, U.S.
Department of Justice, to United States Attorneys and Anti-Terrorism Advisory Council
Coordinators (June 25, 2004), at 2. (U)
         l02 Intelligence research specialists in USAOs assist the ATACs in coordinating
anti-terrorist activities by, among other activities, generating analyses of the relevance and
reliability of threat information and investigative leads. See Office of the Inspector General,
U.S. Department of Justice, A Review of United States Attorneys' Offices Use of Intelligence
Research Specialists (December 2005). (U)
                                              61

                                         ~
       In the course of these file reviews, terrorism prosecutors and
intelligence research specialists assigned to the USAOs may identify gaps in
the data collected from all investigative techniques, including NSLs, and
may suggest that additional NSLs be issued to fill these gaps. For example,
if an analyst learns that the subject has received funds from a foreign
country, the analyst may suggest to the case agent that RFPA NSLs be
issued to obtain financial records about the subject. If the subject is
suspected of money laundering or violations of the Export Control Act, the
analyst may suggest that the agent issue FCRA NSLs to learn more about
the subject's consumer credit transactions. (U)

               2.     Providing Information to Law Enforcement
                      Authorities for Use in Criminal Proceedings (U)
       When criminal prosecutions are pursued, information from national
security letters may also be used in criminal proceedings. Information
derived from national security letters may produce evidence for the
prosecution's case in chief, for example by identifying communications or
financial networks indicative of criminal conspiracy or material support for
terrorism. 103 It may also provide evidence that persuades the subject to


(cont'd.)
       In some districts, the ATAC Coordinators and intelligence research specialists are
full members of the district's Joint Terrorism Task Force. In those circumstances, these
Department personnel have access to FBI databases. As noted above, several FBI
databases contain either raw data obtained from NSLs or analytical products derived from
them. (U)
        103 In June 2006, the Department's Counsel for the Office of Intelligence Policy and
Review (OIPR) asked the Department's Office of Legal Counsel (OLC) to render an opinion
on whether the FBI is required under the Foreign Intelligence Surveillance Act (FISA) to
obtain Attorney General approval prior to disseminating certain information for law
enforcement purposes that is developed from national security letters. The FBI and the
Department's Criminal Division Counterterrorism Section submitted legal analyses and
their positions to OLC in conjunction with this request. Specifically, the Counsel for OIPR
asked whether Attorney General approval is required under the FISA before the FBI seeks
to obtain a grand jury subpoena based on the results of NSLs that were issued for
telephone toll records on telephone numbers identified through its use of FISA authorities.
The FISA requires that information obtained through the use of orders for electronic
surveillance, physical searches, and pen registers/trap and trace devices
       shall not be disclosed for law enforcement purposes unless such disclosure
       is accompanied by a statement that such information, or any information
       derived therefrom, may be used in a criminal proceeding with advance
       authorization of the Attorney General. (U)
50 U.S.C. §§ 1806(b)(electronic surveillance), 1825 (c)(physical searches),
1845(b)(pen registers/trap and trace devices). The Counsel also asked whether the
term "criminal proceeding'' means all federal grand jury proceedings, including the
issuance or grand jury subpoenas, as well as search warrants, indictments, and
trials. In late 2006, after receiving the views of relevant entities, OLC referred the
                                              62

                                         ~
cooperate with the government and provide information on other terrorists
or other illegal activity. As noted above, however, information derived from
national security letters is not required to be marked or tagged as coming
from NSLs when it is entered in FBI databases or when it is shared with law
enforcement authorities outside the FBI. Moreover, when sharing
intelligence with law enforcement authorities, FBI agents do not typically
refer to the investigative technique that was used to gather information. (U)
       As a result, FBI and DOJ officials told us they could not identify how
often information derived from national security letters was provided to law
enforcement authorities for use in criminal proceedings.104 However, we
attempted in another way to obtain a rough sense of how often the FBI
provided NSL-derived information to federal law enforcement authorities for
use in criminal proceedings by collecting information that is indicative of
such use. Specifically, we asked FBI field personnel to identify instances in
which they referred targets of national security investigations to law
enforcement authorities for prosecution and whether in those instances they
shared information derived from national security letters with law
enforcement authorities. 105 We learned from the responses that in addition
to the routine sharing of information noted above, about half of the FBI's
field divisions referred one or more counterterrorism investigation targets to
law enforcement authorities for possible prosecution from 2003 through
2005. 106 Of the 46 Headquarters and field divisions that responded to our



(cont'd.)
question to the Department's National Security Division for a determination of the
best policy approach that comports with the FISA. In February 2007, NSD
contacted the FBI and other members of the intelligence community for the purpose
of meeting to determine the best policy approach. If Attorney General approval were
needed, the Counsel believes and FBI officials confirmed that there would be
significant operational implications for the ability of prosecutors and FBI agents to
quickly follow leads generated from FISA collection. (U)
       104 By contrast as noted above, when FBI case agents obtain information from the
use of FISA authorities, the information is marked or tagged so that its derivation is clear.
(U)
        105 In the absence of a tagged digital record or a centralized repository reflecting
instances in which information derived from national security letters is provided to law
enforcement authorities for use in criminal proceedings, FBI attorneys suggested that we
collect data on how often case agents referred targets of national security investigations to
law enforcement authorities for possible prosecution. These referrals would capture the
universe of investigations in which national security letters were authorized to be issued,
and the results of information derived from national security letters issued in these
investigations may have been shared with prosecutors, even if the source of the information
was not explicitly noted. (U)
       106 By contrast, case agents and supervisors assigned to counterintelligence
squads said that there is rarely a criminal nexus in these investigations, and therefore
                                             63

                                        ~
request for information about referral of national security investigation
targets, 19 divisions told us that they made no such referrals. Of the
remaining 27 divisions, 22 divisions provided details about the type of
information they referred and the nature of charges brought against these
investigative subjects. In most cases, multiple charges were brought
against the subjects, with the most common charges involving fraud (19),
immigration ( 17), and money laundering ( 17). (U)
      We also asked FBI field offices to identify examples from the referrals
to law enforcement authorities of the particular matters in which
information from national security letters was used in criminal
prosecu tions.101 Although the field offices that provided data on such
referrals were unable to state in what percentage of these referrals they
used NSLs, they provided examples of the use of NSLs in these proceedings,
such as the following: (U)

                      a.     Counterintelligence Case No. 1 (U)
       A counterintelligence investigation focused on the possible
involvement of the subject in exporting sensitive U.S. military technology to
a foreign country. Multiple national security letters were issued to obtain
information that enabled the FBI to identify the subject's role in exporting
these technologies. The FBI shared the NSL-derived information with the
Internal Revenue Service, which led to the initiation of a grand jury that
returned money laundering charges against the subject. The FBI also
shared the NSL-derived information with the Department of Homeland
Security and the Department of Commerce Office of Export Enforcement.
The FBI's investigation led to guilty pleas for 22 violations of the Arms
Export Control Act and brokering the export of sensitive technologies
without the required government licensing approval. (U)

                      b.     Counterterrorism Case No. 1 (U)
      Information provided to the FBI from the intelligence community
suggested that a high-value detainee who was to be incarcerated at
Guantanamo Bay had used an e-mail account. The FBI issued national
security letters to obtain e-mail transactional information about the user's
e-mail account, which led to additional national security letters seeking


(cont'd.)
information derived from national security letters would typically not be provided to law
enforcement authorities. (U)
       107 One field division provided an approximation of the number of times it used
NSL-derived information in criminal proceedings. That division stated that it used
NSL-derived information in approximately 105 criminal proceedings from 2003 through
2005. The division reported that NSLs were used only in terrorism-related criminal
proceedings, not in any espionage-related criminal proceedings. (U)
                                             64
                                        ~
telephone toll records and subscriber information on the subject and the
subject's friends and associates. Information derived from one of the
national security letters established a connection between the subject and
the subject of another FBI investigation. The latter individual was later
convicted of providing material support to terrorism. (U)

                  c.     Counterterrorism Case No. 2 (U)
      An FBI field office issued national security letters to ascertain the
investigative subject's financial dealings. The information from the national
security letters suggested bank fraud activity. A federal grand jury was
convened, and grand jury subpoenas were issued to obtain financial records
for use in the criminal trial. The investigative subject and his wife were
convicted of bank fraud, making false statements, and conspiracy. (U)

                  d.     Counterterrorism Case No. 3 (U)
      An FBI field division used information from national security letters in
an inves · ·        ·                        ·                               d
network                                                                          bl
                                                                                 b3

  even m 1v1 ua s were conv1c e o one or more c arges me u mg
providing material support to terrorists and conspiracy. ~)

IV.   Conclusion (U)
       FBI Headquarters and field personnel told us that they believe
national security letters are indispensable investigative tools that serve as
building blocks in many counterterrorism and counterintelligence
investigations. In further addressing the question of the effectiveness of
NSLs, we considered the investigative and analytical objectives for using
NSLs. Headquarters and field personnel told us that the principal objective
of the most frequently used type of NSL - ECPA NSLs seeking telephone toll
billing records, electronic communication transactional records, or
subscriber information (telephone and e-mail) - is to develop evidence to
support applications for FISA orders. NSLs also are used in
counterterrorism and counterintelligence investigations to determine how
and when subjects are communicating with others, their sources of funds
and means of transferring funds, and how they are financing their activities.
FBI agents and analysts use information derived from NSLs to determine if
further investigation is warranted; to generate leads for other field offices,
Joint Terrorism Task Forces, or other federal agencies; and to corroborate
information developed from other investigative techniques. (U)
       The FBI generates a variety of analytical intelligence products using
information derived from NSLs, including Intelligence Information Reports,
Intelligence Assessments, and Intelligence Bulletins. Information derived
from NSLs is stored in various FBI databases, shared within the Department
                                      65
and with Joint Terrorism Task Forces, and disseminated to other federal
agencies and the intelligence community. The FBI also provides information
from NSLs to law enforcement authorities for use in criminal proceedings.
(U)




                                   66

                               ~
                     CHAPTER SIX
     IMPROPER OR ILLEGAL USE OF NATIONAL SECURITY
               LETTER AUTHORITIES (U)
       The Patriot Reauthorization Act also directed the OIG to describe any
"improper or illegal use" of the FBI's authorities to issue national security
letters. In this chapter, we report our findings on improper or illegal use of
the authorities that were identified by the FBI, as well as instances we
discovered during our review of a sample of FBI investigative files. We also
describe other uses of national security letter authorities in which FBI field
personnel deviated from internal FBI policies related to NSLs that are
designed to ensure appropriate FBI supervisory review and compliance with
statutory authorities and Attorney General Guidelines. (U)
       In the course of our review, we identified a variety of instances in
which the FBI used national security letters contrary to statutory
limitations, Attorney General Guidelines, or internal FBI administrative
guidance or policies. In addition to these incidents, we identified certain
practices where the legality or propriety of the use of national security
letters was unclear due to inadequate FBI recordkeeping practices that did
not generate an audit trail that would enable us to determine if the letters
were duly authorized. For example, FBI Headquarters has no policy
requiring the retention of signed copies of national security letters issued by
the FBI or signed copies of FBI requests for the same types of information
without using an NSL, and three of the four field offices we visited did not
maintain signed copies of these letters and other requests. This made it
impossible for us to determine whether national security letters were signed
by appropriate FBI officials, to confirm the precise information requested in
the letters, or to determine the number and nature of the other types of
requests.108 (U)
        The instances of improper or illegal use of NSL authorities generally
fell into the following categories: (U)
       •   Issuing national security letters when the investigative authority to
           conduct the underlying investigation had lapsed; (U)
       •   Obtaining telephone toll billing records and e-mail subscriber
           information concerning the wrong individuals; (U)
       •   Obtaining information that was not requested in the national
           security letter; (U)




        108 If national security letters were not signed by Special Agents in Charge or
specially delegated senior Headquarters officials, this would be a violation of the national
security letter statutes, the Attorney General's NSI Guidelines, and internal FBI policy. (U)
                                             67

                                        ~
      •   Obtaining information beyond the time period referenced in the
          national security letter; (U)
      •   Issuing Fair Credit Reporting Act (FCRA) national security letters
          seeking records that the FBI was not authorized to obtain through
          an NSL in the pending investigation under the referenced statute,
          such as issuing FCRAv consumer full credit report national
          security letters in counterintelligence investigations; (U)
      •   Issuing improper requests under the statute referenced in the NSL,
          such as issuing an ECPA national security letter seeking an
          investigative subject's educational records, including applications
          for admission, emergency contact information, and associations
          with campus organizations; (U)
      •   Obtaining telephone toll billing records by issuing "exigent letters"
          signed by a Counterterrorism Division Unit Chief or subordinate
          personnel rather than by first issuing duly authorized national
          security letters pursuant to the ECPA NSL statute; and (U)
      •   Issuing national security letters out of "control files" rather than
          from "investigative files" in violation of FBI policy. (U)
       In Section I, we discuss incidents triggered by the use of NSLs that
were reported by field agents to the FBI's Office of the General Counsel
(FBI-OGC) as possible violations of intelligence authorities that should be
reported to the Intelligence Oversight Board (IOB). In Section II, we discuss
similar types of incidents and other incidents that were not reported by FBI
personnel to FBI-OGC but were identified by the OIG during our site visits
to four field divisions. In Section III, we discuss the improper or illegal uses
of national security letter authorities that we identified were committed by
FBI Headquarters Counterterrorism Division personnel. In Section IV, we
describe instances identified by the OIG in which we found that FBI
employees failed to adhere to internal controls on the exercise of national
security letter authorities. (U)
       In evaluating these matters, it is important to recognize that in most
cases the FBI was seeking to obtain information that it could have obtained
properly if it had it followed applicable statutes, guidelines, and internal
policies. We also did not find any indication that the FBI's misuse of NSL
authorities constituted criminal misconduct. (U)

I.    Possible IOB Violations Arising from National Security Letters
      Identified by the FBI (U)
      The OIG issued a report in March 2006 pursuant to Section 1001 of
the Patriot Act, which included an evaluation of the FBI's process for
reporting possible violations involving intelligence activities in the United


                                       68
                                  ~
States to the IOB.109 Among the types of possible IOB violations
summarized in the report were instances in which the FBI may have
improperly utilized national security letter au thorities. 110 (U)
       In this section, we briefly summarize the FBI's procedures for
reporting possible IOB violations to FBI-OGC and the manner in which
FBI-OGC decides whether to report the possible violations to the IOB. We
then describe the possible IOB violations regarding the use of national
security letter authorities that were reported to FBI-OGC from 2003 through
2005; FBI-OGC's decisions whether to report the possible violations to the
IOB; and other possible IOB violations involving national security letters
that were not reported to FBI-OGC but that the OIG identified in the course
of this review. (U)

       A.     The IOB Process for Reporting Possible Violations of
              Intelligence Activities in the United States (U)
      Executive Order 12863 designates the IOB as a standing committee of
the President's Foreign Intelligence Advisory Board and directs the IOB to
inform the President of any activities that "may be unlawful or contrary to
Executive order or Presidential Directive." This directive has been
interpreted by the Department and the IOB during the period covered by our
review to include reports of violations of Department investigative guidelines
or investigative procedures. (U)
      The FBI has developed an internal process for the self-reporting of
possible IOB violations to FBI-OGC. During the period covered by our
review, FBI-OGC issued 2 guidance memoranda describing the process by
which FBI personnel were required to report possible IOB violations to
FBI-OGC within 14 days of discovery. The reports were to include a
description of the status of the subjects of the investigative activity, the legal
authority for the investigation, the potential violation, and the date of the
incident. FBI-OGC then reviewed the report, prepared a written opinion as
to whether the matter should be sent to the IOB, and prepared the written
communication to the IOB for those matters it decided to report. (U)
      The following sections describe two groups of possible IOB violations
related to NSLs that occurred during our review period (2003 through 2005).


      109 See Office of the Inspector General, U.S. Department of Justice, Report to
Congress on Implementation of Section 1001 of the USA PATRIOT Act (March 8, 2006). (U)
       110  The NSL-related possible IOB violations identified in the report occurred during
Fiscal Years 2004 and 2005 and included incidents in which third parties provided e-mail
content information that was not requested or authorized; an NSL that was issued after the
investigation was extended without authorization; an NSL that was issued for the wrong
subject with a similar name; and NSLs that were issued with typographical errors that led
to the unauthorized collection information not relevant to an authorized national security
investigation. (U)

                                            69

                                       ~
The first group consists of 26 possible IOB violations that were reported by
FBI employees to FBI-OGC. The second group of incidents consists of 22
possible IOB violations that the OIG identified during our review of a sample
of 77 investigative files in the 4 field divisions we visited. We found that 17
files (22 percent) had one or more possible IOB violations. In total, the 17
files had 22 possible violations. To our knowledge, none of these 22
possible IOB violations was reported to FBI-OGC, and none was reported by
FBI-OGC to the IOB.111 (U)

       B.     Field Division Reports to FBI-OGC of 26 Possible IOB
              Violations Involving the Use of National Security Letters
              (U)
               1.     Possible IOB Violations Identified by the FBI (U)
      We determined that from 2003 through 2005, FBI field divisions
reported 26 possible IOB violations to FBI-OGC arising from the use of
national security letter authorities. Table 6.1 summarizes these matters,
followed by an additional description and our analysis. (U)




       111 Of the 48 possible IOB violations in both categories, 28 occurred during
preliminary investigations, 19 occurred during full investigations, and 1 occurred in the
absence of a national security investigation. Thirty-two of the possible IOB violations
occurred during counterterrorism investigations, 15 occurred during counterintelligence
investigations, and loccurred in the absence of a national security investigation. (U)
                                            70
                                        TABLE 6.1 (U)

     Summary of 26 Possible IOB Violations Triggered by Use of National
       Security Letters Reported to FBI-OGC (2003 through 2005) (U)
                              [The table below is unclassified]
                                                              Number of Possible
                                                                IOB Violations     Number of
                                                             Reported to FBI-OGC    Possible
           Category of Possible IOB Violation                                      Violations
                                                                         Third      Reported
                                                               FBI
                                                                         Party     to the IOB
                                                              Error
                                                                         Error

                Improper Authorization

Issuing ECPA national security letter without obtaining
required FBI Headquarters authorization to extend               1          0           1
investigation after one year
Issuing ECPA national security letter without obtaining
required SAC approval to initiate a national security           1          0           1
investigation
Issuing RFPA national security letter without obtaining
                                                                1          0           1
required approval to extend investigation

              Improper Request Under
      Pertinent National Security Letter Statute
Obtaining ECPA toll billing and RFPA financial records
                                                                3          0           2
without first issuing national security letters
Issuing FCRA national security letter requesting
                                                                1          0           1
consumer full credit report in a counterintelligence case

                Unauthorized Collection

Obtaining ECPA telephone subscriber information not
                                                                2          0           1
relevant to an authorized national security investigation
Obtaining ECPA e-mail transactional information not
                                                                1          3           4
relevant to an authorized national security investigation
Obtaining ECPA telephone toll billing records not relevant
                                                               12          1           8
to an authorized national security investigation

            Total FBI or Third Party Errors                    22          4




                                                71

                                          ~
       Nature of Possible JOB Violation and the NSL Statute at Issue: As
noted in Table 6.1, these 26 possible IOB violations involved a variety of
issues: (U)
       •   In three matters, the NSLs were signed by the appropriate officials
           but the underlying investigations were not approved or extended
           by the appropriate Headquarters or field supervisors. (U)
       •   In four matters, the NSLs did not satisfy the requirements of the
           pertinent national security letter statute or the applicable Attorney
           General Guidelines. In three of these matters, the FBI obtained
           the information without issuing national security letters. One of
           these three matters involved receipt of information when there was
           no open national security investigation. In the fourth matter, the
           FBI issued national security letters seeking consumer full credit
           reports in a counterintelligence investigation, which is not
           permitted by FCRAv. (U)
       •   In 19 matters, the NSL recipient provided more information than
           was requested in the NSL or provided information on the wrong
           person due either to FBI typographical errors or errors by
           recipients of the NSLs. Thirteen of these matters involved requests
           for telephone toll billing records, 4 involved requests for electronic
           communication transactional records, and 2 involved requests for
           telephone subscriber information. (U)
      Status of Investigative Subject and Target of NSL: FBI agents are
required to include in their reports to FBI-OGC the status of the subject of
the investigation as a "U.S. person" or a "non-U.S. person." 11 2 We also
attempted to determine if the subject of the investigation in these 26
matters reported as possible IOB violations was the same as the target of
the NSL. (U)
       •   In 15 of the matters, the subject of the investigation was a "U.S.
           person," and in 8 of the matters the subject was a "non-U.S.
           person."113 (U)




       112 Section I(C)(l) of the NSI Guidelines, defines a "United States person'' as: (U)
              a. an individual who is a United States citizen or alien lawfully admitted for
              permanent residence; (U)
              b. an unincorporated association substantially composed of individuals who
              are United States persons; or
              c. a corporation incorporated in the United States. (U)
       113 In one of the matters, the subject was a presumed "non-U.S. person,'' in one
there was no subject, and in another the status of the subject could not be determined. (U)
                                             72
      •   In 19 of the matters, the NSLs sought information about the
          subject of the underlying national security investigation; 2 NSLs
          sought information on a target other than the subject of the
          investigation; 1 NSL sought information on both the subject and a
          non-subject; 1 NSL was issued during a threat assessment (at
          which stage there is no subject); and 3 NSL targets could not be
          determined. (U)
      Source of the Error. In total, 22 of the 26 possible IOB violations were
due to FBI errors, while 4 were due to third-party errors. The 22 possible
IOB violations due to FBI error were: (U)
      •   Receipt of financial records through use of FISA authorities rather
          than by issuing an RFPA NSL; (U)
      •   Receipt of telephone toll billing records from a telephone company
          without first issuing an ECPA NSL; (U)
      •   Eight NSLs containing typographical errors (seven on the telephone
          numbers listed in the NSLs and one on the e-mail address listed in
          the NSL); (U)
      •   Four NSLs concerning telephone numbers that responses to the
          NSLs revealed were no longer associated with the investigative
          subjects; (U)
      •   An ECPA NSL requesting telephone toll billing records that was
          issued after the investigative authority had lapsed; (U)
      •   Receipt of responses to two telephone toll billing record requests
          after the investigative authority had lapsed; (U)
      •   A request for telephone toll billing records of an individual whose
          name was similar to that of the investigative subject; (U)
      •   A request for financial records after the authority for the
          underlying investigation had lapsed; (U)
      •   A request for telephone toll billing records during a criminal
          investigation before the Special Agent in Charge had approved
          conversion of the investigation to a counterterrorism investigation;
          (U)
      •   Receipt of telephone toll billing records during a threat assessment
          through informal contact with FBI Headquarters Counterterrorism
          Division's Communications Analysis Unit; and (U)
      •   A FCRA request for a consumer full credit report in a
          counterintelligence case. (U)
The four third-party errors were: (U)


                                        73
      •   The NSL recipient providing prohibited content information
          (including facsimile images) in response to an ECPA NSL for
          telephone toll billing records; and (U)
      •   The NSL recipient providing prohibited content information
          (including e-mail content and images) in response to three ECPA
          NSLs requesting electronic communication transactional records.
          (U)
      The following text box provides an example of a possible IOB violation.
(U)


                          Possible IOB Violation No. 1 (U)
         In June 2004, during a file review of an authorized national security investigation
 of a foreign intelligence officer who was the target of a FISA court-authorized electronic
 surveillance order, a squad supervisor determined that a probationary case agent had on
 one occasion telephonically accessed the bank account of the investigative subject using
 information derived from the electronic surveillance order. The probationary agent had
 obtained the subject's bank account and personal identification number (PIN) to
 telephonically access the subject's bank account transactions and balance but did so
 without seeking approval to issue a national security letter for the records. The
 probationary agent had been assigned to a counterintelligence squad for 16 months at
 the time of the incident. (U)
          The squad supervisor told the probationary agent that the FBI was required to
 issue a national security letter under the RFPA before obtaining financial records in a
 foreign counterintelligence investigation. The agent indicated unfamiliarity with the
 statutory requirement. The agent was verbally counseled, and the squad supervisor
 promptly reported the matter to FBI-OGC as a possible IOB violation and to the FBI's
 Inspection Division and Office of Professional Responsibility. A RFPA national security
 letter later was issued to obtain the subject's financial records, including the information
 that was improperly obtained from FISA-derived information. (U)
         FBI-OGC determined that the matter should be reported to the IOB even if the
 agent was unaware that the agent was acting in contravention of the RFPA and internal
 FBI policy. The Inspection Division's Internal Investigations Section determined that the
 incident was indicative of a performance issue that did not warrant further investigation.
 (U)



      The following text box provides an example of the FBI's acquisition of
telephone toll billing records in the absence of an active national security
investigation. (U)




                                             74
                                        ~
                                                                                                      Possible IOB Violation No. 2 (U)
                                    In August 2005, a field division sent a lead to another field office concerning
                           three suspicious telephone calls originating from the second division's jurisdiction. An
                           intelligence analyst in the second division, under the supervision of a new Supervisory
                           Analyst, requested via e-mail that the Counterterrorism Division's Communications
                           Analysis Unit (CAU) "run'' three numbers through its databases. CAU agreed to do so
                           and also offered to obtain telephone toll billing records from a telephone company with
                           the understanding that the requesting division would later prepare a national security
                           letter to the telephone companies to cover the records obtained. The intelligence analyst
                           agreed to the arrangement. (U)
                                   The same day, the intelligence analyst telephoned the Primary Relief Supervisor
                           of a Resident Agency within the division regarding the lead on the suspicious calls.
                           According to the field division's report to FBI-OGC, the intelligence analyst inferred that
                           the telephone numbers were requested in the course of an ongoing substantive
                           investigation by the first field division. The intelligence analyst requested that the
                           Primary Relief Supervisor initiate the drafting of approval documents for the national
                           security letter, but the intelligence analyst did not tell the Primary Relief Supervisor that
                           he had already requested the records from CAU. About a week later, CAU sent the
                           requested records to the intelligence analyst. (U)
                                                                                                                                             bl
                                                                                                                                             b3

    II"\




                                                                           x
                                   Because CAU had committed to the telephone company that it would furnish a
                           national security letter after the fact to cover the records, the receiving division
                           considered issuing a national security letter from its control file. However, the division's
                           Chief Division Counsel, following consultation with the National Security Law Branch,
                           determined that a national security letter could not be issued from its control file absent
                           prior approval. (U)
                                  FBI-OGC concluded that the FBI's acquisition of the telephone toll billing records
                           constituted a violation of the ECPA national security letter statut9                                          I   bl
r1 ~·"a'1 ...   ·······•···································································································I   ~)            b3
 1.1.11




                             Reporting and Remedial Actions: Twenty of the 26 possible IOB
                      violations were timely reported within 14 days of discovery to FBI-OGC in
                      accordance with internal FBI policy. However, 6 were not reported in a
                      timely fashion, taking between 15 days and 7 months to report. (U)
                            We identified the remedial action that was taken regarding the 26
                      possible violations. (U)




                                                                                                                                    75
                                                                                                                                    ~
       •     In the 19 matters that involved unauthorized collection of
             information not relevant to an authorized national security
             investigation, field office documentation stated that the information
             was retrieved and segregated, reviewed no further, and sometimes
             forwarded to FBI-OGC for final disposition. 114 If the information
             had been uploaded or disseminated, FBI records showed that it
             was removed from the relevant databases and the disseminated
             information retrieved and segregated with the original information.
             (U)
       •     In three of the matters that involved improper requests under
             pertinent national security letter statutes, field office
             documentation stated that the records received either were
             destroyed or sealed or that NSLs were issued for the requested
             records to cover the time period in question. In the fourth matter,
             one of the three NSLs was returned unexecuted when the FBI office
             that was to deliver the letter discovered the error and sent it back
             to the initiating office. Information from the NSL that had been
             disseminated to a foreign counterintelligence Task Force Officer
             was returned to the FBI without being used. The information
             inappropriately obtained from two NSLs was sealed and sent to
             FBI-OGC. (U)
       •     In the three matters that involved improper authorization, field
             division documentation stated that the field division was instructed
             to cease further investigative activity in the investigation that was
             improperly extended without FBI headquarters authorization; an
             EC was sent to FBI Headquarters requesting approval to extend
             the investigation for six months; and the case agent submitted
             appropriate documentation to change the case designation to a
             counterterrorism case. (U)
      FBI-OGC decisions: FBI records show that FBI-OGC reported 19 of
the 26 possible violations to the IOB. The FBI-OGC decided that the 7
remaining matters were not reportable to the IOB for the following reasons:
(U)
       •     In one of the matters, the FBI obtained telephone toll billing
             records on an investigative subject who was a "non-U.S. person"


       114   According to the CDC in one of the field offices we visited, case agents are
advised to return telephone toll billing records it improperly acquires to the communication
providers. If the providers do not want them back, the agents are advised to destroy the
records and document the destruction with an Electronic Communication (EC). This field
office did not usually send toll billing records to FBI-OGC for sequestration or destruction.
(U)
                                             76
             without issuing NSLs. The FBI-OGC decision stated that "only
             violations of the AG Guidelines which are designed to safeguard
             the rights of U.S. persons are required to be reported to the
             IOB." 115 The FBI-OGC decision memorandum noted that if the
             subject of the national security letter had been a "U.S. person" the
             matter would likely constitute a reportable IOB violation. (U)
       •     In four matters, the FBI obtained telephone toll billing records or
             subscriber information that identified the telephone numbers with
             the investigative subjects. When the case agents reviewed the
             responses to the NSLs, they discovered that the telephone
             numbers were not associated with the investigative subjects. The
             FBI-OGC decisions stated that in each instance there was an
             authorized investigation for which NSLs were an appropriate
             investigative technique, and the NSLs were appropriately
             authorized. FBI-OGC also concluded that the case agents acted in
             good faith. (U)
       •     In two related matters the FBI issued national security letters for
             telephone toll billing records during authorized national security
             investigations but the NSL recipient provided the results 35 days
             after expiration of the authority to conduct the investigation. The
             FBI-OGC decision stated that the FBI's receipt of the information
             did not constitute a violation of the Attorney General's NSI
             Guidelines because no investigative activity was conducted after
             the investigative authority had expired, and the case agent took
             appropriate steps to obtain approval to extend the investigation
             before conducting further investigative activity. (U)
       With regard to the FBI's decisions whether to report the possible
violations to the IOB, we concurred in FBI-OGC's analysis and conclusions
to report 19 of the 26 possible violations to the IOB. With one exception, we
also concurred in its analysis and conclusions not to report the 7 remaining
possible violations. (U)
       The one case in which we disagreed with the FBI-OGC decision not to
report the possible violation to the IOB related to the FBI's acquisition of
telephone toll billing records and subscriber information relating to a "non-
U. S. person" from a telephone company employee on nine occasions without


       115 According to internal FBI guidance, by longstanding agreement between the FBI
and the IOB, E.O. 12334 has been interpreted to (U)
       mandate the reporting of any violation of a provision of the foreign
       counterintelligence guidelines or other guidelines or regulations approved by
       the Attorney General, in accordance with E.O. 12333, if such provision was
       designed in full or in part to ensure the protection of the individual rights of
       a U.S. person. (U)
                                             77
issuing national security letters. FBI-OGC reasoned that because the
investigative subject was a "non-U.S. person" agent of a foreign power, the
only determination it had to reach was whether the FBI's failure to conform
to its internal administrative requirements was reportable "as a matter of
policy" to the IOB. FBI-OGC's decision concluded that if the subject of the
NSL had been a "U.S. person," this failure would "likely" constitute an IOB
violation. Yet, we believe that FBI-OGC's rationale for not reporting the
matter is inconsistent with at least four other possible IOB violations that
were triggered by national security letters where the investigative subject or
the target of the national security letter was a "non-U.S. person" but the
matters were reported to the IOB. 116 We therefore disagree with FBI-OGC's
determination that this matter should not be reported to the IOB. 117 (U)

              2.      OIG Analysis Regarding Possible IOB Violations
                      Identified by the FBI (U)
       Our examination of the 26 possible IOB violations reported to
FBI-OGC relating to the use of national security letters did not reveal
deliberate or intentional violations of national security letter statutes, the
Attorney General Guidelines, or internal FBI policy. Although the majority
of the possible violations - 22 of 26 - arose from FBI errors, most of them
occurred because of typographical errors or the case agent's good faith but
erroneous belief that the information requested related to an investigative
subject. While the errors resulted in the acquisition of information not
relevant to an authorized investigation, they did not manifest deliberate
attempts to circumvent statutory limitations or Departmental policies, and
appropriate remedial action was taken. (U)
       However, we believe that three of the possible IOB violations arising
from FBI errors were of a more serious nature because they demonstrated
FBI agents' unfamiliarity with the constraints on national security letter
authorities and inadequate supervision in the field. For example, in one
instance, an FBI analyst was unaware of the statutory and internal FBI
policy requirements that national security letters can only be issued during
a national security investigation and must be signed by the Special Agent in
Charge of the field division. In the two other matters probationary agents


       116 None of the FBI-OGC decision memoranda describing matters reported to the
IOB involving non-U.S. Persons explained why these matters were reported to the IOB
notwithstanding the status of the subject of the investigation or the NSL target. (U)
       117   In November 2006, FBI-OGC issued guidance to all divisions for reports of
possible IOB violations. The memorandum states that Section 2.4 of Executive Order
12863 has been interpreted to mandate the reporting of Attorney General Guidelines'
violations "if such provision was designed to ensure the protection of individual rights."
Accordingly, we do not believe that future decisions concerning whether to report possible
IOB violations will be made solely on the basis of the non-U.S. person status of the
investigative subject or the NSL target. (U)
                                            78

                                       ~
erroneously believed that they were authorized to obtain records about
investigative subjects - without issuing national security letters - from
information derived from FISA electronic surveillance orders. In these
instances, it is clear that the agents and, in one instance, the squad
supervisor, did not understand the legal constraints on the two types of
national security letters or the interrelationship between FISA authorities
and national security letter authorities. (U)

II.   Additional Possible IOB Violations Identified by the OIG During
      Our Field Visits (U)
       In addition to the 26 possible IOB violations identified by the FBI in
this 3-year review period, we found 22 additional possible IOB violations in
our review of a sample of investigative files in the 4 field offices we visited.
In those 77 investigative files, we reviewed 293 national security letters
issued from 2003 through 2005. In those files, we identified 22 NSL-related
possible IOB violations that arose in the course of 17 separate
investigations, none of which was reported to FBI-OGC or the IOB. Thus,
we found that 22 percent of the investigative files we reviewed (17 of 77)
contained one or more possible IOB violations that were not reported to
FBI-OGC or the IOB. (U)

      A.    Possible IOB Violations Identified by the OIG (U)
       Of the 22 possible IOB violations, 8 arose in eight investigations in
Chicago, two arose in two investigations in New York, 8 arose in 4
investigations in Philadelphia, and 4 arose in three investigations in San
Francisco. Seventeen occurred in counterterrorism investigations and 5
occurred in counterintelligence investigations. Thirteen possible IOB
violations occurred during preliminary investigations, while 9 occurred
during full investigations. The 22 possible IOB violations are summarized in
Table 6.2. (U)




                                       79

                                 ~
                                        TABLE 6.2 (U)

    Summary of 22 Possible IOB Violations Triggered by Use of National
      Security Letters Identified by the OIG in Four Field Offices (U)
                              [The table below is unclassified]
                                                                        Number of Possible
                                                                          IOB Violations
              Category of Possible IOB Violations
                                                                                  Third Party
                                                                      FBI Error
                                                                                     Error
                    Improper Authorization
Issuing national security letter without obtaining required
                                                                          1            0
approval to extend investigation

              Improper Requests Under Pertinent
               National Security Letter Statute
Issuing national security letter for material that arguably
                                                                          1            0
constituted prohibited content under ECPA
Issuing national security letter citing ECPA statute that requests
                                                                          1            0
RFPA financial records associated with e-mail accounts
Issuing national security letter for FCRAv consumer full credit
report that included certification language either for RFPA
                                                                         3             0
financial records or FCRAu consumer or financial institution
identifying information
Issuing national security letter requesting FCRAv consumer full
                                                                         2             0
credit report in a counterintelligence case
Issuing national security letter requesting FCRAv consumer full
credit report when SAC approved national security letter for
                                                                         4             0
consumer identifying information or identity of financial
institutions under FCRAu
                    Unauthorized Collection
Obtaining information not relevant to an authorized national
security investigation (subscriber information and telephone toll        0             4
billing records)
Obtaining information beyond the time period requested in the
national security letter (from 30 to 81 days in excess of request);
obtaining consumer full credit report when SAC had approved              0             6
NSL for limited credit information; obtaining toll billing records
when NSL requested subscriber records
                Total FBI or Third Party Errors                          12           10



       We describe below the facts relating to these 22 matters, followed by
 our analysis of these possible violations. (U)
       Nature of Possible JOB Violation and NSL Statute at Issue: The 22
 possible IOB violations we identified fell into three categories: improper
 authorization for the NSL (1), improper requests under the pertinent
                                                80

                                           ~
national security letter statutes (11), and unauthorized collections (10). The
possible violations included: (U)
       •     One NSL for telephone toll billing records was issued 22 days after
             the investigative authority had lapsed. As a result, under FBI
             policy and ECPA the NSL was sent in the absence of an authorized
             national security investigation. (U)
       •     Nine NSLs involved improper requests under FCRAv, the newest
             NSL authority, which was established in the Patriot Act. Two of
             the 9 NSLs issued during one investigation requested consumer
             full credit reports during a counterintelligence investigation
             notwithstanding the fact that the statute authorizes consumer full
             credit report NSLs only in international terrorism investigations.
             Three of the 9 NSLs listed FCRAv as the authority for the request
             but the NSLs included the certification of relevance language either
             for the RFPA or the FCRAu NSL authority. In addition, 4 of these 9
             NSLs were FCRA requests where the types of records approved by
             field supervisors differed from the records requested in the national
             security letters. (U)
       •     Two NSLs referenced the ECPA as authority for the request but
             sought content information not permitted by the statute. In one
             instance, the NSL requested content arguably not permitted by the
             NSL statute. 118 The second NSL requested financial records
             associated with two e-mail addresses but requested the
             information under the ECPA rather than the RFPA, which
             authorizes access to financial records. (U)
       •     Ten NSLs involved the FBI's receipt of unauthorized information.
             In 4 instances, the FBI received telephone toll billing records or
             subscriber information for telephone numbers that were not listed
             in the national security letters. In these instances the provider
             either erroneously furnished additional records for another
             telephone number associated with the requested number or made
             transcription errors when querying its systems for the records. In
             4 instances, the FBI received telephone toll billing records and
             electronic communication transactional records for longer periods
             than that specified in the NSL - periods ranging from 30 days to 81
             days. 119 One NSL sought subscriber records pursuant to the


       118 When we examined the records provided to the FBI in response to this NSL,
however, we determined that the requested data was not furnished to the FBI. (U)
         119 We did not include in this category unauthorized collection of telephone toll

billing records or subscriber information due to instances in which the communication
provider furnished records beyond the time period specified in the NSL because of the
communications provider's billing cycle. (U)
                                             81

                                        ~
          ECPA, but the recipient provided the FBI with toll billing records.
          One NSL sought financial institution and consumer identifying
          information about an individual pursuant to FCRAu. However, the
          recipient erroneously gave the FBI the individual's consumer full
          credit report, which is available pursuant to another statute,
          FCRAv. (U)
      The following text box shows an example of agents' confusion
regarding the two NSL authorities in the Fair Credit Reporting Act. (U)


                         Possible IOB Violation No. 3 (U)
         In October 2003, during a counterterrorism investigation, a field division
 counterterrorism squad obtained approval to issue a national security letter to a credit
 reporting agency seeking the names and addresses of all financial institutions at which
 the investigative subject, a "U.S. person,'' maintained accounts. The national security
 letter was issued pursuant to the Fair Credit Reporting Act, 15 U.S.C. § 1681u(a), to
 determine the extent of the subject's financial holdings and to evaluate whether the
 subject provided material support to terrorist organizations. (U)
         In November 2003, a credit reporting agency provided a consumer full credit
 report on the investigative subject, instead of the more limited information the FBI had
 requested in the national security letter. Although the FBI was entitled to request a full
 consumer report ifit established the necessary predicate under 15 U.S.C. § 1681v, this
 authority had not been approved by the Special Agent in Charge. Accordingly, even
 though the error was made by the credit reporting agency, the FBI's receipt of the
 additional information would be considered an unauthorized collection subject to
 reporting to FBI-OGC as a possible IOB violation. According to FBI records, the incident
 was not reported to FBI-OGC. (U)
         We found there was substantial confusion during the period covered by our
 review about how to address this and other matters related to the unauthorized
 acquisition of consumer full credit reports, including questions concerning ( 1) whether
 the FBI could use the full credit reports produced to the FBI even if they had not been
 requested; (2) whether agents should destroy the information, seal it, redact it, or ignore
 it; and (3) whether the matter should be reported to FBI-OGC as a possible IOB
 violation. The confusion was compounded by the decisions of two of the three major
 consumer credit bureaus to provide full consumer credit reports in response to all FBI
 FCRA national security letters, regardless of whether they requested only the limited
 information available under the original FCRA NSL statute. Ultimately, FBI-OGC
 decided that when the field agents receive full consumer credit reports in response to
 national security letters seeking more limited information, the agents should take the
 information the FBI is entitled to, seal the remainder, and file an IOB report. Following
 FBI-OGC meetings with credit bureau representatives in 2006, the two credit bureaus
 have agreed to redact information that is not requested in FBI NSLs. (U)



      Status of Investigative Subject and Target of NSL: Twelve subjects of
the 17 investigations involving possible IOB violations identified by the OIG
were "U.S. persons," 3 were "non-U.S persons," and two appeared to be
"U.S. persons." In 18 of the matters, the NSLs sought information about the

                                             82
subjects of the underlying investigations. In the remaining 4 matters, the
NSL targets could not be determined. (U)
      Source of Error. Twelve of the 22 possible IOB violations identified by
the OIG were due to FBI errors, and 10 were due to errors on the part of
third-party recipients of the NSLs. (U)
       Uploading of information obtained beyond time period specified in NSL
request: We identified one instance in which the FBI uploaded into
Telephone Applications from an NSL that exceeded the time period
requested in the NSL. The NSL was issued during a full counterterrorism
investigation of a U.S. person requesting toll billing records on the
investigative subject's telephone number for the period September 1, 2002,
to July 16, 2003. However, the FBI received and uploaded into its
specialized application for telephone data telephone toll billing records
information for two months in excess of the requested time period. (U)

       B.     National Security Letter Issued in a Charlotte, N.C.
              Terrorism Investigation (U)
       In this section, we describe another possible IOB violation arising
from the use of national security letter authorities that was not identified by
the FBI. We learned of this possible violation through press accounts. For
this reason we did not include it in the description of the results of our
review of investigative files in the four field offices we visited. However, we
believe this violation is noteworthy, and we therefore describe it in this
section. (U)
       According to press accounts, the FBI's Charlotte Division was looking
for information about a former student at North Carolina State University in
connection with in the London subwa and bus bombin sin Jul 2005




                                                                                        bl
                                                                                        b3
                                                                                x
                                                           e nat10na security etter
reques e


      120 Barton Gellman, The FBI's Secret Scrutiny: In Hunt for Terrorists, Bureau
Examines Records of Ordinary Americans, The Washington Post, Nov. 6, 2005, at Al. (U)
                                          83
                                     ~
       Applications for admission, applications or statements
       concerning financial aid and/ or financial situation, housing
       information, emergency contacts, association with any campus
       organizations, campus health records, and the names, without
       being redacted, of other students included in the records
       associated with the following information: .... (U)
                                                                                                bl
                                                                                                b3




                                                                      x
       According to press accounts, university officials said that the FBI
"tried to use a natio        ·                                  ·        ·
                                                                                                bl
                                                                                                b3




                                                                                        e
university produced the records in response to a grand jury subpoena.                   ~

      As discussed in Chapter Two, the ECPA NSL statute authorizes the
FBI to obtain telephone toll billing records and subscriber information and
electronic communication transactional records. It does not authorize the
FBI to obtain educational records. 12 1 According to FBI records, the matter
was not reported to FBI-OGC as a possible IOB violation. It also was not
reported as a possible misconduct matter to the FBI's Office of Professional
Responsibility. (U)




        121 The production of educational records is governed by the Family Education
Rights and Privacy Act of 1974 (FERPA), commonly referred to as "the Buckley
Amendment." See 20 U.S.C. § 1232g. Generally, the Buckley Amendment prohibits the
funding of an educational agency or institution that has a policy or practice of disclosing a
student's records without parental or student consent if the student is over the age of 18.
The law contains 16 exceptions to this general rule, one of which is known as the "law
enforcement exception." In responding to a federal grand jury subpoena, the institution is
not required to seek consent but must notify the parents and student in advance of
compliance. See 20 U.S.C. § 1232g(b)(2)(B). However, for good cause shown, a court may
order the institution not to disclose the existence of the subpoena or the institution's
response. 20 U.S.C. § 1232g(b)(l)(J)(i). (U)
                                             84
                                         ~
      C.     OIG Analysis Regarding Possible IOB Violations Identified or
             Reviewed by the OIG (U)
       At the outset, it is significant to note that in the limited file review we
conducted of 77 investigative files in 4 FBI field offices we identified nearly
as many NSL-related possible IOB violations (22) as the number of
NSL-related possible IOB violations that the FBI identified in reports from all
FBI Headquarters and field divisions for the same 3-year period (26). We
found that 22 percent of the investigative files that we reviewed contained at
least one possible IOB violation that was not reported to FBI-OGC or the
IOB. (U)
       We have no reason to believe that the number of possible IOB
violations we identified in the four field offices we visited was skewed or
disproportionate to the number of possible IOB violations that exist in other
offices. This suggests that a significant number of NSL-related possible IOB
violations throughout the FBI have not been identified or reported by FBI
personnel. (U)
       However, it is also significant to note that our review did not reveal
intentional violations of the national security letter authorities, the Attorney
General Guidelines, or internal FBI policy. Rather, we found confusion
about the authorities available under the various NSL statutes. For
example, our interviews of field personnel and review of e-mail exchanges
between NSLB attorneys and Division Counsel indicated that field personnel
sometimes confused the two different authorities under the FCRA: the
original FCRA provision that authorized access to financial institution and
consumer identifying information in both counterterrorism and
counterintelligence cases (15 U.S.C. §§ 1681u(a) and (b)), and the Patriot Act
provision that amended the FCRA to authorize access to consumer full
credit reports in international terrorism investigations where "such
information is necessary for the agency's conduct of such investigation,
activity or analysis" (15 U.S.C. § 1681v). Although NSLB sent periodic
guidance and "all CDC" e-mails to clarify the distinctions between the two
NSLs, we found that the problems and confusion persisted. (U)
       As was the case with the NSL-related possible IOBs identified by the
FBI, the possible violations identified or reviewed by the OIG varied in
seriousness. Among the most serious matters resulting from FBI errors
were the two NSLs requesting consumer full credit reports in a
counterintelligence case and the NSL requesting educational records from a
university, ostensibly pursuant to the ECPA. In these three instances, the
FBI misused NSL authorities. Less serious infractions resulting from FBI
errors were the seven matters in which three levels of supervisory review
failed to detect and correct NSLs which contained incorrect certifications or
which sought records not referenced in the approval ECs. While the FBI
was entitled to obtain the records sought and obtained in these seven NSLs,
the lapses in oversight indicate that the FBI should reinforce the need for
                                       85
careful preparation and review of all documentation supporting the use of
NSL authorities. (U)
       The reasons why the FBI did not identify the 23 possible IOB
violations (counting the improper ECPA NSL involving the Charlotte
Division) is unclear. Nine of the 23 matters were the types of possible
violations that were self-reported by field divisions in the past, as noted in
Section I above.122 Thirteen of the remaining 14 matters involved
discrepancies between the NSL approval ECs and the corresponding NSLs,
the acquisition of records beyond the time period requested in the NSL, and
the acquisition of a consumer full credit report and telephone toll billing
records that were not requested by the NSLs. We believe that many of these
infractions occurred because case agents and analysts do not carefully
review the text of national security letters, do not consistently cross check
the approval ECs with the text of proposed national security letters, and do
not verify upon receipt that the information supplied by the NSL recipients
matches the requests. We also question whether case agents or analysts
reviewed the records provided by the NSL recipients to determine if records
were received beyond the time period requested or, if they did so,
determined that the amount of excess information received was negligible
and did not need to be reported. (U)
       Our review also found that the FBI did not issue comprehensive
guidance describing the types of national security letter-related infractions
that need to be reported to FBI-OGC as possible IOBs until November 2006.
During our review, we noted frequent exchanges between Division Counsel
and NSLB attorneys about what should and should not be reported as
possible IOB violations involving NSLs which we believe showed significant
confusion about the reporting requirements. However, the FBI did not issue
comprehensive guidance about national security letter-related infractions
until more than 5 years after the Patriot Act was enacted. 123 We believe the
lack of guidance contributed to the high rate of unreported possible IOB
violations involving national security letters that we found. (U)




        122 These included issuing national security letters when the investigative authority
had lapsed, issuing full credit report FCRA national security letters in a counterintelligence
investigation, and unauthorized collections resulting from FBI typographical errors or
third-party errors. (U)
        12 3 The Inspection Division guidance dated February 10, 2005, generally described
the revised procedures for reporting possible IOB violations. But this guidance did not
address possible IOB violations that could arise from the FBI's expanded use of national
security letters after the Patriot Act. (U)

                                             86
                                       ~
III.   Improper Use of National Security Letter Authorities by Units in
       FBI Headquarters' Counterterrorism Division Identified by the
       OIG (U)
      We identified two ways in which FBI Headquarters units in the
Counterterrorism Division circumvented the requirements of national
security letter authorities or issued NSLs contrary to the Attorney General's
NSI Guidelines and internal FBI policy. First, we learned that on over 700
occasions the FBI obtained telephone toll billing records or subscriber
information from 3 telephone companies without first issuing NSLs or grand
jury subpoenas. Instead, the FBI issued so-called "exigent letters" signed by
FBI Headquarters Counterterrorism Division personnel who were not
authorized to sign NSLs. In many instances there was no pending
investigation associated with the request at the time the exigent letters were
sent. In addition, while some witnesses told us that many exigent letters
were issued in connection with fast-paced investigations, many were not
issued in exigent circumstances, and the FBI was unable to determine
which letters were sent in emergency circumstances due to inadequate
recordkeeping. Further, in many instances after obtaining such records
from the telephone companies, the FBI issued national security letters after
the fact to "cover" the information obtained, but these after-the-fact NSLs
sometimes were issued many months later. (U)
      Second, we determined that FBI Headquarters personnel regularly
issued national security letters seeking electronic communication
transactional records exclusively from "control files" rather than from
"investigative files," a practice not permitted by FBI policy. If NSLs are
issued exclusively from control files, the NSL approval documentation does
not indicate whether the NSLs are issued in the course of authorized
investigations or whether the information sought in the NSLs is relevant to
those investigations. Documentation of this information is necessary to
establish compliance with NSL statutes, the Attorney General's NSI
Guidelines, and internal FBI policy. (U)
     We describe below these practices, how they were discovered, and
what actions the FBI took to address the issues. (U)

       A.   Using "Exigent Letters" Rather Than ECPA National
            Security Letters (U)
      The Communications Exploitations Section (CXS) in the
Counterterrorism Division at FBI Headquarters analyzes terrorist
communications in support of the FBI's investigative and intelligence
mission. One of the units in the CXS is the Communications Analysis Unit
(CAU), established in approximately July 2002. The CAU's mission is to
exploit terrorist communications and provide actionable intelligence to the
Counterterrorism Division. (U)

                                     87
       The CAU is designated an "operational support unit" rather than an
operational unit. The consequence of this status is that under FBI internal
policy the CAU cannot initiate counterterrorism investigations under the
NSI Guidelines and cannot issue national security letters. NSLB attorneys
told us that to the extent the CAU wants to obtain telephone toll billing
records or other records under the ECPA NSL statute, the CAU has two
options. One, it can ask the Headquarters Counterterrorism Division or an
appropriate field division counterterrorism squad to issue a national
security letter from an existing investigation to which the request was
relevant. In those instances, as described in Chapter Three, in order to
meet the NSI Guidelines' and ECPA standards, the CAU needs to generate
approval memoranda articulating the relevance of the information sought to
the pending investigation. Alternatively, if there is no pending investigation,
the CAU can ask Headquarters operating units in the Counterterrorism
Division or field office squads to: a) open a new counterterrorism
investigation based on predication the CAU supplies that is sufficient to
meet the NSI Guidelines and the ECPA, and b) issue a national security
letter seeking information relevant to the new investigation. (U)
       As discussed in Chapter Three, only Special Agents in Charge of the
FBI's field offices and specially delegated senior Headquarters officials are
authorized to issue national security letters. (U)

             1.    FBI Contracts With Three Telephone Companies (U)
       Following the September 11 attacks, the FBI's New York Division
formed a group to assist in the analysis of telephone toll billing records that
were needed for the criminal investigations of the 19 hijackers. A small
group of agents and analysts assigned to examine the communication
networks of the terrorists evolved into a domestic terrorism squad in the
New York Division known as DT-6. During this time, the FBI's New York
Division developed close working relationships with private sector
companies, including telephone companies that furnished points of contact
to facilitate the FBI's access to records held by these companies, including
telephone records. The Supervisory Special Agent (SSA) who supervised
DT-6 told us that he obtained Headquarters approval of and Headquarters
financing for an arrangement whereby a telephone company representative
would work with the New York Division to expedite the FBI's access to the
telephone company's databases. (U)
      The SSA said that case agents on DT-6 generally provided grand jury
subpoenas to the telephone company prior to obtaining telephone records.
The grand jury subpoenas issued to the telephone company were signed by
Assistant United States Attorneys who worked with FBI agents in the




                                      88

                                  ~
criminal investigations growing out of the September 11 attacks.124
However, in the period following the September 11 attacks, instead of
initially sending a grand jury subpoena the case agents frequently furnished
a "placeholder" to the telephone company in the form of a letter stating, in
essence, that exigent circumstances supported the request. These
"placeholder" letters - also referred to as "exigent letters" - were signed by
SSAs or subordinate squad personnel.125 (U)
      Between late 2001 and the spring of 2002, the value of the FBI's
access to the telephone company prompted the FBI to enter into contracts
with three telephone companies between May 2003 and March 2004. The
requests for approval to obligate funds for each of these contracts referred to
the Counterterrorism Division's need to obtain telephone toll billing data
from the communications industry as quickly as possible. The three
memoranda stated that: (U)
       Previous methods of issuing subpoenas or National Security
       Letters (NSL) and having to wait weeks for their service, often
       via hard copy reports that had to be retyped into FBI databases,
       is insufficient to meet the FBI's terrorism prevention mission.
       (U)
The three memoranda also stated that the telephone companies would
provide "near real-time servicing" of legal process, and that once legal
process was served telephone records would be provided. (U)
      The CAU worked directly with telephone company representatives in
connection with these contracts. Moreover, on the FBI's Intranet web site,
CAU referenced its capacity to facilitate the acquisition of telephone records
pursuant to the contracts. CAU presentations to counterterrorism squads
in several field divisions also described the unit's capabilities, including its
access to telephone company records. The slides used in CAU presentations
referred to the CAU's ability to "provide dedicated personnel to service
subpoenas/NSLs 24 x 7." In describing how the CAU should receive
requests from the field, the slides noted that




        124 The SSA told us that an attorney with the telephone company established a
tracking system to ensure that grand jury subpoenas were issued to cover all of the records
obtained from the telephone company employees. The SSA also said that he checked
regularly with a point of contact at the telephone company to determine if the FBI had
fallen behind in providing legal process for these records. The SSA said he was confident
that grand jury subpoenas were issued to cover every request. (U)
         12 5 The SSA said that DT-6 case agents would sometimes provide the placeholder
letters to the telephone company to initiate the search for records. The SSA said that in
most instances by the time the records were available, a grand jury subpoena was ready to
be served for the records. (U)

                                            89
                                      ~
       Field office prepares NSL or FGJS for CAU to serve on
       appropriate telecom provider. (U)
              -- Once paper received, CAU will obtain tolls/ call details.
       (U)
       Thus, from this presentation, it appears that the CAU contemplated
that the FBI would serve national security letters or grand jury subpoenas
prior to obtaining telephone toll billing records and subscriber information
pursuant to the three contracts, in conformity with the ECPA NSL
statute. 126 (U)
        The Assistant Director of the Counterterrorism Division told us that
based on numerous FBI briefings he received during his tenure, he directed
his subordinates to contact the CXS Section Chief to ensure that the
capabilities of the three companies were used. However, he also told us that
he was unaware that any of the three companies were providing telephone
toll billing records without first receiving duly authorized national security
letters. (U)

              2.      The Exigent Letters to Three Telephone Companies
                      (U)
       The SSA who supervised DT-6 following the September 11 attacks told
us that by late 2001 he and other DT-6 personnel were assigned to assist in
the establishment of CAU at FBI Headquarters, and that they would have
brought with them to Headquarters a copy of the exigent letter that had
been used in the criminal investigations of the September 11 attacks to
obtain information from the telephone company in New York. This letter
was used by CAU personnel as a model to generate requests to the three
telephone companies under contract with the FBI to provide telephone toll
billing records or subscriber information. These exigent letters typically
stated: (U)
       Due to exigent circumstances, it is requested that records for
       the attached list of telephone numbers be provided. Subpoenas
       requesting this information have been submitted to the U.S.
       Attorney's Office who will process and serve them formally to
       [information redacted] as expeditiously as possible. (U)
      In response to our request, the FBI provided the OIG copies of 739
exigent letters addressed to the three telephone companies dated between


       12 6 NSLB attorneys told us that NSLB attorneys were not consulted about the three
contracts with the telephone companies or the procedures and administrative steps that
CAU took following their implementation to obtain telephone toll billing records pursuant to
the contracts. The FBI-OGC attorneys and a former CAU Unit Chief told us that to their
knowledge the only OGC lawyers involved in reviewing the contracts were procurement
lawyers. (U)

                                            90
                                       ~
March 11, 2003, and December 16, 2005, all but 4 of which were signed.
The signed exigent letters included 3 signed by CXS Assistant Section
Chiefs, 12 signed by CAU Unit Chiefs, 711 signed by CAU Supervisory
Special Agents, 3 signed by CAU special agents, 2 signed by intelligence
analysts, 1 signed by an intelligence operations specialist, and 3 that
contained signature blocks with no titles. Together, the 739 exigent letters
requested information on approximately 3,000 different telephone numbers.
The three highest volume exigent letters sought telephone toll billing or
subscriber information on 117, 125, and 171 different telephone numbers.
(U)
       We determined that contrary to the provisions of the contracts and
the assertions in CAU's briefings that the FBI would obtain telephone
records only after it served NSLs or grand jury subpoenas, the FBI obtained
telephone toll billing records and subscriber information prior to serving
NSLs or grand jury subpoenas. Moreover, CAU officials told us that
contrary to the assertion in the exigent letters, subpoenas requesting the
information had not been provided to the U.S. Attorney's Office before the
letters were sent to the telephone companies. Two CAU Unit Chiefs said
they were confident that national security letters or grand jury subpoenas
were ultimately issued to cover the FBI's receipt of information acquired in
response to the exigent letters. The Unit Chiefs said that they relied on the
telephone company representatives to maintain a log of the requests and to
let CAU personnel know if any NSLs or grand jury subpoenas were needed.
However, the Unit Chiefs acknowledged that because the CAU did not
maintain a log to track whether national security letters or grand jury
subpoenas were issued to cover the exigent letter requests and did not
maintain signed copies of the exigent letters, they could not provide
documentation to verify that national security letters or grand jury
subpoenas were in fact issued to cover every exigent letter request. (U)
       Pursuant to administrative subpoenas, the OIG obtained from the
three telephone companies copies of national security letters and grand jury
subpoenas that the FBI served on the telephone companies in connection
with FBI requests for telephone toll billing records or subscriber information
from 2003 through 2005. The three telephone companies provided 474
national security letters and 458 grand jury subpoenas. However, CAU
personnel told us that some of these NSLs and grand jury subpoenas were
not related to the exigent letters and that CAU could not isolate which NSLs
or grand jury subpoenas given to the OIG by the telephone companies were
associated with the exigent letters. CAU officials told us that the only way
the CAU could attempt to associate an exigent letter with a national security
letter or grand jury subpoena was to query the ACS database system with
the telephone numbers referenced in the exigent letters. Because the CAU
officials stated that this would be a labor intensive exercise, we asked them
to query ACS for the NSLs, grand jury subpoenas, or related documentation

                                     91
associated with 88 exigent letters that we randomly selected from the 739
exigent letters provided to us by the FBI. (U)
       The FBI provided the results of ACS queries for the first 25 of the 88
letters. To try to demonstrate that it issued either national security letters
or grand jury subpoenas to cover the FBI's acquisition of the records
obtained in response to the exigent letters, the FBI pointed to various
documents ranging from unsigned national security letters to e-mails
referencing the telephone number listed in the exigent letters. Yet, the
documents did not demonstrate that national security letters or grand jury
subpoenas were issued to cover the records requested in the exigent letters.
These documents included: (U)
       •      Unsigned copies of 14 national security letters. The FBI provided
              approval ECs associated with only 8 of these 14 NSLs. Two of the
              NSLs were dated before the date of the corresponding exigent
              letters, three bore the same date as the corresponding exigent
              letters, and nine were dated after the date of the corresponding
              exigent letters. One of the unsigned NSLs was dated 481 days
              after the date of the corresponding exigent letter, and the rest were
              dated between 6 and 152 days after the corresponding exigent
              letters. Two unsigned NSLs were dated 10 and 13 days prior to the
              date of the corresponding exigent letters. (U)
       •      Two ECs seeking approval to issue a national security letters, but
              no copies of the national security letters themselves. (U)
       •      An e-mail dated 16 days prior to the date of the exigent letter
              asking CAU to "check" 7 telephone numbers, one of which was
              referenced in the exigent letter, and a note to the file indicating
              that the FBI had received records 10 days after the date of an
              exigent letter in response to a grand jury subpoena to 1 of the 3
              telephone companies.121 (U)
       •      For the remaining eight exigent letters, documentation that did not
              reference directly or indirectly that national security letters had
              been issued relating to the records requested in the exigent
              letters. 128 (U)


        127 We cannot ascertain whether the subpoena was issued before or after the date
of the "exigent letter." (U)
       12 8 These documents included references to analyses of telephone data (5), an EC
approving the closing of a preliminary investigation that was initiated after the date of the
corresponding exigent letter (1), an EC documenting service of an NSL on a different
telephone company than the one listed in the exigent letter (1); and an incomplete draft of
an NSL requesting records listed in the corresponding exigent letter (1). We did not regard
these to be reliable evidence that national security letters were issued in these instances for
the records sought in the corresponding exigent letters. (U)

                                              92
       In sum, of the 88 exigent letters we randomly selected from the 739
exigent letters, the FBI produced unsigned national security letters for only
14 of the first 25 exigent letters. The documents provided for the first 25
exigent letters showed that the FBI would be unable to provide reliable
documentation to substantiate that national security letters or other legal
process was issued to cover the records obtained in response to many of the
exigent letters. Therefore, because of this clear finding in the first 25 letters
and the labor intensive nature of the exercise, we did not ask the FBI to
complete the sample of 88 letters. (U)

             3.    Absence of Investigative Authority for the Exigent
                   Letters (U)
       As discussed in Chapter Three, the national security letter statutes,
the Attorney General's NSI Guidelines, and internal FBI policy require that
Special Agents in Charge of field divisions or specially delegated
Headquarters officials certify that the information sought in the national
security letter is relevant to an authorized investigation. Since passage of
the Patriot Act, the information requested in certain national security letters
does not need to relate to the subject of the FBI's investigation, but can
relate to other individuals as long as the information requested is relevant to
an authorized national security investigation. (U)
       A former CAU Unit Chief told us that many of the exigent letters were
generated in connection with significant Headquarters-based investigations
as well as investigations in which the FBI provided assistance to foreign
counterparts, such as investigations of the July 2005 London bombings. In
some instances, CAU personnel said that the requests directed to CAU were
communicated by senior Headquarters officials who characterized the
requests as urgent. However, when CAU personnel gave the exigent letters
to the three telephone companies, they did not provide to their supervisors
any documentation demonstrating that the requests were related to pending
FBI investigations, and many exigent letters were not sent in exigent
circumstances. As described in Chapter Three, these are required elements
for NSL approval documentation necessary to establish compliance with the
ECPA NSL statute, the NSI Guidelines, and internal FBI policy. Moreover,
we learned from interviews of CAU personnel and FBI documents that when
CAU requested telephone records from the three telephone companies
pursuant to exigent letters, there sometimes were no open or pending
national security investigations tied to the request. (U)
       We found that in the absence of a pending investigation CAU sent
leads either to the Headquarters Counterterrorism Division (ITOS-1 or
ITOS-2) or to field offices asking them to initiate new investigations from
which the after-the-fact NSLs could be issued. However, CAU personnel
told us that the Counterterrorism Division units and field personnel often
resisted generating the documentation for these new investigations or

                                       93
declined to act on the leads, primarily for three reasons. First, CAU often
did not provide the operating units with sufficient information to justify the
initiation of an investigation. Second, on some occasions, the
documentation CAU supplied to the field divisions did not disclose that the
FBI had already obtained the information from the telephone companies. 12 9
When the field offices learned that the records had already been received,
they complained to NSLB attorneys that this did not seem appropriate.
Third, since Headquarters and field divisions were unfamiliar with the
reasons underlying the requests, they believed that the CAU leads should
receive lower priority than their ongoing investigations. (U)
       We concluded that, as a consequence of the CAU's use of the exigent
letters to acquire telephone toll billing records and subscriber information
from the three telephone companies without first issuing NSLs, CAU
personnel circumvented the ECPA NSL statute and violated the NSI
Guidelines and internal FBI policies. These matters were compounded by
the fact that CAU used exigent letters in non-emergency circumstances,
failed to ensure that there were duly authorized investigations to which the
request could be tied, and failed to ensure that NSLs were issued promptly
after the fact pursuant to existing or new counterterrorism investigations.
(U)

              4.     Efforts by the FBI's National Security Law Branch to
                     Conform CAU's Practices to the Electronic
                     Communications Privacy Act (U)
       NSLB attorneys responsible for providing guidance on the FBI's use of
national security letter authorities told us that they were not aware of the
CAU's practice of using exigent letters until late 2004. When an NSLB
Assistant General Counsel learned of the practice at that time, she believed
that the practice did not comply with the ECPA national security letter
statute. Our review of contemporaneous e-mail communications and our
interviews of CAU and NSLB personnel found that for nearly 2 years,
beginning in late 2004, NSLB attorneys counseled CAU officials to take a
variety of actions, including: discontinue use of exigent letters except in
true emergencies; obtain more details to be able to justify associating the
information with an existing national security investigation or to request the
initiation of a new investigation; issue duly authorized national security
letters promptly after the records were provided in response to the exigent
letters; modify the letters to reference national security letters rather than

       12 9  Similarly, when CAU on occasion asked the NSLB Deputy General Counsel to
issue national security letters to cover information already obtained from the telephone
companies in response to the exigent letters, CAU sometimes did not disclose in the
approval documentation that the records already had been provided in response to the
exigent letters. An NSLB Assistant General Counsel complained to CAU personnel about
these omissions in December 2004. (U)
                                            94
                                      ~
grand jury subpoenas; and consider opening "umbrella" investigations out
of which national security letters could be issued in the absence of another
pending investigation. 130 In addition, NSLB offered to dedicate personnel to
expedite issuance of CAU NSL requests (as it had done for other high
priority matters requiring expedited NSLs). However, CAU never pursued
this latter option. (U)
      In June 2006, NSLB provided revised models for exigent letters to the
Counterterrorism Division that stated that NSLs (rather than grand jury
subpoenas) would be processed and served upon the telephone companies
as expeditiously as possible. Pursuant to NSLB advice, the FBI continued to
issue exigent letters since June 2006, using the new model letters. (U)
       As of March 2007, the FBI is unable to determine whether NSLs or
grand jury subpoenas were issued to cover the exigent letters. However, at
FBI-OGC's direction, CAU is attempting to determine if NSLs were issued to
cover the information obtained in response to each of the exigent letters. If
CAU is unable to document appropriate predication for the FBI's retention
of information obtained in response to the exigent letters, the Deputy
General Counsel of NSLB stated that the FBI will take steps to ensure that
appropriate remedial action is taken. Remedial action may include purging
of information from FBI databases and reports of possible IOB violations.
(U)
       The Assistant General Counsel also told us that a different provision
of ECPA could be considered in weighing the legality of the FBI's use of the
exigent letters: the provision authorizing voluntary emergency disclosures
of certain non-content customer communications or records (18 U.S.C.
§ 2702(c)(4)).131 The Assistant General Counsel stated that while the FBI



        130 The Assistant General Counsel at first proposed the establishment of six
"generic" or "umbrella'' investigations files representing the recurring types of threats
investigated by the Counterterrorism Division. The proposal contemplated that the FBI
would issue national security letters from these files in exigent circumstances when there
were no other pending investigations to which the request could be tied. After obtaining
approval from NSLB supervisors to pursue this approach, the CAU Unit Chief told the
NSLB Assistant General Counsel in September 2005 that generic national security
investigations would not be needed because, contrary to his earlier statements, CAU would
be able to connect each exigent letter request with an existing Headquarters or field
division-initiated national security investigation. The Assistant General Counsel told us
that she also was informed at this time by the CAU Unit Chief that the emergency requests
were "few and far between." (U)
       131   18 U.S.C. § 2702 (c) provides: (U)
       Voluntary disclosure of customer communications or records.
       * * *
       (c) Exceptions for disclosure of customer records. - A provider described in
       subsection (a) may divulge a record or other information pertaining to a
                                              95
did not rely upon this authority in issuing the exigent letters from 2003
through 2005, the FBI's practice may in part be justified by the ECPA's
recognition that emergency disclosures may be warranted in high-risk
situations. The Assistant General Counsel argued that in serving the
exigent letters on the telephone companies the FBI did its best to reconcile
its mission to prevent terrorist attacks with the strict requirements of the
ECPA NSL statute. (U)
      The FBI General Counsel told us that the better practice in exigent
circumstances is to provide the telephone companies letters seeking
voluntary production pursuant to the emergency voluntary disclosure
provision of 18 U.S.C. § 2702 (c)(4) and to follow up promptly with NSLs to
document the basis for the request and capture statistics for reporting
purposes. But the General Counsel said that, if challenged, the FBI could
defend its past use of the exigent letters by relying on the ECPA voluntary
emergency disclosure authority. The General Counsel also noted that the
manner in which FBI personnel are required to generate documentation to
issue NSLs can make it appear to an outsider that the records were
requested without a pending investigation when in fact there is a pending
investigation that is not referenced in the approval documentation due to
the FBI's recordkeeping and administrative procedures.132 (U)

               5.     OIG Analysis of Exigent Letters (U)
       The FBI entered into contracts with three telephone companies in CY
2003 and CY 2004 for the purpose of obtaining quick responses to requests
for telephone toll billing records and subscriber information. The
documentation associated with the contracts indicated that the telephone
companies expected to receive, and the FBI agreed to provide, national
security letters or other legal process prior to obtaining the responsive
records. Moreover, when the CAU described its mission to field personnel, it
told them that the CAU expected to receive national security letters or other


(cont'd.)
       subscriber to or customer of such service (not including the contents of
       communications covered by subsection (a)(l) or (a)(2)) ...
       * * *
       (4) to a governmental entity, if the provider, in good faith, believes than an
       emergency involving danger or death or serious physical injury to any person
       requires disclosure without delay of information relating to the
       emergency; . . . . (U)
       13 2 FBI-OGC attorneys told us that the FBI's acquisition of telephone toll billing
records and subscriber information in response to the exigent letters has not been reported
to the IOB as possible violations of law, Attorney General Guidelines, or internal FBI policy.
We believe that under guidance in effect during the period covered by our review these
matters should be reported as possible IOB violations. (U)

                                             96

                                        ~
legal process before it obtained the records from the telephone companies.
Neither the former Executive Assistant Director of the Counterterrorism and
Counterintelligence Divisions nor any other Headquarters official told us
that they approved the FBI's acquisition of records from the three telephone
companies other than in response to duly authorized national security
letters. Yet, the CAU issued over 700 exigent letters, rather than national
security letters, to obtain telephone toll billing records information relating
to over 3,000 different telephone numbers. (U)
       We found three additional problems with the CAU's exigent letters.
First, each of the 739 exigent letters seeking telephone toll billing and
subscriber records was signed by CAU Unit Chiefs and subordinate CAU
personnel who were not authorized to issue national security letters under
the ECPA and internal FBI policy. Second, when the CAU asked
Headquarters or field divisions to issue national security letters after the
fact in connection with existing investigations or to initiate new
investigations from which the national security letters could be issued, the
CAU generally did not inform other FBI employees that the records had
already been obtained from the three telephone companies. Third, when the
CAU asked Headquarters and field divisions to open new investigations out
of which they could generate NSLs after the fact, CAU did not consistently
provide information establishing predication for the request that was
necessary to satisfy the ECPA NSL statute, the Attorney General's NSI
Guidelines, and internal FBI policy. (U)
       We are not convinced by the legal justifications offered by FBI
attorneys during this review for the FBI's acquisition of telephone toll billing
records and subscriber information in response to the exigent letters
without first issuing NSLs. The first justification offered was the need to
reconcile the strict requirements of the ECPA NSL statute with the FBI's
mission to prevent terrorist attacks. While the FBI's priority
counterterrorism mission may require streamlined procedures to ensure the
timely receipt of information in emergencies, the FBI needs to address the
problem by expediting the issuance of national security letters or seeking
legislative modification to the ECPA voluntary emergency disclosure
provision for non-content records. Moreover, the FBI's justification for the
exigent letters was undercut because they were (1) used, according to
information conveyed to an NSLB Assistant General Counsel, mostly in
non-emergency circumstances, (2) not followed in many instances within a
reasonable time by the issuance of national security letters, and
(3) not catalogued in a fashion that would enable FBI managers or anyone
else to validate the justification for the practice or the predication required
by the ECPA NSL statute. (U)
      We also disagree with the FBI's second justification: that use of the
exigent letters could be defended as a use of ECPA's voluntary emergency
disclosure authority for acquiring non-content information pursuant to 18
                                       97
                                  ~
U.S.C. § 2702(c)(4). First, we found that the exigent letters did not request
voluntary disclosure. The letters stated, "Due to exigent circumstances, it is
requested that records ... be provided" but added, "a subpoena requesting
this information has been submitted to the United States Attorney's Office
and "will be processed and served formally ... as expeditiously as possible."
In addition, we found that the emergency voluntary disclosure provision was
not relied upon by the CAU at the time, the letters were not signed by FBI
officials who had authority to sign ECPA voluntary emergency disclosure
letters, and the letters did not recite the factual predication necessary to
invoke that authority.133 (U)
       We also are troubled that the FBI issued exigent letters that contained
factual misstatements. The exigent letters represented that "[s]ubpoenas
requesting this information have been submitted to the U.S. Attorney's
Office who will process and serve them formally to [information redacted] as
expeditiously as possible." In fact, in examining the documents CAU
provided in support of the first 25 of the 88 randomly selected exigent
letters, we could not confirm one instance in which a subpoena had been
submitted to any United States Attorney's Office before the exigent letter
was sent to the telephone companies. Even if there were understandings
with the three telephone companies that some form of legal process would
later be provided to cover the records obtained in response to the exigent
letters, the FBI made factual misstatements in its official letters to the
telephone companies either as to the existence of an emergency justifying
shortcuts around lawful procedures or with respect to steps the FBI
supposedly had taken to secure lawful process. (U)
       In evaluating these matters, it is also important to recognize the
significant challenges the FBI was facing during the period covered by our
review. After the September 11 terrorist attacks, the FBI implemented
major organizational changes to seek to prevent additional terrorist attacks
in the United States, such as overhauling its counterterrorism operations,
expanding its intelligence capabilities, beginning to upgrade its information
technology systems, and seeking to improve coordination with state and
local law enforcement agencies. These changes occurred while the FBI and
its Counterterrorism Division has had to respond to continuing terrorist
threats and conduct many counterterrorism investigations, both
internationally and domestically. In addition, the FBI developed specialized
operational support units that were under significant pressure to respond
quickly to potential terrorist threats. It was in this context that the FBI
used exigent letters to acquire telephone toll billing records and subscriber


         133 Internal FBI guidance states that the only FBI officials authorized to sign
voluntary emergency disclosure requests pursuant to 18 U.S.C. § 2702(c)(4) are Special
Agents in Charge, Assistant Special Agents in Charge, Section Chiefs, or more senior
officials. (U)

                                            98
                                        ~
information on approximately 3,000 different telephone numbers without
first issuing ECPA national security letters. We also recognize that the FBI's
use of so-called "exigent letters" to obtain the records without first issuing
NSLs was undertaken without the benefit of advance legal consultation with
FBI-OGC. (U)
       However, we believe none of these circumstances excuses the FBI's
circumvention of the requirements of the ECPA NSL statute and its
violations of the Attorney General's NSI Guidelines and internal FBI policy
governing the use of national security letters. (U)

       B.       National Security Letters Issued From Headquarters Control
                Files Rather Than From Investigative Files (U)
      As discussed in Chapter Three, the national security letter statutes
and the Attorney General's NSI Guidelines authorize the issuance of
national security letters only if the information sought is relevant to an
"authorized investigation." Within the FBI, the only types of investigations
in which national security letters may be used are national security
investigations. (U)
        FBI internal policy also distinguishes between "investigative files" and
"administrative files." Numerical codes are used to designate the FBI's
various investigative programs, and other unique designations are used to
establish non-investigative files, sometimes referred to as "control files" or
"repository" files. The FBI's National Foreign Intelligence Program (NFIP)
Manual states that investigative activity may not be conducted from control
files, and that NSLs may only be issued in the course of national security
investigations.134 (U)
      However, we found that the FBI on occasion relied exclusively on
"control files" rather than "investigative files" to initiate approval for the
issuance of national security letters, in violation of internal FBI policy.
Moreover, this practice made it difficult for FBI supervisors and others
reviewing the proposed national security letters to determine if the required
statutory predicate had been satisfied and whether the information sought
was relevant to an authorized investigation in accordance with the NSI
Guidelines. (U)




       134   Section 19-03(L)(l) of the NFIP Manual states: (U)
       [C]ontrol files are separate files established for the purpose of administering
       specific phases of an investigative matter or program and would not be
       considered a [preliminary investigation] or [full investigation.]
July 25, 2004. (U)

                                             99
                                         ~
              1.     National Security Letters Issued From a Headquarters
                     Special Project Control File (U)
       During the first quarter of 2003, the FBI began to issue national
security letters in connection with a classified special project. From 2003
through 2005, the CAU initiated NSL approval memoranda for
approximately 300 national security letters in connection with this project,
which were generated from a Headquarters control file. All of the resulting
NSLs sought telephone toll billing records, subscriber information, or
electronic communication transactional records pursuant to the ECPA NSL
statute. From the information available during the OIG review, it appears
that all of the national security letters were served on the communications
provider before any records were given to the FBI, and none of the
information sought arose in emergency circumstances. The approval ECs
for these NSLs do not refer to the case number of any specific pending FBI
investigation.135 (U)
       As noted above, CAU officials are not authorized to sign national
security letters. A former CAU Unit Chief told us that, as a result, during
the early phase of the project the CAU sent leads to field offices to initiate
the process to issue these national security letters, but the CAU often met
resistance. The Unit Chief said that some field offices responded diligently
and pursued investigative activity to establish predication for opening a new
counterterrorism investigation, while others did nothing. (U)
      To address the problem of issuing national security letters in the
absence of timely field support, the CAU provided additional training to field
personnel. In addition, the Unit Chief said that the Counterterrorism
Division opened a special project control file from which the CAU sought
approval from NSLB to issue national security letters for subscriber
information. The CAU had used information in the control file to check
indices to determine whether there was a nexus to terrorism that justified
further investigative activity. (U)
       The classified nature of the project was such that few FBI
Headquarters officials or OGC attorneys were authorized to know the
predication for the NSL requests. This led to frustration and delays when
field divisions were asked to respond to the CAU leads for the project.
Because the CAU provided limited information about the predication for the
leads to field offices, field-based counterterrorism squads sometimes opened
threat assessments because they were not able to establish the required
predication to open a national security investigation. In these instances,


        135 When we examined a sample of the approval ECs for these NSLs, we noted that
some referred to telephone numbers or e-mail accounts believed to be associated with
terrorist networks, while others stated that CAU had developed information from public and
other sources identifying telephone numbers in contact with known terrorists. (U)
                                           100

                                      ~
national security letters could not be issued in response to the CAU leads to
field offices. (U)
      In December 2006, after considering a number of options that would
comply with the ECPA NSL statute, the Attorney General's NSI Guidelines,
and internal FBI policy, the FBI initiated an "umbrella" investigative file
from which national security letters related to this classified project could be
issued. (U)

                 2.       National Security Letters Issued by the Electronic
                          Surveillance Operations and Sharing Unit (U)
      The second circumstance we identified in the review in which national
security letters were issued solely from control files related to leads sent by
the Counterterrorism Division's Electronic Surveillan~~.w.:..,;1;,,,1,o1,.w..:o.:..1.1.0.1...1o1.i.t.i...___...,
                                                                                                                   bl
                                                                                                                   b3




      An EOPS Unit Chief told us that EOPS initiated requests for national
security letters in two circumstances. The first and most frequent
circumstance was when field offices or Headquarters operational units
requested EOPS' assistance in vetting subscriber information about some
form of Internet usage. In these circumstances, the EC seeking approval for
the national security letter would reference a "dual caption": the field or
Headquarters division's investigative file number and the EOPS control file
number. EOPS personnel told us that the FBI issued approximately 214
national security letters from 2003 through 2005 under "dual captions" that
included an EOPS control file number. (U)
      The second and rarer circumstance occurred when, in the absence of
a pending Headquarters or field-based national security investigation, EOPS
sought approval for issuance of national security letters to verify subscriber
or other information when EOPS alone developed the predication to support
the request. These EOPS requests were prepared and forwarded for
approval and issuance by the NSLB Deputy General Counsel. In these
circumstances, EOPS assumed the role of "office of origin" for purposes of
the request to NSLB. Documentation provided to us by the FBI indicated
that the FBI sent six national security letters from 2003 through 2005 solely


         136The Electronic Communication (EC) seeking approval to open this control file
stated that its purpose was to "serve as a repository for communications concerning EOPS
special projects, technical exploitation operations, and for tracking leads and taskings
outside of EOPS operational case files." This type of approval EC would not reference
investigative activity or facts supporting investigative activity. The subfile created in June
2005 from which the national security letters discussed in this section were issued also did
not reference contemplated investigative activity. (U)
                                                     101
                                               ~
on the authority of control files.137 The six NSLs sought information from
Internet service providers. The requests for information initiated by EOPS
were in the form of duly authorized national security letters prepared for the
signature of the NSLB Deputy General Counsel. The national security
letters sought electronic communication transactional records, including the
name, address, length of service, and billing records associated with
specified e-mail addresses. (U)
       As discussed in Chapter Three, the approval EC accompanying an
NSL request must document the predication for the national security letter
by stating why the information is relevant to an authorized investigation.
Yet, none of the six approval ECs accompanying the requests for these NSLs
referred to the case number of any specific pending FBI investigation. 138 (U)
      A new EOPS Unit Chief recognized in August 2005 that the nature
and quality of the work EOPS was generating out of the control file went
beyond the conventional use of a control file. The EOPS Unit Chief began
consulting with NSLB attorneys to make EOPS' "internal policies and
procedures" conform to the FBI's national security letter practices. In
December 2005, the Unit Chief sent an e-mail to an NSLB attorney
acknowledging that EOPS was using a control file to seek Headquarters
approval for the issuance of national security letters in response to
numerous "hot projects," and that the Attorney General's NSI Guidelines
require that a national security investigation be opened in order to issue
national security letters. The Unit Chief noted that NSLB had approved
using an EOPS repository or control file for certain unrelated purposes and
asked if that control file could also be used for generating requests to issue
national security letters. (U)
       The EOPS Unit Chief told us, however, that in his opinion EOPS was
in compliance with FBI policy and the "spirit" of the Attorney General's
Guidelines when it sought national security letters using EOPS as the "office
of origin" because (1) the control file contained adequate information to
support predication for a national security investigation; and (2) issuance of
a national security letter did not constitute a "investigation" within the


       137 Three of the approval ECs referenced only an EOPS control file, while the three
remaining approval ECs referenced an FBI legat office control file. (U)
        Problems with the FBI's NSL database make it impossible to determine the precise
number of national security letters the FBI issued in this second category. The database's
limitations are discussed in Chapter Four and in the Classified Appendix. (U)
       138   Three of the six approval ECs sought issuance of ECPA NSLs regarding e-mail
addresses identified as being used by a suspected terrorist. The remaining approval ECs
sought records pertaining to an e-mail address identified as being associated with a
terrorist group, an e-mail account that was in contact with e-mail accounts identified
through FISA authorities, and an e-mail address that generated a threat to an intelligence
community complaint center. (U)
                                            102

                                       ~
meaning of the Attorney General Guidelines. The Unit Chief noted that the
NSLB Deputy General Counsel had been signing the national security
letters, the predication was there, and it was "common sense" that issuing a
national security letter was not a "full blown investigation." In the Unit
Chief's view, so long as EOPS developed the requisite predication, the EOPS
control file would serve as the investigation that would justify issuance of a
national security letter because of the "uniqueness of the situation." (U)
According to the Unit Chief, this would comply with the "spirit of the law,"
but not the letter of the law. (U)
       The NSLB Deputy General Counsel told us that in reviewing the
documentation associated with national security letters generated by EOPS
that she was asked to sign, she did not focus on the caption of the approval
EC but rather on the factual recitation and whether the letter sought
information on a "U.S. person" that impinged on First Amendment
activity. 139 However, following questions raised by the OIG in this review,
the NSLB Deputy General Counsel told us that she has advised the EOPS
Unit Chief to discontinue requesting approval of national security letters
issued exclusively out of control files and that, as of December 2006, she
believes her advice has been followed. (U)

              3.      OIG Analysis (U)
       According to the Attorney General's NSI Guidelines and the FBI's NFIP
Manual, the issuance of a national security letter is an investigative
technique that can be used only in connection with a national security
investigation. Moreover, the national security letter statutes and the NSI
Guidelines provide that national security letters may be issued only during
authorized investigations. We believe that adherence to these three
authorities requires that national security letters be issued from
investigative files so that the requesting agent documents the existence of
an authorized investigation and the relevance of the information sought to
that investigation. (U)
       Although the distinction between a "control file" and an "investigative
file" may seem obscure and technical, it is important for purposes of
documenting compliance with the ECPA, the NSI Guidelines, and FBI policy.
Unless national security letters are issued from investigative files, case
agents and their supervisors - and internal and external reviewers - cannot
determine whether the requests are tied to substantive investigations that
have established the required evidentiary predicate for issuing the national
security letters. As the FBI General Counsel told us, the only way to


          139 The caption would have shown whether EOPS was requesting the national
security letter exclusively out of its control file, out of an investigative file from
Headquarters or a field division, or pursuant to a "dual caption" denoting more than one
file. (U)
                                           103

                                      ~
determine if the information requested in a national security letter is
relevant to an authorized investigation is to have an investigative file to
which the national security letter request can be tied or to have the
connection described in the NSL approval EC. Control files are generally
created for storing information that does not yet - and may never - satisfy
the predicate for initiating a national security investigation. In our review,
we found that approval ECs for the special project and EOPS NSLs did not
provide documentation tying the requests to specific pending investigations
or establishing the relevance of the information sought to pending
investigations. (U)
       We believe that the CAU officials and the EOPS Unit Chief concluded
in good faith that the FBI had sufficient predication either to connect these
national security letters with existing investigations or to open new
investigations in compliance with the Attorney General's NSI Guidelines.
We also believe that the EOPS Unit Chief understood that national security
letters should not be issued out of control files. We concluded, however,
that issuing national security letters constitutes investigative activity,
especially when the Attorney General's NSI Guidelines and the NFIP Manual
plainly provide that national security letters are an "investigative technique"
and that control files are not considered to be national security
investigations. (U)
       In sum, we concluded that the Counterterrorism Division's use of
control files rather than investigative files in connection with NSLs related to
a classified special project and related to certain EOPS' activities, was
contrary to internal FBI policy. (U)

IV.   Failure to Adhere to FBI Internal Control Policies on the Use of
      National Security Letter Authorities (U)
       Our review also examined FBI investigative files to determine whether
the field offices' use of national security letters violated FBI internal control
policies. As discussed in Chapter Three, the FBI established procedures for
the approval of national security letters to ensure that the requests
contained sufficient information to allow field supervisors to confirm that
the NSLs complied with applicable legal requirements and FBI policy.
Periodic updates to the NFIP Manual and to the NSLB's Intranet web site
also informed agents of the legal and internal policy requirements for each
type of NSL. In addition, models, or "ponies," of approval electronic
communications (ECs) and NSLs, which were available on the NSLB's
Intranet web site, assisted case agents in completing the necessary
paperwork to secure approval of national security letters. (U)
     The two key documents related to national security letters were the
EC seeking approval to issue the NSL and the national security letter itself.
According to FBI policy, each of these documents was required to reference

                                       104

                                   ~
information required either by the authorizing statutes or by FBI-OGC
guidance. (U)
      In the sections below, we assess whether the national security letter
documents we reviewed complied with these FBI policies. In addition, we
discuss the violations of these policies that we found in our field office
reviews of FBI investigative files. (U)

               1.     Lapses in Internal Controls (U)
       In our review of the 77 investigative files and 293 national security
letters in 4 FBI field offices, we identified repeated failures to adhere to
FBI-OGC guidance regarding the documentation necessary for approval of
national security letters.140 (U)
       We organized these infractions into three categories: (U)
       1)     NSL approval memoranda that were not reviewed and initialed
              by one or more of the required field supervisors or Division
              Counsel; (U)
       2)     NSL approval memoranda that did not contain all of the
              required information; and (U)
       3)     national security letters that did not contain the recitals or
              other information required by the authorizing statutes. (U)
      A large percentage of the investigative files we reviewed - 46 of 77, or
60 percent - contained one or more of these infractions. Nevertheless, in
each of these cases, the national security letters were approved. (U)

                      a.     Failure to Document Review of NSL Approval
                             Memoranda (U)
      The NFIP Manual and FBI-OGC guidance require that before a Special
Agent in Charge signs a national security letter, the approval documents
must be reviewed and initialed by the Supervisory Special Agent or Squad
Leader, the Office of Chief Division Counsel, the Assistant Special Agent in
Charge (ASAC), and the Special Agent in Charge. (U)
       Twenty-two of the 293 approval ECs (7 percent) we reviewed in eight
different investigations did not reflect review or approval by these field
supervisors or Division Counsel. 141 Seventeen of the 22 approval ECs with
these infractions arose during counterterrorism investigations, while 5 arose


       140   Based on our understanding of IOB reporting policies, these infractions did not
rise to the level of possible IOB violations. (U)
       141 Field personnel who are required to review NSLs are supposed to initial the
approval EC. The approval ECs noted in this section did not contain the reviewer's initials,
and we found no other documentation of approval in the investigative files. (U)
                                            105
during counterintelligence investigations. In five of the investigations, the
subject of the investigation was a "U.S. person." In three cases, the subject
of the investigation was a "non-U.S. person." (U)
       The elements missing from the 22 approval ECs were: (U)
       •   3 approval ECs did not reflect review and approval by the Special
           Agents in Charge; (U)
       •   18 approval ECs did not reflect review by the Assistant Special
           Agents in Charge (of which 15 were in a field division that
           suspended the requirement to route NSLs through the ASACs); (U)
       •   8 approval ECs did not reflect review by the Supervisory Special
           Agent; and (U)
       •   3 approval ECs did not reflect review by the Chief Division Counsel
           or Assistant Division Counsel. (U)

                      b.      Failure to Include Required Information in NSL
                              Approval Memoranda (U)
      The NFIP Manual and FBI-OGC guidance require the approval EC to
reference the statute authorizing the information requested; the status of
the investigative subject as a "U.S. person" or "non-U.S. person"; the type
and number of records requested; the predication for the request; leads
showing transmittal of the approval EC to NSLB, the pertinent Headquarters
operational division, and the squad or field division that was to deliver the
national security letter; and the initialed approval of the request by the field
supervisors and Chief Division Counsel. (U)
      We identified 99 of the 293 approval ECs (34 percent) we examined, in
40 different investigations, in which at least one of the four required
elements was missing. 14 2 Thirty of the 40 files with these infractions were
counterterrorism investigations, while 10 were counterintelligence
investigations. In 31 instances, the investigative subject was a "U.S.
person," in 8 instances, the investigative subject was a "non-U.S. person,"
and in one instance, the status of the investigative subject could not be
determined. (U)
       The information missing from the 99 approval ECs was: (U)
       •   16 approval ECs did not reference the statute authorizing the FBI
           to obtain the information or cited the wrong statute; (U)
       •   66 approval ECs did not reference the "U.S. person" or "non-U.S.
           person" status of the investigative subject; (U)

        14 2 We did not include in this category failures to include the required transmittals
either to Headquarters operating divisions or field divisions for service. Sixty-six of the 293
approval ECs failed to include one or more of the required leads. (U)
                                             106
       •   34 approval ECs did not specify the type and number of records
           requested; and (U)
       •   7 approval ECs did not recite the required predication for the
           request. (U)

                      c.      Failure to Include Required Information in
                              National Security Letters (U)
       The NFIP Manual and FBI-OGC guidance require national security
letters to reference the pertinent statutory authority, the type and number
of records requested, the mandatory certification required by the referenced
NSL statute, the non-disclosure provision, and the request that the provider
deliver the records personally.143 (U)
      We identified 5 of 293 national security letters (2 percent) we
examined, in 3 different investigations that did not include at least one of
these required elements. One of the infractions arose in a counterterrorism
investigation, and four arose in counterintelligence investigations. In all
three investigations, the investigative subject was a "U.S. person." (U)
     The five national security letters either did not include a reference to
an NSL statute or referenced the wrong statute. (U)
       Finally, we note that we were unable to comprehensively audit the
field divisions' compliance with the requirement that Special Agents in
Charge sign national security letters because three of the four divisions we
visited did not maintain signed copies of the national security letters. The
Special Agent in Charge of the fourth division maintained a control file with
copies of all NSLs he signs, but this practice was instituted only during the
last year of our review period. (U)

               2.     OIG Analysis of Failures to Adhere to FBI Internal
                      Control Policies (U)
      Complete and accurate documentation of the elements required for
approval ECs and national security letters is essential to ensure compliance
with the national security letter authorities, the Attorney General
Guidelines, and internal FBI policy. If elements of the approval EC or the
national security letter are missing, the FBI official signing the national
security letter cannot be assured that the required predication,
specifications of items sought, and statutory authority are correct. (U)
      We found significant numbers of NSL approval documents did not
contain the required elements. The most notable elements missing (34
percent) occurred when field personnel failed to include the required


        143 The absence of the Special Agent in Charge's signature on the national security
letter would be considered a possible IOB violation and is not included in this category. (U)
                                            107
information in NSL approval ECs. The absence of accurate information in
these approval memoranda increases the risk of incorrect en tries in the
OGC database for tracking national security letters and may have produced
incorrect reports to Congress with respect to the numbers of NSL requests
and the status of investigative subjects. (U)
      The instances in which field supervisors or Division Counsel failed to
document their review of the NSL approval package, while few in number,
were also serious. Review of the NSL package is designed to ensure that
errors or inadequate predication are identified and corrected before a
national security letter is issued. (U)
      Overall, we believe that the FBI has now provided needed guidance
and support to field personnel to facilitate production of approval
documentation compliant with statutory requirements, Attorney General
Guidelines, and internal FBI policies. Nonetheless, we believe the FBI
should improve its compliance with the internal controls governing the
exercise of national security letter authorities by ensuring that its employees
consistently and accurately satisfy all elements of the NSL approval
documentation. (U)




                                     108
                                 ~
                   CHAPTER SEVEN
     OTHER NOTEWORTHY FACTS AND CIRCUMSTANCES
              RELATED TO THE FBI'S USE
          OF NATIONAL SECURITY LETTERS (U)
       As directed by the Patriot Reauthorization Act, in this chapter our
report includes other "noteworthy facts and circumstances" related to the
FBI's use of national security letters that we found during our review. These
matters include the interpretation of the Attorney General Guidelines'
requirement to use the "least intrusive collection techniques feasible" with
regard to the use of national security letters; uncertainty about the types of
telephone toll billing records the FBI may obtain pursuant to an Electronic
Communications Privacy Act (ECPA) national security letter; the review by
Division Counsel of NSL requests; the issuance of NSLs from control files
rather than investigative files, in violation of FBI policy; the FBI's use of
"certificate letters" rather than Right to Financial Privacy Act (RFPA)
national security letters to obtain records from Federal Reserve Banks; and
the FBI's failure to include in its NSL tracking database the use of NSLs to
obtain information about individuals who are not subjects of FBI
investigations. (U)

I.    Using the "least intrusive collection techniques feasible" (U)
       When FBI agents evaluate the investigative techniques available to
them at different stages of FBI investigations - including the use of national
security letters - one of the factors they must consider is the intrusiveness
of the technique. According to the Attorney General's Guidelines for FBI
National Security Investigations and Foreign Intelligence Collection (NSI
Guidelines), the intrusiveness of the investigative technique must be
compared to the seriousness of the threat to national security that is being
investigated and the strength of the information indicating such a threat.
The NSI Guidelines, which were in effect for all but the first ten months of
this review and remain in effect today, state: (U)
      Choice of Methods. The conduct of investigations and other
      activities authorized by these Guidelines may present choices
      between the use of information collection methods that are
      more or less intrusive, considering such factors as the effect on
      the privacy of individuals and potential damage to reputation.
      As Executive Order 12333 § 2.4 provides, "the least intrusive
      collection techniques feasible" are to be used in such situations.
      The FBI shall not hesitate to use any lawful techniques
      consistent with these Guidelines, even if intrusive, where the
      degree of intrusiveness is warranted in light of the seriousness
      of a threat to the national security or the strength of the
      information indicating its existence. This point is to be

                                     109
       particularly observed in investigations relating to terrorism.144
       (U)
      However, during our review, we found that no clear guidance was
given to FBI agents on how to reconcile the limitations expressed in the
Attorney General Guidelines, which reflect concerns about the impact on
privacy of FBI collection techniques, with the expansive authorities in the
NSL statu tes.145 (U)
       For example, during our review, several senior FBI attorneys told us
that legal precedents suggest that NSLs seeking telephone toll billing
records and subscriber information do not implicate privacy interests under
the Fourth Amendment. Several also said that they consider NSLs seeking
financial records and consumer full credit reports to be more intrusive than
NSLs seeking telephone toll billing records or subscriber information.
However, the national security letter statutes and internal FBI policies do
not address which of the national security letter authorities are more
intrusive than others or the relative intrusiveness of NSLs compared to
other investigative techniques. (U)
       These issues raise difficult questions that regularly arise regarding the
FBI's use of national security letters. For example, under the NSI
Guidelines, should case agents access NSL information about parties two or
three steps removed from their subjects without determining if these
contacts reveal suspicious connections? In light of the "least intrusive
collection techniques feasible" proviso in the Attorney General Guidelines, is
there an eviden tiary threshold beyond "relevance to an authorized
investigation" that should be considered before financial records or full
credit histories are obtained on persons who are not investigative subjects?
Are NSLs more or less intrusive than other investigative techniques
authorized for use during national security investigations, such as physical
surveillance? Yet, if agents are hindered from using all types of NSLs at
early stages of investigations, this may compromise the FBI's ability to
pursue critical investigations of terrorism or espionage threats or to reach
resolution expeditiously that certain subjects do not pose threats. (U)
      The FBI Headquarters and field personnel we interviewed said that
there is no uniform answer to the difficult question of how to use and
sequence NSLs. Instead, they said that individualized decisions are made
based on the evidence developed as the investigation proceeds. The FBI

       144   NSI Guidelines, § I(B)(2). (U)
       145OGC sent guidance on November 28, 2001, that referred to the "least intrusive"
means proviso contained in the applicable FCI Guidelines. The guidance stated that
       supervisors should keep [the proviso] in mind when deciding whether or not
       a particular use of NSL authority is appropriate. The greater availability of
       NSLs does not mean that they should be used in every case. (U)
                                              110

                                              ~
General Counsel also expressed this view, stating that she believes that the
use and sequencing of national security letters is best left to the experienced
judgment of field supervisors. However, several Division Counsel told us
that they believe it would be helpful if FBI-OGC's National Security Law
Branch (NSLB) provided guidance on the interrelationship between the
Attorney General's NSI Guidelines and the NSL statutes. (U)
      The impact of the FBI's investigative choices when using national
security letters is magnified by three factors. First, as discussed in Chapter
Four, the FBI generates tens of thousands of NSLs per year on the authority
of Special Agents in Charge, and the predication standard - relevance to an
authorized investigation - can easily be satisfied. Second, we found that
FBI Division Counsel in field offices have asked NSLB attorneys in FBI
Headquarters for ad hoc guidance on application of the "least intrusive
collection techniques feasible" proviso, suggesting a need for more clarity or
at least a frame of reference. 146 Third, neither the Attorney General's NSI
Guidelines nor internal FBI policies require the purging of information
derived from NSLs in FBI databases, regardless of the outcome of the
investigation. Thus, once information is obtained in response to a national
security letter, it is indefinitely retained and retrievable by the many
authorized personnel who have access to various FBI databases. (U)
      We recognize that there cannot be one model regarding the use of
NSLs in all types of national security investigations, and that the FBI cannot
issue definitive guidance addressing when and what types of NSLs should
issue at each stage of investigations. The judgment of FBI agents and their
supervisors, coupled with review by Chief Division Counsel and Special
Agents in Charge or senior Headquarters officials, are critical to ensuring
the appropriate use of these NSLs and preventing overreaching. However,
we believe that the meaning and application of the Attorney General
Guidelines' proviso calling for use of the "least intrusive collection
techniques feasible" to the FBI's use of national security letter authorities
should be addressed in general FBI guidance as well as in the training of
special agents, Chief Division Counsel, and all FBI officials authorized to
sign NSLs.147 With the FBI's increasing reliance on national security letters



       146 For example, the need for guidance was raised by a CDC in the context of
considering whether it is appropriate to issue financial record and consumer full credit
report NSLs in every terrorism investigation. (U)
       147  One senior NSLB attorney told us that he does not believe that the training
given to Special Agents in Charge adequately focuses on the use of NSL authorities,
particularly in light of the volume of NSLs that field divisions are issuing. This attorney
and other FBI Headquarters personnel told us that when NSLs are addressed at SAC
training conferences, the focus is on the statutory requirements and internal FBI policies,
such as the fact that SACs may not delegate authority to sign NSLs to Acting Special
Agents in Charge or others. (U)
                                            111

                                        ~
as an investigative technique, such guidance and training would be helpful
in assisting FBI personnel in reconciling the important privacy
considerations that underlie the Attorney General Guidelines' proviso with
the FBI 's mission to detect and deter terrorist attacks and espionage
threats. (U)

II.    Telephone "toll billing records information" (U)
      We found that FBI agents and attorneys frequently have questions
regarding the types of records they can obtain when requesting "toll billing
records information" pursuant to the ECPA NSL statute. (U)
       ECPA does not define the term "toll billing records information" and
there is no case law interpreting the provision. Technological developments
in the last twenty years also complicate what is meant by "toll billing
records information." When the original ECPA NSL statute was enacted in
1986, most individuals had one landline telephone and were billed for each
local and long distance telephone call. Now, many individuals have multiple
cell phones or disposable cell phones, pre-paid phone cards, fixed rate
phone plans, and text messaging capabilities. (U)
       In the absence of a statutory definition for "toll billing records
information" or case law interpreting this phrase, different electronic
communication service providers produce different types of information in
response to the FBI's ECPA national security letter requests for these
records. 148 For example, some telephone companies have told the FBI that
while they maintain records of outgoing calls from a particular telephone
number for business purposes, these records are not used for billing
purposes and, thus, are not "toll billing records information." Other
telephone companies provide long distance records but not records for local
calls. (U)
     To assist case agents in ensuring that the FBI obtains the data
permitted by the statute, FBI-OGC's National Security Law Branch has


(cont'd.)
        However, SAC conferences have addressed a more intrusive investigative technique
used in national security investigations. The FBI General Counsel told us that Special
Agents in Charge were encouraged at a Senior Leadership Conference to terminate "full
content'' electronic surveillance pursuant to the Foreign Intelligence Surveillance Act if the
technique is no longer productive, rather than continue to request authority to renew the
surveillance orders over many years. Yet, there has been no comparable discussion of the
use of NSL authorities. (U)
       148  An Assistant General Counsel in NSLB told us that some telephone companies
maintain records of individual calls made from a telephone number but do not bill for the
calls. Instead, they "bundle" their services for a fixed fee. Some of these companies have
told the FBI that they do not consider data retained for "unbilled calls" to be "toll billing
records information." (U)
                                             112
developed sample attachments to NSLs for "toll billing records information"
that list the types of records that the NSL recipient "may consider to be 'toll
billing records information'." In June 2005, for example, NSLB posted
sample attachments on its web site that referenced 12 categories of records,
such as "local, regional, long distance, international, wholesale, cellular,
paging, toll free, and prepaid calls." The attachment also contained the
caveat that the FBI was not requesting, and the recipient should not
provide, contents of any electronic communications. (U)
       However, we found that ongoing uncertainty about the meaning of the
phrase "toll billing records information" has generated multiple inquiries by
Division Counsel to NSLB attorneys and confusion on the part of various
communication providers. In light of this recurring issue, we recommend
that the Department consider seeking a legislative amendment to the ECPA
to define the phrase "toll billing records information." (U)

III.   The Role of FBI Division Counsel in Reviewing National Security
       Letters (U)
      FBI Division Counsel play a critical role in reviewing and approving
national security letters. As discussed in Chapter Three, Division Counsel
are responsible for identifying and correcting erroneous information in NSLs
and NSL approval memoranda, resolving questions about the scope of the
NSL statutes, ensuring adequate predication for NSL requests, and
providing advice on issues concerning the collection of any unauthorized
information through any national security letters. (U)
      However, we believe that the timing of Division Counsel's review of
NSLs and the supervisory structure for Division Counsel may affect the
independence and aggressiveness of their review. (U)
       Division Counsel report to the Special Agents in Charge of the field
offices in which they work, not to the Office of General Counsel at FBI
Headquarters. As a result, personnel decisions such as performance
reviews, compensation, and promotion determinations concerning Division
Counsel are made by the Special Agents in Charge (SACs). We also found in
our review that because Division Counsel report to SACs rather than to
FBI-OGC, some Division Counsel are reluctant to question NSL requests or
to challenge requests generated in the course of investigations that were
previously approved by the SAC without CDC input. 149 (U)
      The tensions arising from the CDCs' reporting relationship with field
managers were underscored by the results of an informal survey involving
the use of NSL authorities. During our review, the CDC of a large field office
reviewed an approval EC for an ECPA NSL that contained only one sentence

       149 CDCs are not required to review the documentation seeking approval to initiate
national security investigations. (U)
                                           113
addressing predication for the request.150 The CDC believed the NSL should
not be approved, but was interested to know if his views were shared by
CDCs in other field offices. To elicit their views, the CDC circulated the text
of the request to 22 other CDCs, asking if they would have approved the
NSL request. Responses to this informal survey revealed a split: 9 CDCs
said they would approve the NSL request, while 13 said they would have
rejected it. (U)
      The responses to the inquiry also generated much discussion as to
whether there was sufficient predication for the request. For example,
several CDCs said they would prefer to see more than a perfunctory
statement that the investigation was authorized in accordance with the
Attorney General Guidelines. Others disagreed, stating that so long as the
approval EC recites the applicable legal standard, it is sufficient. (U)
       Apart from these legal disagreements as to whether the request
satisfied the requirements of the ECPA statute, several CDCs said that they
would have approved the request for reasons other than the merits of the
approval documentation. After the inquiry, an Assistant General Counsel in
NSLB (who would not have approved the NSL) spoke to some of the Division
Counsel who said they would have approved the request. The Assistant
General Counsel told the OIG that she learned that there were certain
offices in which the CDC's relationship with the SAC was not "great," and
where lawyers are viewed as trying to "stop things." The Assistant General
Counsel said that she believed, after speaking to these attorneys, that some
of the attorneys who said they would have approved the request would have
preferred to reject it, but felt in a bind in challenging the SAC, particularly
when the squad supervisor and Assistant Special Agent in Charge had
already approved the underlying investigation. The Assistant General
Counsel also said she thought several CDCs who would have approved the
request did so "only to avoid the political fallout from questioning the
initiation of a [national security investigation]." (U)
      As a result of the inquiry, FBI-OGC concluded that Division Counsel
would benefit from more information in NSL approval documentation.
Accordingly, in February 2006 OGC revised its guidance and standard
formats for NSLs. Instead of requiring a "brief explanation" of the
predication underlying the request, the ECs requesting approval to issue
NSLs now are required to provide a "full explanation of the justification for


      150   The request stated: (U)
      [An international terrorism] investigation of subject, a US PERSON, was
      authorized in accordance with the [Attorney General Guidelines] because the
      subject is in contact with the subjects of other international terrorism
      investigations. These subscriber and toll billing records are being requested
      to determine the identity of others with whom the subject communicates.
      (U)
                                          114
opening and maintaining the investigation on the subject" and to "fully state
the relevance of the requested records to the investigation." (U)
       Another issue we found regarding the Division Counsel's review of
national security letters was that, with exceptions in several of the FBI's
largest field offices, Division Counsel do not learn about the underlying
national security investigation until they are asked to review the NSL
request. Therefore, the first time Division Counsel are likely to learn about
the predication for national security investigations is when they see the first
NSL in the investigations. As discussed above, until recently the
documentation that case agents were required to prepare during the period
covered by our review called for a "brief explanation" of the predication for
the request. At times, agents merely recited the statutory language in the
NSL approval memoranda.151 Yet, some Division Counsel told us they are
reluctant to second guess the predication for national security letters
because they are unfamiliar with the underlying investigations - and, as
noted above, are reluctant to second guess the operational judgments of
senior field office officials. In fact, many CDCs said that the questions they
raise with field personnel about the adequacy of predication for NSLs often
results in contentious discussions with the requesting case agents and their
su pervisors.152 (U)
       Finally, in considering the responses to the CDC's informal survey,
the Assistant General Counsel and two NSLB Deputy General Counsel said
they were very concerned that some CDCs believe they cannot exercise their
independent professional judgment on the use of NSL authorities due to
these concerns. We believe that, while the reporting structure for the Office
of Chief Division Counsel raises questions that are beyond the scope of this
review, they likely affect the CDC's role in approving the use of many other
investigative authorities. We therefore recommend that the FBI consider
measures to ensure that Chief Division Counsel and Assistant Division
Counsel provide a hard review, and independent oversight, of NSL requests.
(U)



        151 NSLB posted the following guidance on its Intranet web site in March 2006
following passage of the Patriot Reauthorization Act: (U)
       A perfunctory recitation that ( 1) the subject is the target of the investigation,
       (2) he has a telephone, and (3) therefore, it follows that an NSL for his
       telephone records is relevant to the authorized investigation will not suffice.
       Otherwise, any target with a telephone or a bank account is subject to an
       NSL. And that is not the standard for issuance of an NSL. (U)
        15 2 One CDC who said he would not have approved the request stated that
questions he has raised to explore the predication of NS Ls and the relevance of the
information sought to the investigations have caused more dissension in the office than any
other issues he has encountered in over 20 years with the FBI. (U)
                                              115
IV.   Issuing NSLs From "Control Files" Rather Than From
      "Investigative Files" (U)
        The Attorney General's NSI Guidelines and internal FBI policy
authorize agents to initiate national security investigations when the
required predication exists for a national security investigation. When these
investigations are approved, the investigation is assigned a unique identifier
that is referred to as the investigative file number. In contrast to these
"investigative files," case agents may also seek approval to open "control
files," sometimes referred to as "administrative files" or "repository files,"
which are created to store other types of FBI information. However, FBI
policy does not permit investigative activity - such as issuing national
security letters - to be conducted from a control file. Moreover, if a national
security letter is issued from a control file, the NSL approval memorandum
may not be accompanied by documentation explaining how the NSL request
is tied to an existing national security investigation or the relevance of the
information requested to that investigation. (U)
      As part of the FBI's post-September 11 reorganization, the
Counterterrorism Division established several "operational support sections"
that provide analytical support to counterterrorism investigations. As
discussed in Chapter Six, we identified two circumstances in which over
300 national security letters were generated by Headquarters
Counterterrorism Division personnel exclusively from "control files" rather
than from investigative files. (U)
       FBI Headquarters officials, including Counterterrorism Division
officials and NSLB attorneys, told us that the nature and quality of the work
generated by these operational support units in coordination with other
Headquarters and field divisions made these officials confident that there
was sufficient predication for the NSLs issued exclusively from control files.
However, these officials acknowledged that issuing NSLs exclusively from
control files does not conform to internal FBI policy and makes it difficult to
determine if the statutory and Attorney General's NSI Guidelines'
requirements for issuing NSLs have been satisfied. We understand that the
Counterterrorism Division, in consultation with FBI-OGC, has taken steps
in response to the OIG's identification of this issue to ensure that future
NSL requests are issued from investigative files rather than from control
files so that these requests conform to NSL statutes, the Attorney General's
NSI Guidelines, and internal FBI policy. (U)

V.    Obtaining Records From Federal Reserve Banks in Response to
      "Certificate Letters" Rather Than by Issuing RFPA NSLs (U)
       We identified instances in which the FBI sent at least 19 "certificate
letters" to a Federal Reserve Bank seeking "financial records" concerning
244 named individuals instead of issuing NSLs pursuant to the Right to

                                      116
Financial Privacy Act (RFPA).153 Most of the individuals whose records were
sought were subjects of FBI investigations, but some were other individuals.
The certificate letters were issued between May 2003 and August 2004 and
were signed by a Unit Chief in the Headquarters Counterterrorism Division's
Terrorist Financing Operations Section (TFOS), a TFOS Acting Unit Chief, or
Supervisory Special Agents assigned to TFOS. While the letters did not
consistently specify what type of "financial records" were sought, TFOS
officials told us that the FBI obtained "Fedwire records" in response to the
letters. 154 Although the letters were issued at least 18 months after passage
of the Patriot Act, they recited the pre-Patriot Act legal standard for
acquiring the records.155 The FBI General Counsel and other FBI-OGC
attorneys told us that they were not aware that the FBI had obtained
records from a Federal Reserve Bank without first issuing RFPA NSLs. (U)
       NSLB attorneys first learned of the certificate letters in July 2004,
when a TFOS Acting Assistant Section Chief told an NSLB Assistant General
Counsel that the certificate letters merely asked the Federal Reserve Bank
whether it had information on the referenced bank account and that TFOS
obtained the records themselves only after they served RFPA NSLs. TFOS
personnel also told the Assistant General Counsel that the letters were used
with few exceptions only in emergency situations, and that NSLs or grand
jury subpoenas were issued relatively soon after the records were provided
to the FBI to cover the records obtained in response to the certificate letters.
While some TFOS personnel told the Assistant General Counsel that Federal
Reserve Bank employees who dealt with TFOS did not believe NSLs were
required in order for the FBI to obtain the records because the Federal
Reserve Banks were "quasi-governmental bodies," the Assistant General
Counsel believed at the time that NSLs were required before the FBI could
obtain the records. The Assistant General Counsel instructed TFOS in
August 2004 that any requests for information from Federal Reserve Banks
be reviewed to ensure that they do not seek financial records in the initial
requests and that such requests should omit the reference to the RFPA NSL
statute. (U)
     Contrary to the statements made to the Assistant General Counsel by
TFOS personnel noted above, the Assistant General Counsel discovered by

       153 The FBI did not retain signed copies of the certificate letters and, therefore,
Counterterrorism Division personnel could not confirm the total number of the letters. (U)
       154 Fedwire is the Federal Reserve's electronic funds and securities transfer service.
Banks and other depository institutions use Fedwire "to move balances to correspondent
banks and to send funds to other institutions on behalf of customers." See
www.newyorkfed.org. (U)
        155 The letters contained certifications that there were "specific and articulable
facts giving reason to believe that the customer or entity whose records are sought is a
foreign power or an agent of a foreign power as defined in 50 U.S.C. § 1801." (U)
                                             117

                                         ~
accident in the fall of 2004 that the certificate letters requested the records
themselves, not just that a search be conducted. The Assistant General
Counsel also learned that the certificate letters were often used in non-
emergency situations; and there were delays as long as six months in
issuing NSLs after obtaining the information. Following these discoveries,
in December 2004 the Assistant General Counsel again counseled TFOS to
revise the certificate letters to ask that only a search be conducted and that
the FBI should only obtain the records after issuing duly authorized NSLs
except in genuine emergencies. (U)
        The Assistant General Counsel also met with attorneys in the Federal
Reserve's Office of the General Counsel (OGC) who said that the Federal
Reserve's position on whether to require NSLs depended on who the FBI's
point of contact was at the Federal Reserve. The Assistant General Counsel
told us that the issue was resolved when Federal Reserve OGC attorneys
told the Assistant General Counsel that the Federal Reserve considered
itself to be a "financial institution" and therefore would require NSLs before
releasing financial records under the RFPA. (U)
       Prior to the conclusion of this review, the OIG contacted Federal
Reserve Bank attorneys who stated that they believe Federal Reserve Banks
are not "financial institutions" for purposes of the RFPA NSL statute and
that Fedwire records are not "financial records" under the statute.
Nonetheless, the Federal Reserve OGC attorneys said that Federal Reserve
Banks as a matter of policy require that the FBI issue RFPA NSLs before the
FBI may obtain Fedwire records and "financial records." After reviewing the
certificate letters, these attorneys also stated that the Federal Reserve
Banks should not have provided Fedwire records in response to the
certificate letters because the certificate letters are not duly authorized
RFPA NSLs. (U)
       The OIG also asked FBI-OGC and the OIG General Counsel for their
legal opinion as to whether Federal Reserve Banks are "financial
institutions" for purposes of the RFPA NSL statute and whether Fedwire
records are "financial records" under the statute. Although we do not reach
a definitive conclusion in this review, we cannot conclude that the FBI's
practice of issuing certificate letters signed by subordinate TFOS personnel
violated the RFPA. (U)
       We also note our concern about (1) the ability of NSLB attorneys in
FBI-OGC to obtain accurate and complete information about the FBI's use
of NSL authorities; and (2) the delay in TFOS' compliance with NSLB's
advice. TFOS personnel provided inaccurate information to the Assistant
General Counsel who inquired about TFOS' practice of issuing certificate
letters rather than NSLs and failed to ensure that the initial advice given to
TFOS was promptly communicated and implemented. As a consequence of
the inaccurate information conveyed to NSLB and the delay in implementing

                                      118

                                  ~
NSLB's advice, the FBI issued at least three additional certificate letters to a
Federal Reserve Bank in contravention of NSLB's legal advice. (U)

VI.   The OGC Database Does Not Identify the Targets of National
      Security Letters When They are Different From the Subjects of
      the Underlying Investigations (U)
      As discussed in Chapter Three, since passage of the Patriot Act the
standard for issuing national security letters has changed and the FBI no
longer needs to identify individualized suspicions about the targets of the
NSLs. Instead, the FBI is authorized to collect information on any
individuals so long as the information is relevant to an authorized
investigation and, with respect to investigations of "U.S. persons," the
investigations are not conducted solely on the basis of activities protected by
the First Amendment. Thus, the target of an NSL is frequently not the same
person as the subject of the underlying investigation. For example, if the
response to an NSL for toll billing records on the subject's telephone
number identifies a telephone number that the subject contacted frequently
during a time period relevant to the investigation, the FBI may issue another
NSL requesting subscriber information for that telephone number. (U)
      As described in Chapter Four, for purposes of preparing the
congressional reports on NSL usage, the FBI-OGC NSL tracking database
(OGC database) captures the numbers of investigations of different U.S.
Persons and non-U.S. persons that generated NSL requests. However, the
OGC database does not capture data on whether the target of the NSL is the
subject of the underlying investigation or another individual. As a result,
because the target of an NSL is frequently not the same person as the
subject of the underlying investigation, the FBI does not know, and cannot
estimate, the number of NSL requests relating to persons who are not
investigative subjects. (U)
      Our review assessed this issue in the sample of investigative files we
examined in four field offices. Of the 293 national security letters we
examined, we identified 13 instances (4 percent) in which the NSLs
requested information on individuals other than the investigative subjects.
(U)
      We also found that during the period of our review, FBI-OGC did not
consistently require case agents to include in the memoranda seeking
approval to issue NSLs whether the NSL target was the subject of the
underlying investigation. In 2006, the FBI modified its guidance to require,
with the exception of NSLs seeking subscriber information, that agents
indicate in the approval EC whether the request is for a person other than
the subject of the investigation, or in addition to that subject, and to state
the U.S. person or non-U.S. person status of those individuals. (U)
      We believe the FBI should also modify the FBI database to include
data, which is contained in the approval ECs, reflecting the number of NSL
                                     119
                                   ~
requests for information on U.S. persons and non-U.S. persons who are not
the investigative subjects but are the targets of NSLs. In light of the Patriot
Act's expansion of the FBI's authority to collect information about
individuals who are not subjects of its investigations, we believe the OGC
database should contain this information so that the issue is subject to
internal and external oversight. (U)




                                      120
                     CHAPTER EIGHT
          CONCLUSIONS AND RECOMMENDATIONS (U)
       As required by the Patriot Reauthorization Act, this OIG review
examined the FBI's use of national security letters from calendar years 2003
through 2005. The Act required the OIG to examine how many requests
were issued by the FBI; any noteworthy facts or circumstances relating to
such use, including any improper or illegal use of such authority; the
importance of the information acquired to the intelligence activities of the
Department of Justice or to others; the manner in which such information
is collected, retained, analyzed, and disseminated by the Department;
whether and how often the Department utilized such information to produce
an analytical intelligence product for distribution within the Department of
Justice, to the intelligence community, or to others; and whether and how
often the Department provided such information to law enforcement
authorities for use in criminal proceedings. (U)
       Our review found that the FBI's use of national security letter
requests has grown dramatically since enactment of the Patriot Act in
October 2001. The FBI issued approximately 8,500 NSL requests in CY
2000, the last full year prior to passage of the Patriot Act. After the Patriot
Act, the number of NSL requests increased to approximately 39,000 in
2003, approximately 56,000 in 2004, and approximately 47,000 in 2005.
During the period covered by our review, the FBI issued a total of 143,074
NSL requests pursuant to national security letter authorities. (U)
      When considering these statistics, it is important to note that one
national security letter may contain more than one request for information.
For example, the 39,000 NSL requests in 2003 were contained in
approximately 12,000 letters, and the 47,000 requests in 2005 were
contained in approximately 19,000 letters. (U)
      Most NSL usage (about 74 percent of all NSL requests) occurred
during counterterrorism investigations. About 26 percent of all NSL
requests were issued during counterintelligence investigations, and less
than 1 percent of the requests were generated during foreign computer
intrusion cyber investigations. (U)
      In addition, the use of national security letters in FBI
counterterrorism investigations increased from approximately 15 percent of
investigations opened during 2003 to approximately 29 percent of the
counterterrorism investigations opened during 2005. (U)
      We found that the use of NSL requests related to "U.S. persons" and
"non-U.S. persons" shifted during our 3-year review period. The percentage
of requests generated from investigations of U.S. persons increased from
about 39 percent of all NSL requests issued in 2003 to about 53 percent of
all NSL requests during 2005. (U)

                                      121

                                   ~
                   National security letters seeking telephone toll billing records or
             subscriber information or electronic communication (e-mail) transactional
  vS}        reccirdsotsubscriberinformationaccounted for the v rwh lmin m ·
    \5) ofNSLreguestsuduringuthereviewperiod                                                                    bl
   \S) 1....._ _ _ _ _ _...,.......__.perc~11tL?:l1 ..--------------....,._p-er-c-en_t,.....).____,,,,~_ ___.   b3

fff)            It is important to note that these statistics, which were obtained from
          the FBI electronic database that tracks NSL usage, understate the total
          number of national security letter requests. We found that the OGC
          database is inaccurate and does not include all national security letter
          requests issued by the FBI. (U)
                 Because of inaccuracies in the OGC database, we compared data in
          this database to a sample of investigative files in four FBI field offices that
          we visited. Overall, we found approximately 17 percent more national
          security letters and 22 percent more national security letter requests in the
          case files we examined in four field offices than were recorded in the OGC
          database. As a result, we believe that the total numbers of NSLs and NSL
          requests issued by the FBI are significantly higher than the FBI reported.
          (U)
                 Further, we found the OGC database did not accurately reflect the
          status of investigative subjects or other targets of NSLs and that the
          Department's semiannual classified reports to Congress on NSL usage were
          also inaccurate. Specifically, the data provided in the Department's
          semiannual classified reports regarding the number of requests for records,
          the number of different persons or organizations that were the subjects of
          investigations in which records were requested, and the classification of
          those individuals' status as "U.S. persons or organizations" and "non-U.S.
          persons or organizations" were all inaccurate. We found that 12 percent of
          the case files we examined did not accurately report the status of the target
          of the NSL as being a U.S. person or a non-U.S. person. In each of these
          instances, the FBI database indicated that the subject was a non-U.S.
          person while the approval memoranda in the investigative file indicated the
          subject was a U.S. person or a presumed U.S. person. (U)
                 With respect to the effectiveness of national security letters, FBI
          Headquarters and field personnel told us that they believe national security
          letters are indispensable investigative tools that serve as building blocks in
          many counterterrorism and counterintelligence investigations. National
          security letters have various uses, including obtaining evidence to support
          FISA applications for electronic surveillance, pen register /trap and trace
          devices, or physical searches; developing communication or financial links
          between subjects of FBI investigations and between those subjects and
          others; providing evidence to initiate new investigations, expand
          investigations, or enable agents to close investigations; providing
          investigative leads; and corroborating information obtained by other
          investigative techniques. (U)
                                                 122

                                                      ~
       FBI agents and analysts also use information obtained from national
security letters, in combination with other information, to prepare analytical
intelligence products for distribution within the FBI and to other
Department components, and for dissemination to other federal agencies,
Joint Terrorism Task Forces, and other members of the intelligence
community. We found that information derived from national security
letters is routinely shared with United States Attorneys' Offices pursuant to
various Departmental directives requiring terrorism prosecutors and
intelligence research specialists to be familiar with FBI counterterrorism
investigations. When prosecutors review FBI investigative files, they also
may see information obtained through national security letters. However,
because information derived from national security letters is not marked or
tagged as such, it is impossible to determine when and how often the FBI
provided information derived from national security letters to law
enforcement authorities for use in criminal proceedings. (U)
       We also determined that information obtained from national security
letters is routinely stored in the FBI's Automated Case Support (ACS)
system; Telephone Applications, a specialized FBI application for storing
telephone data; the FBI's Investigative Data Warehouse database; and other
databases. FBI personnel and Joint Terrorism Task Force members who
have the appropriate clearances to use these databases would therefore
have access to information obtained from national security letters. (U)
       As required by the Patriot Reauthorization Act, our review also
examined instances of improper or illegal use of national security letters.
First, our review examined national security letter violations that the FBI
was required to report to the President's Intelligence Oversight Board (IOB).
Executive Order 12863 directs the IOB to inform the President of any
activities that the IOB believes "may be unlawful or contrary to Executive
order or presidential directive." The FBI identified 26 possible violations
involving the use of national security letter authorities from 2003 through
2005, of which 19 were reported to the IOB. These 19 involved the issuance
of NSLs without proper authorization, improper requests under the statutes
cited in the national security letters, and unauthorized collection of
telephone or Internet e-mail transactional records, including records
containing data beyond the time period requested in the national security
letters. Of these 26 possible violations, 22 were the result of FBI errors,
while 4 were caused by mistakes made by recipients of the national security
letters. (U)
       Second, in addition to the violations reported by the FBI, we reviewed
documents relating to national security letters in a sample of FBI
investigative files in four FBI field offices. In our review of 77 FBI
investigative files, we found that 17 of these files - 22 percent - contained
one or more possible violations relating to national security letters that were
not identified by the FBI. These possible violations included infractions that
                                     123
                                 ~
were similar to those identified by the FBI and considered as possible IOB
violations, but also included instances in which the FBI issued national
security letters for different information than what had been approved by
the field supervisor. Based on our review and the significant percentage of
files that contained unreported possible violations (22 percent), we believe
that a significant number of NSL-related possible violations are not being
identified or reported by the FBI. (U)
       Third, we identified many instances in which the FBI obtained
telephone toll billing records and subscriber information from 3 telephone
companies pursuant to more than 700 "exigent letters" signed by personnel
in the Counterterrorism Division without first issuing national security
letters. We concluded that the FBI's acquisition of this information
circumvented the ECPA NSL statute and violated the Attorney General's
Guidelines for FBI National Security Investigations and Foreign Intelligence
Collection (NSI Guidelines) and internal FBI policy. These matters were
compounded by the fact that the FBI used the exigent letters in non-
emergency circumstances, failed to ensure that there were duly authorized
investigations to which the requests could be tied, and failed to ensure that
NSLs were issued promptly after the fact, pursuant to existing or new
counterterrorism investigations. In addition, the exigent letters inaccurately
represented that the FBI had already requested subpoenas for the
information when, in fact, it had not. (U)
      Fourth, we determined that in two circumstances during 2003 though
2005 FBI Headquarters Counterterrorism Division generated over 300
national security letters exclusively from "control files" rather than from
"investigative files" in violation of FBI policy. In these instances, FBI agents
did not generate and supervisors did not approve documentation
demonstrating that the factual predicate required by the Electronic
Communications Privacy Act, the Attorney General's Guidelines for FBI
National Security Investigations and Foreign Intelligence Collection, and
internal FBI policy had been established. When NSLs are issued from
control files rather than from investigative files, internal and external
reviewers cannot determine whether the requests are tied to investigations
that establish the required evidentiary predicate for issuing the national
security letters. (U)
       Fifth, we examined FBI investigative files in four field offices to
determine whether FBI case agents and supervisors adhered to FBI policies
designed to ensure appropriate supervisory review of the use of national
security letter authorities. We found that 60 percent of the investigative
files we examined contained one or more violations of FBI internal control
policies relating to national security letters. These included failures to
document supervisory review of national security letter approval
memoranda and failures to include required information such as the
authorizing statute, the status of the investigative subject, or the number or
                                      124

                                  ~
types of records requested in NSL approval memoranda. Moreover, because
the FBI does not retain copies of signed national security letters, we were
unable to conduct a comprehensive audit of the FBI's compliance with its
internal control policies and the statutory certifications required for national
security letters. (U)
       Our review describes several other "noteworthy facts or
circumstances" we identified. For example, we found that the FBI has not
provided clear guidance describing how case agents and supervisors should
apply the Attorney General Guidelines' requirement to use the "least
intrusive collection techniques feasible" in their use and sequencing of
national security letters. In addition, we found confusion among FBI
attorneys and communication providers over the meaning of the phrase
"telephone toll billing records information" in the ECPA NSL statute. We
also saw indications that some Chief Division Counsel and Assistant
Division Counsel are reluctant to provide an independent review of national
security letter requests because these attorneys report to the Special Agents
in Charge who have already approved the underlying investigation. (U)
       Finally, in evaluating the FBI's use of national security letters it is
important to note the significant challenges the FBI was facing during the
period covered by our review and the major organizational changes it was
undergoing. Moreover, it is also important to recognize that in most cases
the FBI was seeking to obtain information that it could have obtained
properly if it had it followed applicable statutes, guidelines, and internal
policies. We also did not find any indication that the FBI's misuse of NSL
authorities constituted criminal misconduct. (U)
        However, as described above, we found that that the FBI used NSLs in
violation of applicable NSL statutes, Attorney General Guidelines, and
internal FBI policies. In addition, we found that the FBI circumvented the
requirements of the ECPA NSL statute when it issued at least 739 "exigent
letters" to obtain telephone toll billing records and subscriber information
from three telephone companies without first issuing NSLs. Moreover, in a
few other instances, the FBI sought or obtained information to which it was
not entitled under the NSL authorities when it sought educational records
through issuance of an ECPA NSL, when it sought and obtained telephone
toll billing records in the absence of a national security investigation, when
it sought and obtained consumer full credit reports in a counterintelligence
investigation, and when it sought and obtained financial records and
telephone toll billing records without first issuing NSLs. (U)
      Based on our review, we believe that the FBI should consider the
following recommendations relating to the use of national security letters.
We recommend that the FBI: (U)



                                      125
      1. Require all Headquarters and field personnel who are authorized to
issue national security letter to create a control file for the purpose of
retaining signed copies of all national security letters they issue. (U)
      2. Improve the FBI-OGC NSL tracking database to ensure that it
captures timely, complete, and accurate data on NSLs and NSL requests.
(U)
      3. Improve the FBI-OGC NSL database to include data reflecting NSL
requests for information about individuals who are not the investigative
subjects but are the targets of NSL requests. (U)
      4. Consider issuing additional guidance to field offices that will assist
in identifying possible IOB violations arising from use of national security
letter authorities, such as (a) measures to reduce or eliminate typographical
and other errors in national security letters so that the FBI does not collect
unauthorized information; (b) best practices for identifying the receipt of
unauthorized information in the response to national security letters due to
third-party errors; (c) clarifying the distinctions between the two NSL
authorities in the Fair Credit Reporting Act (15 U.S.C. §§ 1681u and 1681v);
and (d) reinforcing internal FBI policy requiring that NSLs must be issued
from investigative files, not from control files. (U)
      5. Consider seeking legislative amendment to the Electronic
Communications Privacy Act to define the phrase "telephone toll billing
records information." (U)
       6. Consider measures that would enable FBI agents and analysts to
(a) label or tag their use of information derived from national security letters
in analytical intelligence products and (b) identify when and how often
information derived from NSLs is provided to law enforcement authorities
for use in criminal proceedings. (U)
      7. Take steps to ensure that the FBI does not improperly issue
exigent letters. (U)
      8. Take steps to ensure that, where appropriate, the FBI makes
requests for information in accordance with the requirements of national
security letter authorities. (U)
       9. Implement measures to ensure that FBI-OGC is consulted about
activities undertaken by FBI Headquarters National Security Branch,
including its operational support activities, that could generate requests for
records from third parties that the FBI is authorized to obtain exclusively
though the use of its national security letter authorities. (U)
      10. Ensure that Chief Division Counsel and Assistant Division
Counsel provide close and independent review of requests to issue national
security letters. (U)


                                       126
                                  ~
       We believe that these recommendations, if fully implemented, can
improve the accuracy of the reporting of the FBI's use of national security
letters and ensure the FBI's compliance with the requirements governing
their use. As directed by the Patriot Reauthorization Act, the OIG will
examine the FBI's use of national security letter authorities and report on
their use in calendar year 2006. (U)




                                     127

                                  ~
I
I
I
I
I
I
I
I    UNCLASSIFIED
I
      .APPENDIX
I
I
I
I
I
I
I
I
I
.1
I
I                                    The Attorney General
                                             Washington,. O,C

I                                              March 1, 2007


I     The Honorable Glenn A. Fine
      rnspector General

I     Oflice of the Inspector General
      United States Department ofJustke
      950 Pennsylvania Avenue, N.W,

I     Washington, D.C. 20530

      Dear Mr. Fine:
I            I appreciate your work and the opportunity to comment on your Review of the
      Federal Bureau oflnvest.igation's Use of National Security Letters.
I              The problems identified in your review are serious and must be addressed
      immediately. I have spoken with FBI Director Bob Mueller about your findings and
I     recommendations. He already has taken specific steps to correct past mistakes and to
      enstlre that the Bureau will use National Security Letters (NSLs) in an appropriate
      manner in. compliance with aH applicable hnvs and intern.al policy requirements.
I             I have asked the Department's National Securitv.. Division and the Privacv and
                                                                      '   '       '         ~




      Civil Liberties Office to work with the Bureau in implementing these corrective actions
I     and to consider any further review· and reforms that are needed. They will report to me
      regularly on their progress. In addition~ I ask that you report to me in four months on the
      FBI' s implementation of your recommendations.
'1            Your review also evaluated the effectiveness ofNSLs and rightly found them to
     ·have '"co.ntribnted significantly to many counterterrodsn1 and counterintelHgen.ce
I     investigations.'' NSLs are vital invt~stigative tools and are critical to our efl:orts to fight
      and win the war on terror. They can and must he used appropriately and in a manner that
      protects the civil liberties of all Americans. i: have conJiden'-:e in the Director's ability to
I     implement the changt~s necessary to ensure the proper use of these authorities,

                                                      Sincerely,
I                                                           /-\ A
                                                       -f~· ~. t~~_/
I                                                       I       0
                                                      Alberto R. Gonzales

I
I
I
I                                                UNCLA.SSIHED
                                   D!RECTOR Of NATtONAL INn~LUGENCE
                                              \V>.SHlNGTON.   DC 205l1

I                                                                           EIS 00145

I     MEMORANDU1vf FOR:               Glenn A. Fine
                                      Inspector General

I                                     Department of Justice

      SUBJECT:                        (U) Department of Justke Office of the Inspector General's Draft

I                                     Report: •'A Revie\v of the f<ederal Bureau of Investigation's Use
                                      of National Security Letters"

             (U) Thank yon fnr requesting my comments. pursuant to Section 119(<l) of the USA
      PATRIOT Improvement and Reauthorization Act f}f 2005. on the Department of Justice (DOJ)
      Office of the Inspector General• s Draft Rep01t entitled ..A Review of the Federal Bureau of
      Investigation's Use of National Security Letters,. (Report).

               (U) I appreciate your efforts, and the efforts of your staff. in producing an in-depth
I      Report 011 this important issue. I have significant conct~ms about the issues raised in the Report
       I anticipate that many of the recommendations contained in the Report will be implemented in
       order to ensm:e that the Federal Bureau of Investigation (FBI) has improved processes and
I      procedures to ensure full compliance with all laws and regulatinns .in its use of National Security
       Letters (NSLs). To ensure that the FBI's changes are successful, and that the l<'"'Brs use of NSLs
       is consistent with the U,S. Constitution. statutes, Executive Orders, and regulations, I directed
I    · the General Counsel and thi..~ Civil Liberties Protection Officer of the Office of the Director of
       National Intelligence to work with DOJ and the FBI to remedy defidencfos identified In your
       final report, as appropriate.
I               (U) My highest priority is protecting America while. ensuring that all activities
       undertaken to protect our citizens by the Intelligence Community furty comply with all laws.
I    . While not lessening my concern about the issues identified in the Report. I think it is in1portant
       to note that NSLs are critical tools in countert.errorism imd other investigations. As your Report
       notes, information obtained from NSLs ''contributed significantly to many cou~terterrorism and
I      counte.rintelligence investigations!' Many of these details on sensitive investigative matters must
       remain cla<;sified, but your Report contains important exainpfos where NS Ls have provided
       critical information to protect America. Indeed. as your Report notes. FBI personnel believe
I      NSLs are "indispensable investigative tools!' Of course. as wiih alt investigative tools, it is vital
     · that NS Ls are used in a manner that complies with all applicable laws and regulations.

I             (U) Thank y<.m aga.in for your emxts.


I
I                                                              Date


 I
                                                 UNCLASSIFIED
I
I
I                                                                              Federal Bureau of Investigation

I                     --------~----········································-~·-··-···-~~~------··-··---~-------··-······--····-····················-·-····--····

                                                                               WasMngmn, O.C. ,W,.,35-#(1(/J


I                                                                                   March 6, 2007

I
      Honorable Glenn A. Fine
I     Inspector General
      United States Department of Justice

I     Suite 4706
      950 Pennsylvania Avenue, N.W.
      Washington, DC 20530
 I
      SUBJECT:               U.S. Department of Justice~ Office of the Inspector General - '\-\ Rtwiew -0f the
 I                           :Federal Bureau of Investigation's Use of National Security Letters (NSL)."

      Dt~ar   tv:Ir. Fine:
 I                    The FBI appreciates this opportunity to respond to findings and recommendations
      made in your report entitled HA Revie\.v of the Federal Bureau of Investigation's Use of National
 I    Security Letters" (hereinafter "Report11 ). This lette'1' conveys the FBrs responses to the
      recommendations, and I request that it be appended to the Report The Office of the Inspector
      General (OIG) has identified areas of serious com~em related to the FBI's use of National
 I    Security Letters (NS Ls). The FBJ has already taken several steps to correct the detkie.ncies
      identified in the R.epo1t. These steps are descdbed in more detail below and include

 I    strengthening internal controls, changing policies and procedures to improve oversight of the
      NSL approval proce.ss, barring certain practices ide.ntified in the Report; and ordering an
      expedited inspection, We wm continue to work with the OIG to gauge our progress in these

 I    refonns.

                      Before addressing the specific findings and recnrnmend.ations in the Report, the
 I    FBI offers two general comments applicable ti;> the FBl's use of this critical national security
      invest1gative tool. First, I appreciate the OIG's discussion in the Report of the importance of
      National Security Letters to our coumertelTorism and intelligence rnissions. \\Then Congress
 I    expanded the FBI's ability to use this vital tool, some expressed concern about a potential for
      abuse. It is important to note that the OIG found no intentional or deliberate misuse of these
      authorities hut highlighted severnl areas where we must increase our internal audit and oversight
  I   of these tools. We are doing s.o, and we will \Vork in concert with the Department's National
      Security Division and Privacy and Civil Liberties Office to implement these refonns.

  I
  I
    -------------···-···············--------------·····-·······---~-~--~---··--''•·---~--




I
I                     Honorable Glenn A. Fine

I                                     As the Report notes, NSLs are indispensable investigative tools that permit the
                     FBI to gather the basic building blocks in national security investigations, enabling the FBI both
I                    to advance such investigations and, when \Varranted, to close such inquiries with a higher degree
                     of confidence that the subject does not pose a tetTorism threat On page 46 of the Rep01i and in
                     the ensuing pages, the Report catalogues 8 vital functions NSLs play in the FBI's mission to
I                    protect the American people. For instance, the Report cites examples where NSLs helped enable
                     investigators to establish potential contacts of an investigative subject and to detennine \Vhether a
                     ten-or cell may be operating in a particular location. As the Report notes. these are the types (Jf
I                    "bread and buUera capabilities FBJ Agents rely on to advance national security investigations.


I                                     With these functions in mind, I deeply appreciate the OIG's observation that any
                      discussion of the FBI's use of National Security Letters must take into considewtion the
                      environment in which the FBI -- particularly the Counterterrorism Division (CTD) -- has
I                     functioned for the last five years. Sinc.~e September l L 2001, the FBI has lransforrned its
                      operations while working at a breakneck pace to keep the country safe. As the OJG noted, the
                     FBI has noverfoml[ed] its counterterrorism operations, expand[ed] its intelligence capabilities.
I                     [begun] to upgrade its information tedmology systems~ and [sought} to improve coordination
                     ·with state and local Jaw enforc.ement agencies.u It is important to note that. during the period
                     reviewed, CTD \v'as .investigating and responding to a constant stream of terror threats. For
I                     instance, the investigatinn into the Al Qaeda plot that culminated in the attacks of September 11
                     was still ongoing in 2003 when CTD began investigating potential plots to destroy U.S. ~bound
                     aircraft and ind1vidu.a1s smveilHng economic targets in the United States. The 2005 bombings in
I                    London prompted intensive investigations of any kno\vn U.S. connections. These high-profile
                     investigations occurred at the same time as CTD \Vas conducting literally hundreds of lower
                     profile investigations.
I                                     I believe those first two points ~~ the extraordinary \Vorkload of CTD since
                   September 11 and the importance of National s~~curity Letters to our national security efforts --
I                  are critical to remember when considering the OIG's congressionally mandated assessment of
                    ''improper or illegal" use of national security letter authorities. I am pleased that the OIG found

I                  no criminal u.se of these authvrities nor any deliberate or intentional violations oftlle national
                   security letter statutes or the Attorney General Guidelines. Nevertheless, l Cl)nclude from the
                   OIG's findings that we must redouble our dforts to ensure that there is no repetition of mistakes
I                  of the past in the iise of these authorities, ho'vvever lacking in willfulness was the intent. To that
                   end, it is w(.1rth noting that the FBI considers all reports of possible violations ofits legal
                   authorities seriously and requires regular reporting, legal review, and referrals to the appropriate
I                  entities. If unauthorized infrmnation is obtained, whether due to FBI or third~pa.rty error, that
                   information is sealed, sequestered, and \Vhere appropriate, destroyed. In addition, employee
                   conduct. is reviewed and disciplined appropriately.
I
I
I
......... ·, .... ,.· ..................·.·-·.····-------------------------------~---··········-~----··-···   ,. --




I
I                       Honorable Glenn A. Fine

I                                                 As the Report makes clear, in the rnajodty ofcases, the desire of Agents to
                       expedite the conduct of mrtionaJ security investigations for the protection of the American public
I                      resulted in the FBI obtaining infonnation to which it was entitled; While weH~intentioned, the
                       shortcuts identified by the OIG \Vere unacceptable. Because they may have been facilitated in part
                       by unckar internal guidance. we have atready puhlished improved intemal. guidance and have
I                      prohibited certain practices that the OIG criticized. We are also developing a comprehensive
                       training module to address any uncertainty that exists \Vithin our employee ranks about tht~ legal
                       strictures that govern the use of National Security Letters. That training will be mandatory fhr
I                      Special Agents in Charge (SAC), Chief Division Counsels (CDC), and counterterrorism and
                       counterintelligence Agents. Finally, because the vast majority of the uses of NSLs that the OIG

I                      flagged as improper origh1ated with the CTD, I ordered an expedited, special inspection of that
                       area ofresponsibiHty within CTD and the practices identified by the OIG.


I                                        Second, prior to conunencement of the IG review, the FBI had identified
                       deficiencies in our system for generating the data necessary for required congressional reporting
                       ofNSL usage. Those deficiencies, \vhich \Vere first flagged for Congress in March 28, 2006~
I                      resulted in errors in the numbers reported to Congress, Y./e appreciate the OIG identifying
                       additional ddiciencies that we had not noted in the way we tnKk and report usage of NSLs,
                       Independc;·nt of this report, we have made substantial progress in d(~vdoping an automated. system
I                      to prepare NSLs and their associated documentation, which \Vill automatically gather data for
                       congressional reporting. This system, which will be described in more detail below, should
                       alleviate many of the concerns identlikxl by the FBI and the OIG. Other tleficiendes kkntified by
I                      the OJG have already been cc)rrected for foture .reporting purposes.

                       Recommendations:
I                                     OIG's recommendations below outline important and necessaty controls when
                      issuing National Security Letters and maintaining ~~orrespondirtg (statistical) records.
I                     Recommendation #l; Require all Headquarters and field personnel who a.re authorized to issue

I                     National Security Letters to create a control file for the purpose of retaining signed copies of
                      all National Security Letters they issue.


I                                      The FBl agrees ,t·ith the OlG recommendation that the FBI should retain a
                      signed copy of the National Secui-ity Letter and is implementing a policy that would require the
                      originating office to maintain a copy of the signed NSL in the investigative sub-fold.er of the
I
I
I                                                                                                    -3-


I
I
I    Honorable Glenn A. Fine

I    authorized investigation to which the NSL is relevant. The FBI believes that maintaining the NSL
     copy with the c01Tesponding investigative file is more appropriate than creating a control file for
I    this purpose.

     Recommendation #2: Improve the FBI-Office of General Counsel (OGC) NSL tracking database
I    to ensure that 1t captures timely, complete, and accurate infonnation on NSLs and NSL reqm~sts.


I    Recommendation #3: Improve the FBI-OGC NSL data.base to include data
     reflecting NSL requests for information about individuals '\Vho are not the investigative subjects
     but are the targets ofNSL requests.

I                      The FBI agrees with these OIG recommendations. In fact, the FBI began
     addressing this issue in February 2006, when contractors produced an initial proposal for an
I    automated system to prepare and track National Security Letters. This system is intended to be
     built as part of the existing, highly succeessful PISA Management System (FISAi\tfs). For the last
     year, the FBI, with the ass-istance of its contractors, has been in the process of designing a
I    database that is referred to as the NSL sub-system ofFISAMs. The NSL sub-system is scheduled
     for testing in the Vvashington Field Office in July 2007i with the expansion of the system to other
     field offices pending successful testing.
I                      The NSL sub-system is designed tt) require the user to enter certain data before
     the workflow can proceed and requfres specific reviews and approvals before the request for the
I    NSL can proceed. Thrnugh this process, the FBI can automatically ensure that certain legal and
     administrative requirements are met and that required reporting data is accurately collected. For
     exarnple, by requiring the user to identify the investigative file from which the NSL is to be
I    issued, the system will be able to verify the status of that file to ensure that it is still open and
     current (e.g., request date is within six months of the ()pening man extension has been filed for

I    the investigatio1~) and ensure that NSLs are not being requested out of control or administrative
     files. The system wiH require the user to separately identify the target of the investigative file and
     the person \Vhose records are being obtained through the requested NSL; if different. This wilt

ti   allow the FBI to accurately wunt the number of different pi..~rsons about whom 'Ne gather data
     through NSLs. The systt~m will also require that specific data elements be entered before the
     process can continue, such as requiring that the target's status as a U.S. person (US PER) or non-
I    U.S. person (NON-USPER) be entere:d.

                     The NSL sub-system is being desig·ned so that the FBI e.inpk)yee requesting an
I    NSL \Vill enter data only once. The system will then ge:'.nerate both the NSL and the authorizing
     Electronic. Communication (EC} for signature, thereby ensuring that the two docmnents match
     exactly and minimizing the opportunity for transcription errors that give rise to unauthorized
I
I
I
I
I    Honorable Glenn A. Fine

I    collections that must be reported to the Intelligence Oversight Board (IOB). As with the PISA
     Management Syste111, this subsystem will have a comprehensive reporting capabillty.
I                    ·with regard to other deficiencies indicated in your report that affect the accuracy
    of our congressional reporting, the default settings in our t~xisting "database" have been changed:
I   the default position for the U.S. person status of the «target" of the NSL has been changed to U.S.
    person and "011 can no longer he entered. for the number of facilities on which data is requested by

I   anNSL

     Recommendation #4; Consider issuing additional guidance to field offices that

I   will assist in identi.tying possihle IOB violations a.rising from use of national security letter
    authorities, such as (a) measures to reduce or eliminate typographical and other errors in National
    Security Letters so that the FBI does not celled unauthorized infom1ation; (b) best practices for
I   identifying the receipt of unauthorized infom1ation in the response to National Security Letters
    diw to thir<l~party errors~ (c) clarifying the distinctions between the two NSL authorities in the Fair
    Credit Reporting Act (15 U.S.C. §§ 1681u and 1681v); and (d) reinforcing internal FBipolky
I   requiring that NSLs must be issued from investigative files, not from control files.

                        The Ji...,BI agrees with the OIG recommendation. As indicated above, the NSL
I     subsystem is anticipated to reduce if not eliminate typographical errors that result in unauthorized
     collection ofinfonnation. OGC issued comprehensive advice on November 11, 2006, \vith
     respect to reporting unauthorized collection of aU types and provided guidance with respect to the
I    sequestrntion of such rnaterials. OGC \Vill issue additional comprehensive NSL guidance that
     \Vill, among other things, highlight the legal differences benveen the two NSL authorities that
     appear in H.w Fair Credit Reporting Act. Given the finding of the IG of at least two instances in
I    which an NSL was issued under 15 U.S.C. § 1681 v in counterintelligence investigations, we are
     directing each field office to inspect its counterintel1ige11cc files to determine whether it has made

I    the same mistake. If any additional instances of that effor are found, appropriate remedial action,
     including reports to the Intelligence Oversight Board, will be taken. The FBI docs not believe that
     the issuance of National Security Letters from control files is legally improper if, as was the case,
I   the NSLs sought information that was relevant to authorized national security investigations that
     were open at the time the NSLs were .issued. The FBl recognizes, ho...vever, that referring solely to
     a control file in the EC that seeks. issuance of the NSL docs not adequately document the existence
I   of a .national security invt~stigation to \.vhich the material sought is relevant Therefore, we are
    reiterating existing FBI policy that Natfonal Security Leth.~rs should be issued exclusively from
    investigative files and that such investigative files should be referenced on the supporting EC.
I   .Finally, although many of the possible IOB violations identified. by the IG do not risi..~ to the level
    of violations that are required to be reported to the JOB, the .field has been instructed w report all
    to OGC for further evaluation.
I
I
I
........... ·.....................·..··-···~-~---~




I
I                  Honorabk Gletm A, Fine

I                  Recommendation #5: Con.sider seeking legislative amendment to the Electronic
                   Communications Privacy Act to define the plu-ase ntekphone toll billing records infrmnation.t•
I                                The FBI agrees with the OlG recommendation. The FBI agrees with the OIG's
                  recommendation to seek a clarification of statutory definition of "telephone toll billing records
I                 infom1ation. n


I                 Reeommcndation #6; Consider measures that \vould enable FBI Agents and ana1ysts to
                  (a) label or tag their use ofinfom-iation derived from National Security Letters and (b) identify
                  when and how ot1en information derived from NSLs is provided to Jaw e:nforcement authorities

I                 for use in criminal proceedings.

                                   FBI agrees witll the OlG recommendatimt, I have asked OGC to work with the

I                 FBI's National Security Brnnch and the Office of the Director of National Intelligence to ensure
                  W(_~ carefuUy consider this recommendation balancing our operational needs, infonnation sharing
                  policy, and privacy concerns.
I                 Recommendatiou #7: Take steps to ensure that the FBI does not .improperly use exigent letters.

I                 Recommendation #8: Take steps to ensure that where appropriate the FBI makes requests for
                  .in.fonnatio.n in accordan<.~e \?v'ith the requirements of National Security Letter authorities.

I                                  The FBI agrees with the OIG recommendations. It is important to note that
                  an "exigent" letter as that tem1 is used in the Report is not an emergency disclosure under 18
                  U.S.C. 2702 (c) but rather a fetter asking for records from a service provider upon the promise of a
I                 forthc.~oming NSL or grand jury subpoena. The "exigent letter" discussed in t11e Report never
                  sought the content of any communkations. \Vhile the FBI doe-s not believe that the use of exigent

I                 letters is improper in itself, it recognizes that they have been used improperly as noted in the
                  Report. There.fore, as a matter of pol.icy, the FBI has barred their use.


I                Recommendation #9: Implement measures to ensure that FBI~OGC is consulted
                 about activities undertaken by FBI Headquarters National Security Branch, including its
                 operational support activities~ that could generate requests f<Jr records from third parties that the
I                FBI is authorized to obtain t~xclusively through the use of National Sernrity Letter authorities.

                                 The FBI agrees witb tbe OlG recommendation. .As part of the OGCs issuance
I                of comprehensive guidance on National Security Letters, it 'Nill implement a more rigorous
                 approval process to include t11e following; (l) for Natfonal Security Letters issued by Field
                 Offices, the BC supporting the National Secl1rity Letter must be reviewed and approved by the
I                Chief Division Counsel or Assistant Division Counsel (ADC); and (2) ·for National Security


I                                                                  -6-



I
I
I    Honornble Glenn A. Fine

I    Lettt~rs
           issued by Headquarters~ the EC must be reviewed and approved by the National Security
     Law Branch of the Office of General CounseL
I    Rt~commendation   #10: Ensure that Chief Division Counsel and Assistant Division Counsel
     provide dose and independent revie\v of requests to issue National Security Letters,
I                    Tbe FBI agrees witb tlte OIG recommendation. The FBI has taken steps to

I    address this issue already. ln February 2006, the Ot11ce of the General Counsel, National Security
     .Law Branch, reminded all Chief Division Counsels of the importance of their role in the National
     Security Letter approval process. In JVfarch 2006, the National Sec:urity Law Branch included on

I    its \vebsite a narrative description of the role of the CDCs and the ADCs in approving National
     Security Letters. Additionally, the FBI General Counsel has reminded an Special Agents in
     Charge that their office's CDCs have an obligation to provide accurate, independent legal advice

I    and that the SACs should strive to encourage such independent advice from the CDCs. Finally,
     the General Counsel will stress to the CDCs du1ing the next regularly scheduled teleconference
     the importance of their exercising independent legal judgment in all FBI matters, including those
I    su1T01.mding the NSL process.

                     The FBI is committed to protecting the people of the Unite<l States in a manner
I    consistent with its statuto1y authority, guidelines, and policy, I appreciate this opportunity to
    ·respond to your recommendations and ,vm update you and the appropriate cf.mgressfonal
    committees with regard to our implementation progress.
I                                                           Sincerefy yoms,

I                                                    v2~,?;/~~. .
I                                                           Robert S. Mueller, III
                                                                  Director


I
I
I
I
I
I
 I
 I
 I
 I
 I
 I
 I
 I
       NATIONAL SECURITY LETTER
 I    STATUTES IN EFFECT PRIOR TO
     USA PATRIOT IMPROVEMENT AND
 I   REAUTHORIZATION ACT OF 2005
 I
 I
 I
 I
 I
 I
 I
 I
II
I
I                                 Right to Financial Privacy Act

I                                           12 u.s.c. § 3414


I   (a)(l) Nothing in this chapter (except sections 3415, 3417, 3418, and 3421 of this title} shall
    apply to the production and disclosure of financial records pursuant to requests from--


I     (A) a Government authority authorized to conduct foreign counter- or foreign positive-
      intelligence activities for purposes of conducting such activities;

      (B) the Secret Service for the purpose of conducting its protective functions ( 18 U.S. C. 3056;
I     3 U.S.C. 202, Public Law 90-331, as amended); or ·

      (C) a Government authority authorized to conduct investigations of, or intelligence or

I     counterintelligence analyses related to, international terrorism for the purpose of conducting
      such investigations or analyses.

    (2) In the instances specified in paragraph (1), the Government authority shall submit to the
I   financial institution the certificate required in section 3403(b) of this title signed by a
    supervisory official of a rank designated by the head of the Government authority.


I   (3) No financial institution, or officer, employee, or agent of such institution, shall disclose to
    any person that a Government authority described in paragraph (1) has sought or obtained
    access to a customer's financial records.

I   (4) The Government authority specified in paragraph (1) shall compile an annual tabulation of
    the occasions in which this section was used.


I   (S)(A) Financial institutions, and officers, employees, and agents thereof, shall comply with a
    request for a customer's or entity's financial records made pursuant to this subsection by the
    Federal Bureau of Investigation when the Director of the Federal Bureau of Investigation (or the

I   Director's designee in a position not lower than Deputy Assistant Director at Bureau
    headquarters or a Special Agent in Charge in a Bureau field office designated by the Director)
    certifies in writing to the financial institution that such records are sought for foreign counter
    intelligence purposes to protect against international terrorism 'or clandestine intelligence      .
I   activities, provided that such an investigation of a United States person is not conducted solely
    upon the basis of activities protected by the first amendment to the Constitution of the United
    States.

I   (B) The Federal Bureau of Investigation may disseminate information obtained pursuant to this
    paragraph only as provided in guidelines approved by the Attorney General for foreign
    intelligence collection and foreign counterintelligence investigations conducted by the Federal
I   Bureau of Investigation, and, with respect to dissemination to an agency of the United States,
    only if such information is clearly relevant to the authorized responsibilities of such agency.


I   (C) On the dates provided in section 415b of Title 50, the Attorney General shall fully inform
    the congressional intelligence committees (as defined in section 401a of Title 50) concerning all
    requests made pursuant to this paragraph.

I   (D) No financial institution, or officer, employee, or agent of such institution, shall disclose to
    any person that the Federal Bureau oflnvestigation has sought or obtained access to a
    customer's or entity's financial records under this paragraph.

I
I                                                   A-1
I
I   (bt(l) Nothing in this chapter shall prohibit a Government authority from obtaining financial
    records from a financial institution if the Government authority determines that delay in
I   obtaining access to such records would create imminent danger of--

      (A) physical injury to any person;

I     (B) serious property damage; or

      (ct flight to avoid prosecution.
I   (2) In the instances specified in paragraph (1), the Government shall submit to the financial
    institution the certificate required in section 3403(b) of this title signed by a supervisory official

I   of a rank designated by the head of the Government authority.

    (3) Within five days of obtaining access to financial records under this subsection, the
    Government authority shall file with the appropriate court a signed, sworn statement of a
I   supervisory official of a rank designateq by the head of the Government authority setting forth
    the grounds for the emergency access. The Government authority shall thereafter comply with
    the notice provisions of section 3409(c) of this title.

I   (4) The Government authority specified in paragraph (1) shall compile an annual tabulation of
    the occasions in which this section was used.

I   ( d) For purposes of this section, and sections 3415 and 341 7 of this title insofar as they relate
    to the operation of this section, the term "fmancial institution" has the same meaning as in
    subsections (a)(2) and (c)(l) of section 5312 of Title 31, except that, for purposes of this section,

I   such term shall include only such a financial institution any part of which is located inside any
    State or territory of the United States, the District of Columbia, Puerto Rico, Guam, American
    Samoa, the Commonwealth of the Northern Mariana Islands, or the United States Virgin
    Islands.
I
I
I
I
I
I
I
I
I                                                   A-2
I
I                                Fair Credit Reporting Act
               Financial Institution and Consumer Identifying Information
I                                              15 U.S.C. § 1681u

I     (a) Identity of financial institutions


I    Notwithstanding section 1681 b of this title or any other provision of this subchapter, a
     consumer reporting agency shall furnish to the Federal Bureau of Investigation the names and
     addresses of all financial institutions (as that term is defined in section 3401 of Title 12) at
     which a consumer maintains or has maintained an account, to the extent that information is
I    in the files of the agency, when presented with a written request for that information, signed by
     the Director of the Federal Bureau of Investigation, or the Director's designee in a position not
     lower than Deputy Assistant Director at Bureau headquarters or a Special Agent in Charge of a
I    Bureau field office designated by the Director, which certifies compliance with this section. The
     Director or the Director's designee may make such a certification only if the Director or the
     Director's designee h"!-S determined in writing, that such information is sought for the conduct

I    of an authorized investigation to protect against international terrorism or clandestine
     intelligence activities, provided that such an investigation of a United States person is not
     conducted solely upon the basis of activities protected by the first amendment to the
     Constitution of the United States.
I    (b) Identifying information


I     Notwithstanding the provisions of section 1681 b of this title or any other provision of this
      subchapter, a consumer reporting agency shall furnish identifying information respecting a
      consumer, limited to name, address, former addresses, places of employment, or former places
      of employment, to the J?ederal Bureau of Investigation when presented with a written request,
I     signed by the Director or the Director's designee in a position not lower than Deputy Assistant
      Director at Bureau headquarters or a Special Agent in Charge of a Bureau field office
      designated by the Director, which certifies compliance with this subsection. The Director or

I     the Director's designee may make such a certification only if the Director or.the Director's
      designee has determined in writing that such information is sought for the conduct of an
      authorized investigation to protect against international terrorism or clandestine intelligence
    · activities, provided that such an investigation of a United States person is not conducted solely
I     upon the basis of activities protected by the first amendment to the Constitution of the United
     ·States.


I    (c) Court order for disclosure of consumer reports

    Notwithstanding section 1681 b of this title or any other provision of this subchapter, if
    requested in writing by the Director of the Federal Bureau of Investigation, or a designee of the
I   Director in a position not lower than Deputy Assistant Director at Bureau headquarters or a
    Special Agent.in Charge in a Bureau field office designated by the Director, a court may issue
    an order ex parte directing a consumer reporting agency to furnish a consumer report to the
I   Federal Bureau of Investigation, upon a showing in camera that the consumer report is sought
    for the conduct of an authorized investigation to protect against international terrorism or
    clandestine intelligence activities, provided that such an investigation of a United States person

I   is not conducted solely upon the basis of activities protected by the first amendment to the
    Constitution of the United States.



I
I                                                    A-3
I
I   The terms of an order issued under this subsection shall not disclose that the order is issued
    for purposes of a counterintelligence investigation.

I   (d) Confidentiality

    No consumer reporting agency or officer, employee, or agent of a consumer reporting agency
I   shall disclose to any person, other than those officers, employees, or agents of a consumer
    reporting agency necessary to fulfill the requirement to disclose information to the Federal
    Bureau of Investigation under this section, that the Federal Bureau of Investigation has sought

I   or obtained the identity of financial institutions or a consumer report respecting any consumer
    under subsection (a), (b), or (c) of this section, and no consumer reporting agency or officer,
    employee, or agent of a consumer reporting agency shall include in any consumer report any
    information that would indicate that the Federal Bureau of Investigation has sought or
I   obtained such information or a consumer report.

    (e) Payment offees

I   The Federal Bureau of Investigation shall, subject to the availability of appropriations, pay to
    the consumer reporting agency assembling or providing report or information in accordance
    with procedures established under this section a fee for reimbursement for such costs as are
I   reasonably necessary and which have been directly incurred in searching, reproducing, or
    transporting books, papers, records, or other data required or requested tci be produced under
    this section.
I   (t) Limit on dissemination


I   The Federal Bureau of Investigation may not disseminate information obtained pursuant to
    this section outside of the Federal Bureau of Investigation, except to other Federal agencies as
    may be necessary for the approval or conduct of a foreign counterintelligence investigation, or,
    where the information concerns a person subject to the Uniform Code of Military Justice, to
I   appropriate investigative authorities within the. military department concerned as may be
    necessary for the conduct of·a joint foreign counterintelligence investigation.


I   (g) Rules of construction

    Nothing in this section shall be construed to prohibit information from being furnished by the
    Federal Bureau of Investigation pursuant to a subpoena or court order, in connection with a
I   judicial or administrative proceeding to enforce the provisions ofthis subchapter. Nothing in
    this section shall be construed to authorize or permit the Withholding of information from the
    Congress.

    (h) Reports to Congress

    (1) On a semiannual basis, the Attorney General shall fully inform the Permanent Select
    Committee on Intelligence and the Committee on Banking, Finance and Urban Affairs of the
    House of Representatives, and the Select Committee on Intelligence and the Committee on
    Banking, Housing, and Urban Affairs of the Senate concerning all requests made pursuant to
I   subsections (a), (b); and (c) of this section.

    (2) In the case of the semiannual reports required to be submitted under paragraph (1) to the

I   Permanent Select Committee on Intelligence of the House of Representatives and the Select
    Committee on Intelligence of the Senate, the submittal dates for such reports shall be as
    provided in section415b of Title 50.


I
I                                                 A-4
I
I
    (i) Damages

I   Any agency or department of the United States obtaining or disclosing any consumer reports,
    records, or information contained therein in violation of this section is liable to the consumer to
    whom such consumer reports, records, or information relate in an amount equal to the sum of-
I     (1) $100, without regard to the volume of consumer reports, records, or information involved;


I     (2) any actual damages sustained by the consumer as a result of the disclosure;

      (3) if the violation is found to have been willful or intentional, such punitive damages as a
      court may allow; and
I     (4) in the case of any successful action to enforce liability under this subsection, the costs of
      the action, together with reasonable attorney fees, as determined by the court.

I   {j) Disciplinary actions for violations

    If a court determines that any agency or department of the United States has violated any
I   provision of this section and the court finds that the circumstances surrounding the violation
    raise questions of whether or not an officer or employee of the agency or department acted
    willfully or intentionally with respect to the violation, the agency or department shall promptly

I   initiate a proceeding to determine whether or not disciplinary action is warranted against the
    officer or employee who was responsible for the violation.


I   (k) Good-faith exception

    Notwithstanding any other provision of this subchapter, any consumer reporting agency or
    agent or employee thereof making disclosure of consumer reports or identifying information
I   pursuant to this subsection in good-faith reliance upon a certification of the Federal Bureau of
    Investigation pursuant to provisions of this section shall not be liable to any person for such
    disclosure under this subchapter, the constitution of any State, or any law or regulation of any

I   State or any political subdivision of any State.

    (1) Limitation of remedies

I   Notwithstanding any other provision of this subchapter, the remedies and sanctions set forth
    in' this section shall be the only judicial remedies and sanctions for violation of this section.


I   (m) Injunctive relief

    In addition to any other remedy contained in this section, injunctive relief shall be available t~
    require compliance with the procedures of this section. In the event of any successful action
I   under this subsection, costs together with reasonable attorney fees, as determined by the
    court, may be recovered.                                        ·


I
I
I
I                                                  A-5
I
I                                   Fair Credit Reporting Act
                                   Consumer Full Credit Report
I                                          15 U.S.C. § 168lv

I    (a} Disclosure


I   Notwithstanding section 168lb of this title or any other provision of this subchapter', a
    consumer reporting agency shall furnish a consumer report of a consumer and all other
    information in a consumer's file to a government agency authorized to conduct investigations
    of, or intelligence or counterintelligence activities or analysis related to, international terrorism
I   when presented with a written certification by such government agency that such information
    is necessary for the agency's conduct or such investigation, activity or analysis.


I   (b) Form of certification

    The certification described in subsection (a) of this section shall be signed by a supervisory
    official designated by the head of a Federal agency or an officer of a Federal agency whose
I   appointment" to office is required to be made by the President, by and with the advice and
    consent of the Senate.

I   (c} Confidentiality

    No consumer reporting agency, or officer, employee, or agent of such consumer reporting

I   agency, shall disclose to any person, or specify in any consumer report, that a government
    agency has sought or obtained access to information under subsection (a) of this section.

    (d) Rule of construction
I   Nothing in section 1681 u of this title shall be construed to limit the authority of the Director of
    the Federal Bureau of Investigation under this section.

I   (e) Safe harbor

    Notwithstanding any other provision of this subchapter, any consumer reporting agency or
I   agent or employee thereof making disclosure of consumer reports or other information
    pursuant to this section in good-faith reliance upon a certification of a government agency
    pursuant to the provision1i'l of this section shall not be liable to any person for such disclosure

I   under this subchapter, the constitution of any State, or any law or regulation of any State or
    any political subdivision of any State.


I
I
I
I
I                                                   A-6
I
I                        ' Electronic Communications Privacy Act

I                                           18   u.s.c.   § 2709



I   (a) Duty to provide.--A wire or electronic communication service provider shall comply with a
    request for subscriber information anq toll billing records information, or electronic
    communication transactional records in its custody or possession made by the Director of the

I   Federal Bureau of Investigation under subsection (bl of this section.

    (b) Required certification.--The Director of the Federal Bureau of Investigation, or his
    designee in a position not lower than Deputy Assistant Director at Bureau headquarters or a
I   Special Agent in Charge in a Bureau field office designated by the Director, may--

      ( 1) request the name, address, length of service, and local and long distance toll billing

I     records of a person or entity if the Director (or his designee) certifies in writing to the wire or
      electronic communication service provider to which the request is made that the name,
      address, length of service, and toll billing records sought are relevant to an authorized
      investigation to protect against international terrorism or clandestine intelligence activities,
I     provided that such an investigation of a United States person is not conducted solely on the
      basis of activities protected by the first amendment to the Constitution of the United States;
      and

I     (2, request the name, address, and length of service of a person or entity if the Director (or
      his designee) certifies in writing to the wire or electronic communication service provider to
      which the request is made that the information sought is relevant to an authorized
I     investigation to protect against international terrorism or clandestine intelligence activities,
      provided that such an investigation of a United States person is not conducted solely upon
      the basis of activities protected by the first amendment to the Constitution of the United

I     States.

    (c) Prohibition of certain disclosure.--No wire or electronic communication service provider,
    or officer, employee, or agent thereof, shall disclose to any person that the Federal Bureau of
I   Investigation has sought or obtained access to information or records under this section.

    (d) Dissemination by bureau.--The Federal Bureau of Investigation may disseminate
I   information and records obtained under this section only as provided in guidelines approved by
    the Attorney General for foreign intelligence collection and foreign counterintelligence
    investigations conducted by the Federal Bureau of'Investigation, and, with respect to

I   dissemination to an agency of the United States, only if such information is clearly relevant to
    the authorized responsibilities of such agency.

    (e) Requirement that certain congressional bodies be informed.--On a semiannual basis
I   the Director of the Federal Bureau of Investigation shall fully inform the Permanent Select
    Committee on Intelligence of the House of Representatives and the Select Committee on
    Intelligence of the Senate, and the Committee on the Judiciary of the House of Representatives

I   and the Committee on the Judiciary of the Senate, concerning all requests made under
    subsection (b) of this section.




I
I                                                   A-7
I
I                                      National Security Act

I                                          50 u.s.c. § 436


I    {a) Generally

     (1) Any authorized investigative agency :µiay request from any financial agency, financial
     institution, or holding company, or from any consumer reporting agency, such financial
I    records, other financial information, and consumer reports as may be necessary in order to
     conduct any authorized law enforcement investigation, counterintelligence inquiry, or security
     determination. Any authorized investigative agency may also request records maintained by
I    any commercial entity within the United States pertaining to travel by an employee in the
     executive branch of Government outside the United States:      ·


I    (2) Requests may be made under this section where--

      (A) the records sought pertain to a person who is or was an employee in the executive branch
      of Government required by the President in an Executive order or regulation, as a condition
I     of access to classified information, to provide consent, during a background investigation and
      for such time as access to the information is maintained, and for a period of not more than
      three years thereafter, permitting access to financial records, other financial information,

I     consumer reports, and travel records; and                                            ·

      (B)(i) there are reasonable grounds to believe, based on credible information, that the person
      is, or may be, disclosing classified information in an unauthorized manner to a foreign power
I     or agent of a foreign power;

      (ii) information the employing agency deems credible indicates the person has incurred

I     excessive indebtedness or has acquired a level of affluence which cannot be explained by
      other information known to the agency; or

      (W) circumstances indicate the person had the capability and opportunity to disclose
I     classified information which is known to have been lost or compromised to a foreign power or
      an agent of a foreign power.


I    (3) Each such request--

      (A) shall be accompanied by a written certification signed by the department or agency head
      or deputy department or agency head concerned, or by a senior official designated for this
I     purpose by the department or agency head concerned (whose rank shall be no lower than
      Assistant Secretary or Assistant Director), and shall certify that--


I       (i) the person concerned is or was an empioree within the meaning of paragraph (2)(A};

        (ii) the request is being made pursuant to an authorized inquiry or investigation and is

11      authorized under this section; and

        (iii) the records or information to be reviewed are records or information which the
        employee has previously agreeq to make available to the authorized investigative agency for
I       review;      ,__                                                           ·

      (B) shall contain a copy of the agreement referred to in subparagraph (A)(iii);

I
I                                                  A-8
I
I      (C) shall identify specifically or by category the records or information to be reviewed; and

       (D) shall inform the recipient of the request of the prohibition described in subsection (b) of
I      this section.

     (b) Disclosure of requests

I    Notwithstanding any other provision of law, no governmental or private entity, or officer,
     employee, or agent of such entity, may disclose to any person, other than those officers,

I    employees, or agents of such entity necessary to satisfy a request made under this section, that
     such entity has received or satisfied a request made by an authorized investigative agency
     under this section.

I    (c) Records or information; inspection or copying

     (1) Notwithstanding any other provision of law (other than section 6103 of Title 261, an entity

 I   receiving a request for records or information under subsection (a) of this section shall, if the
     request satisfies the requirements of this section, make available such records or information
     within 30 days for inspection or copying, as may be appropriate, by the agency requesting such
     records or information.
 I   (2} Any entity (including any officer, employee, or agent thereof) that discloses records or
     information for inspection or copying pursuant to this section in good faith reliance upon the

 I   certifications made by an agency pursuant to this section shall not be liable for any such
     disclosure to any person under this subchapter, the constitution of any State, or any law or
     regulation of any State or any political subdivision of any State.

 I   (d) Reimbursement of costs

     Any agency requesting records or information under this section may, subject to the

 I   availability of appropriations, reimburse a private entity for any cost reasonably incurred by
     such entity in responding to such request, including the cost of identifying, reproducing, or
     transporting records or other data.                                                       ·

 I   (e) Dissemination of records or information received

     An agency receiving records or information pursuant to a request under this section may

 I   disseminate the records or information obtained pursuant to such request outside the agency
     only--


 I     (1) to the agency employing the employee who is the subject of the records or information;

       (2) to the Department of Justice for law enforcement or counterintelligence purposes; or


'I     (3) with respect to dissemination to an agency of the United States, if such information is
       clearly relevant to the authorized responsibilities of such agency.


 I   (f) Construction of section

     Nothing in this section may be construed to affect the authority of an investigative agency to
     obtain information pursuant to the Right to Financial Privacy Act (12 U.S.C. 3401 et seq.) or
 I   the Fair Credit Reporting Act (15 U.S.C. 1681 et seq.).



 I
 I                                                  A-9
.I
 I
 I
 I
 I
 I
 I
 I   ClLASSIFIBll
 I
     APPENDIX
 I
 I
 I
 I
I
I
I
I
I
I
I
I               CLASSIFIED APPENDIX (U)
I
I
I   Numbers of FBI National Security Letter Requests Issued
                From CY 2003 Through 2005

I            (Chart below is classified as SECRET)
                                                              bl
                                                              b3


I
I
I
I
I
I
I
I
I
I
I                    x
I
I
 I
 I
 I
 I    I.   Right to Financial Privacy Act (RFPA) National Security

 I         Letters (U)
                                                                                                bl
                                                                                                b3


 I
 I
 I
 I                                                                   ,   ... ·····'




 I                                                               x
.I
'/I
'I
                        x
II         Electronic Communications Pdvacy Act (ECPA) National
           Security Letters (U)

II                                                                                              bl
                                                                                                b3



ii                                                                       ,   .. • • '   ,,••'




 I
                                                       x
 I
 I                                 ~· .
    I
    I
    I
    I
    I                                                                                                    a.                       Tele hone Subscriber Information · U
                                                                                                                                                                                                                                                                                                                                                             bl
                                                                                                                                                                                                                                                                                                                                                             b3


    I
    I
    I
    I
    I                                                                                                                                                                                                                                                              x

    I
    I
    I
I
    I                                                                                                                                                                                                                                                                        x
1(1
1/1                                                                                                                                                                                                                                                                                                                                                          bl
                                                                                                                                                                                                                                                                                                                                                             b3


!>I     •:..,s:1   +······································································································································································································································································································································




11                                                                                                                                                                                                                                             x
II
                                                                                                                                                                            IJ-3

                                                                                                                                                              ~
 I
 I    b.   Electronic Communication Subs-criber
 I              -~co   nn
                                                  bl
                                                  b3


 I
 I
 I
 I
 I                                        x

 I
 I
 I
.\I        x
11
ii                                                bl
                                                  b3




!I
>I
 I                             x
 I
 I
I
I                                                 bl
                                                  b3

I
I
I        x
I   d.   Electronic Communication Transactional
         Records lUl
                                                  bl

I                                                 b3




I
I
I
I                                          x
I
I
I
I                                           x
I
I
I
I
 I
 I   A.
                            ~
          16Slu(a} and (b) (U)

 I                                                      bl

 I                                                      b3




 I
 I             Iden ti   of Financial lnstituti.ons U
                                                        bl

 I                                                      b3




 I
 I
 I
 I                                           x
 I
11
II
ii        2.
                                 x
                                      Information
 I                                                      bl
                                                        b3



 I
 I
 I
I                                -   ,..
                                   - \U/                     bl
                                                             b3


I                                                    x

I
I
I
I
vi
II
II   B.
                                              x

II
          1681v (Consumer Full Credit Reports) (U}

                                                             bl
                                                             b3

'I
I                                                        x


I
I
I
I
I
I
    I
    I
    I                                                    x
    I   IV.   National Security Act National Security Letters (Ul
                                                                    bl


    I             x
                                                                    b3




    I
    I
    I
    I
    I
II
11
ii
11
:


!I
11
 I
 I
 I
